<html>
<title> - NATIONAL PARK SERVICE CONCESSIONS MANAGEMENT</title>
<body><pre>[Senate Hearing 107-59]
[From the U.S. Government Printing Office]




                                                         S. Hrg. 107-59

              NATIONAL PARK SERVICE CONCESSIONS MANAGEMENT

=======================================================================

                                HEARINGS

                               before the

                    SUBCOMMITTEE ON NATIONAL PARKS,
                 HISTORIC PRESERVATION, AND RECREATION

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

         TO REVIEW THE NATIONAL PARK SERVICE IMPLEMENTATION OF 
  MANAGEMENT POLICIES AND PROCEDURES TO COMPLY WITH THE PROVISIONS OF 
   TITLES I, II, III, IV, V, VI, VII, AND VIII OF THE NATIONAL PARKS 
                     OMNIBUS MANAGEMENT ACT OF 1998

                               __________

                             MARCH 22, 2001

                             MARCH 29, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               -----------

                   U.S. GOVERNMENT PRINTING OFFICE
73-119                     WASHINGTON : 2001


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  FRANK H. MURKOWSKI, Alaska, Chairman
PETE V. DOMENICI, New Mexico         JEFF BINGAMAN, New Mexico
DON NICKLES, Oklahoma                DANIEL K. AKAKA, Hawaii
LARRY E. CRAIG, Idaho                BYRON L. DORGAN, North Dakota
BEN NIGHTHORSE CAMPBELL, Colorado    BOB GRAHAM, Florida
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
RICHARD C. SHELBY, Alabama           TIM JOHNSON, South Dakota
CONRAD BURNS, Montana                MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
CHUCK HAGEL, Nebraska                DIANNE FEINSTEIN, California
GORDON SMITH, Oregon                 CHARLES E. SCHUMER, New York
                                     MARIA CANTWELL, Washington
                    Brian P. Malnak, Staff Director
                      David G. Dye, Chief Counsel
                 James P. Beirne, Deputy Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

 Subcommittee on National Parks, Historic Preservation, and Recreation

                    CRAIG THOMAS, Wyoming, Chairman
            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman
CONRAD BURNS, Montana                DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
CHUCK HAGEL, Nebraska                BOB GRAHAM, Florida
PETE V. DOMENICI, New Mexico         MARY L. LANDRIEU, Louisiana
                                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

  Frank H. Murkowski and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Jim O'Toole, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearings:
    March 22, 2001...............................................     1
    March 29, 2001...............................................    43

                               STATEMENTS
                             March 22, 2001

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     3
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     4
Cornelssen, Curt, Director, Global Hospitality and Leisure 
  Practice, PricewaterhouseCoopers...............................    24
Fassler, Joseph K., Director, National Park Hospitality 
  Association....................................................     7
Horn, William P., Attorney at Law, Birch, Horton, Bittner, and 
  Cherot, on behalf of America Outdoors..........................    21
Ring, Richard G., Associate Director, Park Operations and 
  Education, National Park Service, Department of the Interior...     5
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Voorhees, Philip H., Senior Director, Park Funding and 
  Management, National Parks Conservation Association............    18

                             March 29, 2001

Galvin, Denis P., Deputy Director, National Park Service, 
  Department of the Interior.....................................    44
Jackson, Greg, Vice President, Fraternal Order of Police, Ranger 
  Lodge #60......................................................    64
McElveen, Scot, Board Member for Special Concerns, Association of 
  National Park Rangers..........................................    68
Thomas, Hon. Craig, U.S. Senator from Wyoming....................    43
Vestal, Jay, Vice-President of Field Development, National Park 
  Foundation.....................................................    76
Ward, Peter J., Chairman, Fraternal Order of Police, U.S. Park 
  Police Labor Committee.........................................    54

                                APPENDIX

Responses to additional questions................................    95

 
              NATIONAL PARK SERVICE CONCESSIONS MANAGEMENT

                              ----------                              


                        THURSDAY, MARCH 22, 2001

                           U.S. Senate,    
            Subcommittee on National Parks,
             Historic Preservation, and Recreation,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-192, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. It being 2:30, we will start, which is 
unusual on Senate time, but thank you for being here. I would 
like to welcome all of you to the subcommittee's oversight 
hearing on National Park Service implementation of management 
policies and procedures under the provision of title IV of the 
public law last year, or 2 years ago past, otherwise known as 
the concession reform.
    When we first introduced the legislation which brought 
about reform of the National Park Service we had, I think six 
primary goals or objectives in mind. One was to improve the 
management program of the National Park Service to become more 
effective and more efficient, second, to achieve greater 
competition between parties in bidding and awarding of 
concession contracts, to improve the quality of visitor 
services offered by concessionaires, to improve the maintenance 
of facilities offered by concessionaires, to elevate the 
operation and administration and management of concession 
programs on a more business-like basis, taking ideas from the 
successful private sector practices into consideration and, 
finally, encouraging investment in park concession and 
facilities by the private sector.
    I was joined at that time by Secretary Babbitt and former 
Senator Bumpers in crafting the final provisions in a 
bipartisan effort to achieve meaningful and needed reform. 
Throughout the negotiations, the original goals and objectives 
remained generally intact. In reviewing the written testimony 
from today's witnesses, I am not completely satisfied that we 
have achieved the goals and the objectives of title IV of this 
bill. I also realize the enactment of legislation placed a 
heavy burden on the National Park Service. For years, right or 
wrong, the administration chose to issue a number of 1-year 
extensions to concessionaires whose contracts had expired as a 
stop-gap measure until reform was attained.
    Unfortunately, reform took longer than anyone anticipated. 
As a result, today we face the backlog of major and minor 
expired or about-to-expire contracts which require formulation, 
solicitation, and award.
    Formulation and solicitation of new contracts has presented 
the National Park Service with some major hurdles, which are 
not easy. With large contracts, the conversion of possessory 
interests to leasehold surrender value has become an issue 
which requires more expertise in the appraisal and arbitration 
techniques than was original envisioned, I believe. Smaller 
contracts, while the Congress provided the direction to 
streamline the contract process, we evidently have reduced the 
response to solicitation to bid on the one hand, but have 
unintentionally, I think, increased the burden on the other.
    There are still other areas in which we can take a lesson 
from the private sector, as well as other Federal agencies. We 
need not argue what is a capital expenditure and what is not. 
Capital investment is well-defined in existing rules and 
regulations, and used by a wide variety of other Federal 
agencies. There is no reason that I can see as to the rationale 
for the Park Service to have their own unique interpretation of 
this already defined term of art.
    There is still much to be learned and to be refined by both 
the concessionaires and the management of the Park Service if 
we are going to succeed in accomplishing the goals that were 
set about. As most of you are aware, I have largely been 
against the 1-year extension and have spoken on the issue on a 
number of occasions. It becomes very apparent that the 
formulation, solicitation, and ward of contracts within 1 
year's time may be unrealistic given the complexities.
    When we created concession reform, we envisioned the 
existence of contract prospectuses that clearly spelled out the 
differences and responsibilities of the respondent for the 
entire term of the contract. If there was to be an increase in 
franchise fees at certain periods over the term, they were to 
have been addressed. In addition, costs that a new 
concessionaire might have to incur in the award of a contract 
were to be set forth. In other words, the playing field of 
contracting was to be leveled out so that all potential players 
were encouraged to participate.
    It is extremely difficult to bid on an estimated value of 
property, especially when the values can change drastically, 
oftentimes before you can even put the pen to the paper. 
Estimating certainly can discourage competition, one of the 
main frames of the concession reform. It does cost a certain 
amount of money to bid on a proposal, and if you are aware of 
the entire scope of duties and responsibilities, that 
expenditure can be justified. If they are unknown or uncertain, 
the expenditures of funds may not be justified.
    The bottom line is, we need additional time to do it right. 
I am willing to listen and work hard with both the Park Service 
and concessionaires to address issues and to address the 
problems facing us in implementing this program. The record 
will remain open for anyone who wishes to submit testimony, and 
we are going to hear from several witnesses today to see how 
they think we are doing with respect to accomplishing these 
goals.
    We are going to deviate a little bit from the normal 
process and ask all five witnesses to come to the table at the 
same time so that we can encourage some exchange as we go on 
through.
    I welcome the ranking member, the Senator from Hawaii.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. It is a 
pleasure working with you, and I want to thank you for calling 
this hearing on title IV of the National Parks Omnibus 
Management Act. Concessions play an important and supportive 
role in the overall park experience and the 1998 National Parks 
Omnibus Management Act calls for a substantial change in the 
relationship between national parks and concessioners.
    Looking back over the years prior to 1998, we all worked 
hard to reach a compromise on this far-reaching legislation. 
Senator Thomas, and I mean this, is to be congratulated on his 
perseverance and leadership on forging consensus on this issue 
and crafting the legislation which became law. The new law 
revised one that had been in place for over 33 years, since 
1965. As we worked in 1998, we were optimistic that the new law 
would improve competition for concession contracts, improve the 
management of concessions, and improve the quality of visitor 
services. The final rules were issued in May 2000, 2 years 
after the bill was signed into law.
    My point is that major change, and this fits in the 
category of major change, is not easy and it is not quick. 
Changing the law and a way of life for concessionaires after 35 
years is not easy. Although the road forward may be bumpy, we 
really need to keep the overall goals in mind, improving 
competition for new contracts, enhancing concessions and 
visitor experience at our national parks, and at the same time 
maintaining the natural and cultural values inherent in our 
national parklands and sites.
    Transition to the new law may not be smooth, and we need to 
check the implementation along the way. That is what we are 
doing today, and I look forward to hearing from our 
distinguished witnesses.
    Mr. Chairman, I am interested in the implementation of this 
legislation. As we move forward, some areas such as leasehold 
surrender interests and how they work may need to be clarified. 
I have received questions regarding the assessment of fair 
market value. I look forward to hearing what steps are being 
taken to solve problems in determining the possessory interest 
or leasehold surrender interest of facilities on park lands. I 
look forward to considering whether there is a way to make the 
process more objective.
    The determination of the value of the concessioner assets 
is critical to both concessioners and the Government. The one 
example that we have at Grand Canyon highlights that problem. 
The great difference between concessioner and Government 
valuations and the results of arbitration bring into question 
whether concession contracts will be truly competitive when 
issued.
    Mr. Chairman, unfortunately I have to leave shortly, but I 
look forward to working with the Park Service on these issues.
    Senator Thomas. Thank you so much.
    Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thanks, Mr. Chairman. I will submit my 
statement for the record. Let me just say, I have been on this 
committee 8 years, and was chairman, as you know, before you 
took the gavel, and I do not think anything in my experience 
has been more complicated than finding fairness in the parks 
than dealing with the concessionaires, fairness for the 
concessionaires, fairness for the taxpayer, getting the 
appropriate amount from the concessionaires, fairness for the 
park users that are not paying more than they think is fair, 
and when you deal with levels of groups, everything from mom 
and pop stores up to the huge national concerns that are now in 
the parks, it is not an easy solution.
    You have the ones that are in that want to stay in, 
obviously, the ones that are not in that want to get in, the 
ones that are right outside the front gate that think there is 
unfair competition because the other few are in or want to get 
in, and we have got letters from all of them, as you have.
    So I commend you for holding this hearing and look forward 
to working with you, and I hope we find some solution as we 
move forward, but I know it is a very difficult question.
    Thanks.
    [The prepared statement of Senator Campbell follows:]

   PREPARED STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR 
                             FROM COLORADO

    Thank you, Mr. Chairman. I would like to welcome all of the 
panelists before the committee today and I am looking forward to the 
testimony that they will be providing us shortly.
    Land management is a concern that is heard from all parts of the 
country and my home state of Colorado. And, concession management is a 
crucial part of our National Parks. As you all know, the concession 
operations vary in size from smaller, family owned operations to larger 
corporate operations. Some of these mom and pop operations have been 
around for a long time and are a significant part of the park, so we 
have to ensure that their operations are not harmed.
    I am pleased that a major portion of the fees from the contracts 
are to remain in the park from which the money came. This will help to 
reduce a portion of the backlog of maintenance which currently exists 
in our parks. I also hope that during this hearing we can evaluate 
whether or not this act is being implemented and enforced the way it 
should be, and if not how we can fix the problems.
    I think that we are on the correct path to improve the quality of 
federal land management. I have a few questions that I will address 
during the appropriate time.
    Thank you, Mr. Chairman.

    Senator Thomas. Thank you, sir. Okay. If our witnesses will 
take their seats, please, we will get going. We have Mr. 
Richard Ring, Associate Director, Park Operations and 
Education, National Park Service, Mr. Joe Fassler, consultant, 
National Park Hospitality Association, Phil Voorhees, director 
of park funding and management programs and member of the 
National Parks Concessions Advisory Board, Mr. Bill Horn, 
attorney-at-law, who represents America Outdoors, and Mr. Curt 
Cornelssen, director of Pricewater-houseCoopers, the group that 
did the evaluation study.
    I think we will go as listed here, and as I said, we are 
going to do it a little bit differently this time, and I would 
ask if you can to hold your presentation to about 5 minutes, or 
close to that, and then we can have a little bit of exchange, 
perhaps, and your full statement will be printed in the record.
    So Mr. Ring, if you would like to begin, sir.

    STATEMENT OF RICHARD G. RING, ASSOCIATE DIRECTOR, PARK 
OPERATIONS AND EDUCATION, NATIONAL PARK SERVICE, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Ring. Thank you, Mr. Chairman, and thank you for having 
the opportunity to speak to you today. I am Dick Ring. I am the 
Associate Director for Operations and Education of the National 
Park Service. I came into the job this past fall, and 
previously had been at Everglades National Park for 8\1/2\ 
years as the superintendent, so I am learning a range of 
programs, concessions included, so I am very pleased to be 
testifying here today on this issue.
    Public Law 105-391 was enacted in November 1998, and it 
represents a bipartisan effort over 20 years or more to try and 
find a more fair and effective way to handle concessions within 
the national parks, and we have been working for the last 2 
years to begin to implement that and to try and achieve the 
objectives of that law.
    We are being assisted in implementing that by the National 
Park Concessions Advisory Board, which was set up through this 
act, and we believe that that board is a very effective tool. 
We have worked with it and have, I believe, a good working 
relationship with that board. We appreciate the outside 
expertise they bring to us, and we have what I believe is a 
very good working relationship with them and expect a very 
productive one over the next few years.
    We have also gone outside our organization and contracted 
with PricewaterhouseCoopers to take a look at the concessions 
management program of the agency and to make recommendations 
with regard to our fiduciary responsibilities and how to more 
effectively recognize them and deal with them, but also to look 
at our management processes to ascertain whether or not there 
are ways that we could reengineer those to make them more 
effective.
    Furthermore, we are also aggressively moving towards the 
use of an increasing number of private consultants to get that 
third party objective expertise brought into our agency, and we 
can incorporate that knowledge into the improvement of our 
program. We are committed to ensuring that all National Park 
Service employees who have some responsibility for concessions 
management are properly trained and have the necessary 
knowledge and skills to perform their duties in a highly 
effective manner.
    Particularly, we are involved in contracting with the 
Department of Defense to develop certification standards for 
all concessions contracting personnel which would be comparable 
to the Federal acquisitions regulation model, and the 
certification standards are set up in three categories to deal 
with the different levels of complexity and difficulty of 
contracting in the concessions program. All levels of 
certification will require specific training experience and 
continuing education.
    We also anticipate dealing with a great deal more 
outsourcing to develop protocols in key business processes of 
contracting and contract oversight, greatly enhancing the 
administration of high priority and high risk contracts as 
well.
    We are continuing to address our efforts on the critical 
backlog of expired contracts and anticipate the renewal and 
award of up to 100 of them in this coming year. We are, 
however, facing a significant bubble of work over the next 
several years. It is a workload that is not a normal workload, 
and it is one that we are struggling to make sure that we are 
able to come to grips with both effectively and in a timely 
manner.
    We anticipate the use of private sector consultants to 
assist us in this process, particularly with respect to the 
smaller number of more complex and larger grossing concessions 
contracts, where we need that level of expertise in a way that 
we do not have adequately represented within our own ranks, and 
we will be anticipating that.
    We take very seriously our commitment to implementing title 
IV of the law, and we believe that the steps that I have 
outlined will make a significant progress in helping to 
implement that.
    We will be pleased to answer any questions you may have.
    [The prepared statement of Mr. Ring follows:]

    PREPARED STATEMENT OF RICHARD G. RING, ASSOCIATE DIRECTOR, PARK 
  OPERATIONS AND EDUCATION, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                                INTERIOR

    Mr. Chairman, members of the subcommittee, thank you for the 
opportunity to discuss the progress of the National Park Service in 
implementing Title IV of the National Parks Omnibus Management Act of 
1998, Public Law 105-391.
    Title IV of Public Law 105-391 was enacted on November 13, 1998. 
This title repealed the Concessions Policy Act of 1965, Public Law 89-
249, and established a new process for concessions contracting and the 
terms and conditions of those contracts. The law also established the 
Concessions Management Advisory Board and directed other changes in 
NPS' management of its concessions program. The law is the bipartisan 
product of over 20 years of work by legislators, Departmental 
officials, and interested citizens who desired to improve the 
management of NPS' concession program.
    One of the primary goals of the new law is to make the NPS' 
administration of concession contracts more efficient and businesslike. 
We are being assisted in implementing the new law in this respect by 
the National Park Service Concessions Management Advisory Board, 
established by Section 406 (c) of Title IV.
    The law directed the board to make recommendations to the Secretary 
of the Interior regarding the NPS contracting with the private sector 
to conduct appropriate elements of concession management; the review 
and approval of concessioner rates and charges to the public; the 
nature and scope of products which qualify as Indian, Alaska native, 
and Native Hawaiian handcrafts; and the allocation of concession fees. 
Related to the board's mandate is the priority of the National Park 
Service to develop a business strategy for the concessions management 
program.
    In the advisory board's first annual report to Congress, 
recommendations focused on organizational realignments, research into 
non-appropriated funding instrumentalities, and specific programmatic 
issues such as the rate approval program. We are pleased to tell you 
that this season we will be implementing a competitive market approach 
to retail merchandise pricing. We will also implement the board's 
recommendation to establish a ``business champion'' within the National 
Park Service by recruiting a new Associate Director for Partnerships 
and Business Practices once the new NPS Director is in place. In 
addition, we are consulting with the private sector to find ways of 
streamlining our processes further, including our quality standards and 
evaluation program.
    We have also contracted with PricewaterhouseCoopers, from whom you 
also will be hearing today, to conduct an internal analysis of the 
management of our program and existing business processes. 
PricewaterhouseCoopers has provided us with a number of recommendations 
which will assist us in fulfilling our commitment to addressing our 
fiduciary responsibility related to concession contracts, in the 
reengineering of existing management processes, and in further 
enhancing staff competencies and training. Furthermore, we are 
aggressively moving towards the use of private consultants to assist us 
in the management of our commercial visitor services.
    We are also committed to ensuring that all NPS employees who are 
responsible for concessions management are properly trained and have 
the necessary knowledge and skills to perform their duties in a highly 
professional manner. In this regard, we are contracting with the 
Department of Defense and developing certification standards for all 
concession contracting personnel which would be comparable to the 
Federal Acquisitions Regulations (FAR) model. The certification 
standards parallel the three categories of concession contracts that 
are used by the NPS.
    Category III contracts are used in situations where no land or 
buildings are assigned to the concessioner; consequently, the 
concessioner will not be allowed to construct or install any capital 
improvements and will not obtain any leasehold surrender interest. 
Approximately 330 outfitter and guide operations will be authorized by 
Category III contracts.
    Category II contracts are used in situations where a concessioner 
will operate on assigned land or in an assigned concession facility, 
but will not be allowed to construct or install capital improvements. 
An example might be a gift shop operation located in a portion of a 
park's visitor center.
    Category I is the highest level of certification and is generally 
for concession contracts that require a variety of services at several 
locations and include the assignment of lands and concession 
facilities, as well as leasehold surrender interest compensation and 
capital investment provisions.
    All levels of certification require specific training, experience, 
and continuing education. This program of certification will be 
augmented with outsourcing of specific contracting functions.
    We have also contracted with Northern Arizona University (NAU) to 
develop a hospitality certification program for all NPS employees with 
concessions management responsibilities and will again use the private 
sector as a benchmark to develop an action plan. NAU will deliver 
hospitality management training from their School of Hotel and 
Restaurant Management, providing a comprehensive, multi-year course of 
certification in hospitality management, including business and 
financial training.
    Most importantly, recognizing that we must work smarter in a 
business sense, we also have outlined a strategy to implement the 
provisions of the new law that facilitate open competition for 
concession opportunities in the National Park Service. Through 
outsourcing, we will develop protocols that focus on the key business 
processes of contracting and contract oversight, greatly enhancing 
administration of high-priority and high-risk contracts. In doing so, 
however, we do not abdicate our responsibilities to resource protection 
and preservation, but rather we will ensure that the return to the 
government will be commensurate with the privilege granted by the 
contract and that the government's interests will be protected.
    We are continuing our efforts to address the critical backlog of 
expired concession contracts, and anticipate the renewal and award of 
up to one hundred of them this coming year. We are, however, facing a 
significant ``bubble'' of work over the next several years, a workload 
that is beyond the capabilities of our current staffing situation. We 
anticipate the use of private-sector consultants to assist us in this 
process, particularly with respect to the relatively small number of 
complex contracts that require significant professional expertise 
beyond our in-house capability. Improving the management of the 
National Park Service's concessions program is one of our very highest 
priorities, and we know that it is also one of yours. We take seriously 
the commitment to implementing the changes that are required by Title 
IV of the National Parks Omnibus Management Act of 1998. We believe 
that the actions that I have outlined here today are a further step 
toward the achievement of improved management of our concessions 
program.
    This concludes my testimony. I would be happy to answer any 
questions you might have.

    Senator Thomas. Thank you very much.
    Mr. Fassler.

           STATEMENT OF JOSEPH K. FASSLER, DIRECTOR, 
             NATIONAL PARK HOSPITALITY ASSOCIATION

    Mr. Fassler. Thank you, Mr. Chairman. I am pleased to have 
been invited to your important oversight hearing on concession 
policy in the national parks. I am a member of the board of 
directors of the National Park Hospitality Association, and 
represent that group here today. I am here at your invitation 
to talk about some of the problems in the implementation of the 
concessions management portion of the Public Law 105-391, which 
I will refer to as the 1998 Act.
    Today, to make my conversation as brief as possible, I will 
go right into some of the inconsistencies between the act and 
the way the act was regulated. The first area--I have six 
issues to discuss. The first issue is leasehold surrender 
interest. There are two parts of this. First off, businesses 
and government agencies rely upon generally accepted accounting 
practices, better known as GAP, to identify what constitutes a 
capital improvement for accounting purposes. These standards 
are used in virtually all audited financial statements, and a 
company's return on investment is computed off the amount of 
capital it has.
    The National Park Service has, in our opinion, improperly 
narrowed the definition of capital improvement and other terms 
that support the determination of what is a capital 
improvement. For example, the NPS capital improvements made to 
existing structures must qualify as major rehabilitations, as 
determined by the Director, before they would be eligible. Very 
few renovation projects would pass this test.
    In addition, the NPS disqualifies certain costs that would 
normally be capitalized under GAP, but under the 1998 Act, if 
we are not mistaken, it said all capital improvements are 
entitled to leasehold surrender interest.
    A second area, we believe that the 1998 Act is clear in 
that a concessionaire cannot be dispossessed before value is 
paid for its interest. The NPS has attempted, however, to 
specify that this payment can be delayed for a period of time 
after we are replaced by a new operator. This is like selling 
your home and allowing the buyer to take immediate occupancy 
without having to pay you until it was convenient for them to 
do so.
    It seems incredible that the NPS would think that 
concessionaires who want and need financing for their 
businesses will find banks getting in line to make a loan when 
the collateral for that loan might disappear before they are 
repaid. Concessionaires, I do not believe, are willing to 
invest their money under those kinds of circumstances.
    Another issue is the standard form contract. The National 
Park Service standard form contract is as important to this 
committee's review as the regulations or any other document, 
since the form contract will be used for individual contracts 
that govern the relationships between the NPS and each of its 
concessionaires.
    A standard form contract is illegal, because it 
incorporates many of the illegal provisions I discuss today, as 
well as in my written testimony. It also is objectionable on 
its own, because it is a very one-sided document that would 
never work in a private commercial setting. The NPS has 
essentially no duties, the compliance by the concessionaire 
with contract terms is subject to the satisfaction of the 
Director without objective standards that define compliance, 
and many important sections of the contract are subject to 
change at the whim of the Director.
    I suspect that many prospective operators will lose 
interest on bidding on concession opportunities, thereby 
frustrating one of the basic purposes of the 1998 Act, which 
was the desire to generate more bidding interest for contracts. 
Most private sector contracts define all of the obligations of 
each party. Those obligations are detailed, and have 
ascertainable standards, and do not permit either party to 
change the terms of the contract without the agreement of the 
other.
    We have no problem being judged by the quality of our 
service and being displaced if we fall short. We should know we 
should not be displaced if we provided good service just 
because an unfair and illegal form contract is forced upon us.
    The assignment of concession contracts is another issue. 
The act does not require the National Park Service consent for 
so-called corporate control transactions where the entity 
holding the contract does not change, but the transaction takes 
place at the parent level. That has the effect of transferring 
direct or indirect ownership of the concessionaire, often 
within the same corporate family.
    By trying to give itself this kind of power over 
transactions at the parent level, the NPS is creating a 
significant barrier to free enterprise. Most large companies 
with multiple business lines would be discouraged from 
competing for contracts because of the potential loss of a 
valuable corporate merger, acquisition, sale, or reorganization 
due to the failure or delay in obtaining NPS approval.
    An example. If you were McDonald's, would you put yourself 
in a position where the sale of your entire corporation 
required the approval of concession personnel at the National 
Park Service? But even if you were a smaller company that could 
enter into a corporate restructuring worth, say, $10 million, 
would you risk the possibility that holding a concession 
contract through a subsidiary would prevent that transaction? 
Typically, a government agency does not have such far-reaching 
rights.
    Another issue is the incumbency of concession contracts and 
leasehold surrender interest. The act clearly states that a 
concessionaire can pledge its leasehold surrender interest as 
collateral for loans. Nevertheless, the NPS says a 
concessionaire, once it has a loan, cannot later refinance that 
loan. This defies common sense. Many contracts, particularly 
those most in need of financing, offer relatively long periods, 
certainly longer than the typical commercial loan.
    Thus, if a concessionaire cannot refinance the concession, 
it has no practical means of repayment at the end of the loan. 
This position also prevents the common business practice of 
refinancing loans when rates go down, thus improving the return 
of the business, and making more cash available for 
reinvestments right in the same park that you are operating.
    The second issue is based on the NPS prohibition in the 
regulations against cross-collateralization of loans, that is, 
using collateral in more than one park to secure a single loan. 
The benefits of doing so are obvious. Among other things, the 
concessionaire can get a larger aggregate loan at a lower cost 
if the risk is spread over multiple parks, such as a bad year 
at one park can be offset by a better year at some other parks. 
Some concessionaires now have such loans, and will be faced 
with refinancing problems when those loans come due, based on 
present-day regulations.
    Another issue is the failure to provide direction, new 
direction on rate approvals. The act requested that the rate 
approval process be based on prompt and unburdensome policies, 
and shall be based on market conditions, recognizing the unique 
operating constraints placed on a concession operation.
    The advisory board was to make recommendations on how best 
to do this. Nothing to date has changed, as the board made no 
positive recommendations for any change. It is our hope that 
this committee does not consider that the advisory board's work 
is done on the rate issue. The committee should consider giving 
additional direction in this area.
    The last issue is solicitation, selection, and award 
procedure. The 1998 Act clearly sets forth four primary 
criteria to be given the most weight by the NPS in its review 
of submitted prospectuses. The regulations, however, split the 
first two criteria set forth in the statute into two and 
mandate a second criteria that is, in fact duplicative of the 
one of the first new split criteria. As a consequence, how a 
concessioner will address the park's environment program has a 
weighting approximately three times as heavy as what Congress 
dictated while other criteria was given most emphasis by 
Congress in its committee report, that being the experience of 
the operator. It takes a back seat to the first.
    Concessioners have no quarrel with being good environmental 
citizens. In fact, many of our members have received awards 
from the NPS for our conservation efforts. Nevertheless, the 
law requires the NPS to focus on each of the two equal mandates 
that Congress specified when it created the National Park 
Service in 1916. The first is to protect park resources. The 
second is to provide for their enjoyment by the public. It is 
our opinion that the NPS has largely forgotten the second 
mandate, and it is our hope that the new administration 
restores its former importance, because that is what we believe 
the public wants and expects.
    Let me conclude. We appreciate the interest of the 
committee in this matter. All parties have worked too long on 
this issue to allow the administrative process to frustrate the 
decisions made by Congress. The National Park Hospitalities 
Association believes that our recommendations are in the best 
interests of the parks, the visitors, and the taxpayers, and 
thank you for your time and your hard work on behalf of our 
national parks and the American public.
    I also want to end by saying we believe that, the National 
Park Service working with us, we think we can fix these 
situations, but where it is right now, we do not believe the 
regulations have been written in the truest sense, or the 
meaning of the 1998 Act.
    Thank you.
    [The prepared statement of Mr. Fassler follows:]

   PREPARED STATEMENT OF JOSEPH K. FASSLER, DIRECTOR, NATIONAL PARK 
                        HOSPITALITY ASSOCIATION

    Mr. Chairman, I am pleased to have been invited to your important 
oversight hearing on concessions policy in our national parks. As a 
member of the Board of Directors of the National Park Hospitality 
Association (``NPHA''), I represent a membership that is responsible 
for most of the visitor services provided by the private sector in our 
National Parks. I was formerly Chairman of Glacier Park, Inc. 
(``GPI''), which operates the primary visitor services facilities at 
Glacier National Park. I was also formerly President and CEO of GPI's 
parent, Restaura, Inc., which operates a variety of commercial 
hospitality enterprises, and Restaura was a wholly-owned subsidiary of 
Viad Corp., which is a large multi-national public company. When Viad 
recently sold Restaura, it determined to retain ownership of GPI, and I 
retired from the company but agreed to continue to oversee the GPI 
operations on a consulting basis for Viad. I have substantial 
experience in the hospitality industry, and have served as Chairman of 
the National Restaurant Association and its educational foundation.
    You invited us to discuss some of the problems we see in the 
implementation of the concessions management portion of P.L. 105-391, 
which is known as the National Park Service Concessions Management 
Improvement Act of 1998, and which we typically refer to as the ``1998 
Act''. As you know, NPHA has on a number of occasions participated in 
hearings both during the years that led up to the passage of your 
legislation, and last year as you conducted oversight hearings on the 
regulations and form contract that had then just been issued by the 
National Park Service (``NPS'') to implement that legislation.
    NPHA raised numerous objections to both documents when they were 
presented for public comment and still believes that many of their 
provisions violate both the spirit and letter of the 1998 Act. Copies 
of those comments were provided to the committee staff in the past and 
so are not being submitted for the record at this time. We felt so 
strongly about some of these problems that we regrettably felt 
compelled to file suit against the NPS and the Department of the 
Interior to ask for the court's assistance in overturning them. Three 
concessioners have also filed suit and the judge has consolidated all 
of these actions into one case.
    For obvious reasons, I don't intend today to present our legal case 
to you. That is for our lawyers to do in court, and I am not a lawyer. 
Thus my testimony here should not be considered a comprehensive legal 
argument. Instead, I think that it is most proper for me to point out 
some of the issues (not all of which are included in our litigation) 
that we believe constitute illegal detours from the law you passed, 
also make very little practical sense. Thus, this committee should take 
an interest in them because these NPS positions stand in the way of the 
basic direction that this committee was trying to take in 1998. I think 
it is instructive that in virtually every instance where the NPS chose 
between drafting provisions that would encourage participation and 
investment by concessioners and those that would discourage them, it 
chose the latter path. Obviously, the NPS' goal must not have been a 
healthy concessions system that can continue to improve service to the 
public.

                        PASSAGE OF THE 1998 ACT

    When the compromises were struck that resulted in the passage of 
the 1998 Act, we believe that Congress passed a bill that balanced a 
number of competing interests in a manner that would best benefit the 
public.
    As with all matters worked out through compromise, there are 
provisions of the 1998 Act that are objectionable to the NPHA. One 
concerns the discontinuance of renewal preferences that I don't intend 
to address here. We also know that there were provisions that were 
objectionable to the NPS, the other interest groups that were 
participating and even to some of the members of Congress who supported 
the bill in its final form.
    On the whole, however, the NPHA supported the bill because of its 
innovative approach to the valuation of our investments, its strong 
statements relating to the ratemaking process and the transfer rights 
of operators, and its detailed approach to the solicitation process 
that established criteria that not only recognized the need for 
concessioners to run their businesses in an environmentally sensitive 
manner, but also stressed prior experience and the needs of visitors as 
being superior to both return to the government and criteria that did 
not directly relate to visitor services. It also stated as a policy 
matter that it wanted the NPS to make its concessions management 
function less bureaucratic, more process efficient, timelier and less 
cumbersome.
    The NPS is trying to undo the compromises made in 1998 by issuing 
regulations and a form contract that implement the policies that 
Congress chose not to accept when the compromises were made that 
permitted the bill to pass. Though the NPS is charged with the 
responsibility to promulgate regulations and policies that support and 
serve to implement the 1998 Act, those regulations and policies must 
not distort the language and intent of the law that they are bound to 
support. To do otherwise is disrespectful both to Congress and the 
legislative process that is a foundation of our government. 
Particularly in a case such as the 1998 Act, where Congress went into 
significant detail in order to make clear its intent on the primary 
issues presented, it is distressing to find that the regulations and 
contract terms ignore the express provisions of the new law. And, 
instead of trying to simplify processes for the benefit of everyone, 
they are every bit as cumbersome and bureaucratic as before, if not 
more so.

                      LEASEHOLD SURRENDER INTEREST

    The treatment of Leasehold Surrender Interest and Possessory 
Interest in the 1998 Act is clear. Congress has mandated that 
concessioners continue to have the right to compensation for their 
investments made in park facilities when their contracts terminate. 
Nevertheless, the regulations and form contract repeatedly attempt to 
undermine this right.
    1. Leasehold Surrender Interest Applies to All Capital 
Improvements--The NPS has improperly narrowed the definition of 
``capital improvement'' and other terms that support the determination 
of what is a capital improvement. For example, the NPS has improperly 
narrowed the definition of ``construction cost'' in a number of ways. 
First, it invents a concept of ``eligible'' and ``ineligible'' costs, 
with only eligible costs, as determined by the Director, included in 
leasehold surrender interest. It then specifies costs that are eligible 
and ineligible, based on the NPS' own opinion and without regard to 
generally accepted accounting practices (``GAAP'') or accepted 
practices in the appraisal of real estate. The NPS also attempts to 
disqualify most capital improvements made to existing structures from 
leasehold surrender interest. For example, capital improvements made to 
existing structures must qualify as ``major rehabilitations'' as 
determined by the Director, before they would be eligible. The 1998 
Act, however, is clear that all capital improvements are to be included 
in leasehold surrender interest.
    Any company expects to get its money back plus a return on that 
money for any investment it makes. Under normal business conditions, it 
measures its return on investment mathematically based on the amount it 
has invested, which is based on all of its capital costs calculated in 
accordance with GAAP. If the government invents its own definitions 
that don't comply with common understanding and practice, this leads 
only to confusion and the need to make adjustments in terms of the 
return required.
    Congress tried to preserve incentives for investment in the 1998 
Act. However, the returns attributable to the compensation for the 
facilities are constrained by the fact that a concessioner can expect 
only a return of its cost, adjusted for inflation. If the definition of 
cost is changed so that a concessioner does not get credit for all of 
its cost, this only means that the return it requires must be generated 
somewhere else. In a national park concession, the only other place to 
obtain that return is from the cash generated by the business. This 
creates a problem in any business, but particularly where the business 
is heavily regulated. Where any significant investment is required, the 
need to obtain a higher than normal operating return puts significant 
upward pressure on rates and downward pressure on the amount that the 
concessioner will be wiling to invest. In addition, obtaining such a 
return from the business is a more-risky proposition than having it set 
mathematically by the LSI provisions in the 1998 Act, and thereby would 
increase the returns otherwise needed to justify the investment. It 
also makes any market-based analysis of rates meaningless, because the 
other market players expect to get a full return on the value of their 
facilities when they sell and thus can price their goods differently. 
Thus, to further attempt to constrain the returns available to 
concessioners for their investments, by not giving credit for all costs 
as the market would do, will only make it harder for the NPS to find 
investment capital from the private sector, and will frustrate 
Congress' intent to rely on concessioners as an investment source.
    2. A Concessioner Must Be Compensated For Leasehold Surrender 
Interest At The Time the Assets Are Surrendered to the Next Operator--
We also believe that the 1998 Act is clear that a concessioner cannot 
be dispossessed before value is paid for its interests. The NPS has 
attempted, however, to specify that this payment can be made as late as 
one year (and possibly in two years if the money is to come directly 
from the government) after the incumbent concessioner is dispossessed. 
This is analogous to selling your home and allowing the buyer to take 
immediate occupancy but not pay you for up to two years if it is 
inconvenient for him to do so. This practice clearly violates current 
law and must be changed. It seems incredible that the NPS would think 
that concessioners who want or need to finance their businesses will 
find banks willing to make loans at reasonable cost, if at all, when 
the collateral for their loans (both the facilities themselves and the 
cash flow from the business) might disappear before they get repaid. 
Concessioners are not willing to invest their own money under those 
circumstances either.
    3. The NPS Expanded the Meaning of the Deduction for Physical 
Depreciation in the 1998 Act That Will Perpetuate the Problems That 
Existed Under the 1965 Act Regarding Valuation--The formula for 
computing the value of leasehold surrender interest was simplified in 
the 1998 Act from essentially an appraised amount to actual cost as 
adjusted by the change (up or down) of the Consumer Price Index 
(``CPI''), in order to eliminate both the potential upside gain and 
downside risk to a concessioner's investment in improvements and to 
avoid disputes as to value at contract renewal time. Congress, however, 
chose to preserve language (that also appeared in the former 
Concessions Policy Act of 1965 (the ``1965 Act'')) that could cause the 
concessioner to realize less than the computed amount if the 
concessioner did not properly maintain the facilities. This deduction, 
if any, would be determined by computing the amount it would cost to 
bring the improvements up to the standard required by the contract. 
Nevertheless, the NPS has attempted to broaden this language to allow a 
further deduction from value for ``functional obsolescence''. 
Functional obsolescence, where it exists, requires a deduction from 
value if a given structure is not designed as efficiently the ones 
commonly available in the marketplace at the time of sale.
    Though it was part of their proposed regulations, the final 
regulations did not include this term directly. Instead, the NPS 
comments that accompanied the final regulations stealthily stated that 
the NPS believed that all forms of depreciation could be deducted. This 
is not what the law says. In fact, the committee report that 
accompanied the bill made it clear that only a deduction for ``wear and 
tear'' was contemplated. The NPS' position again frustrates the desire 
to obtain investment capital from the private sector. First of all, the 
concessioner has little control of the design of park facilities, since 
everything is subject to NPS oversight. Second, many of these 
facilities are historic and often were designed more for long-term 
aesthetic appeal than functional efficiency. Thus, park facility 
construction may not use state of the art design or building 
techniques, even if those techniques would be cheaper or more 
efficient. The risk of inappropriate deductions for obsolescence is 
even more serious for a concessioner than a typical private investor, 
since the concessioner does not have the right either to cure 
conditions giving rise to obsolescence, nor achieve a fair market 
return for its facilities as a starting point. As a consequence, and as 
mentioned earlier in the context of the amount of cost the concessioner 
gets credit for, the result will be a lack of willingness to make the 
investments that the parks need.
    4. Illegal Veto Power Over Possessory Interest Valuations--The NPS 
treatment of this issue in the regulations is also seriously flawed. 
Concessioners have invested large sums in park facilities in reliance 
on contracts, some over 30 years old, that provide for compensation for 
possessory interest as described in the 1965 Act. The 1998 Act did not 
change the right to compensation for this possessory interest upon 
termination of the contract (nor could it have done so), but only 
included transitional provisions to convert the existing possessory 
interest into a leasehold surrender interest as contracts turned over. 
The NPS has tried, however, to give itself additional negotiating 
leverage for the determination of possessory interest values by 
imposing a level of administrative review and appeal that is illegal 
and constitutes a breach of concessioners' contractual, statutory and 
Constitutional rights. The fundamental unfairness to all parties of 
having the NPS require private parties to negotiate, and possibly 
arbitrate a value, only to have the NPS void the result after the money 
has been spent and the work has been done, should be obvious. This 
provision is clearly intended to benefit newcomers to the detriment of 
incumbents, by intimidating the incumbents to take less than they 
deserve under the threat that the government will only veto the higher 
number anyway. This is not the way that government should work, 
particularly when it hopes to forge relationships that are based on 
trust and cooperation in order to serve the public's needs.

                       THE STANDARD FORM CONTRACT

    The NPS' standard form contract is as important to the Committee's 
review of these issues as the regulations or any other document, since 
the form contract is expected to form the basis for the individual 
contracts that will govern the relationship between the NPS and each of 
its concessioners.
    The standard form contract is illegal because it incorporates many 
of the illegal provisions I discuss elsewhere in my written testimony. 
It is also objectionable on its own because it is a very one-sided 
document that would never work in a private commercial setting. The NPS 
has essentially no duties, the compliance by the concessioner with the 
contract terms is subject to the ``satisfaction of the Director'' 
without objective standards that define compliance, and many important 
sections of the contract are subject to change at the whim of the 
Director. Each of these characteristics render the standard form 
contract both unlawful and unwise as a policy matter.
    In light of these issues, I suspect that many prospective operators 
will lose interest in bidding on park concession opportunities, thereby 
frustrating one of the basic purposes of the 1998 Act--the desire to 
generate more bidding interest for contracts. Since contract terms are 
non-negotiable, many operators who have served the parks for many years 
will be foreclosed from bidding because specific risks and 
uncertainties will be too great to bear. This could create a vacuum in 
visitor services and a potentially large government obligation to buy 
out concessioner investments. Because there may be no viable takers for 
such contracts, visitor services facilities may be closed indefinitely. 
Such a result would obviously play into the hands of the groups that 
want to limit park access but would not be in the public interest. Most 
private sector contracts define all of the obligations of the parties 
with reasonable specificity for the duration of the contract, tie those 
obligations to detailed and ascertainable standards if needed, and do 
not permit either party to change the terms of the contract without the 
agreement of the other. All we ask is for similar protections.
    Without going into detail on the many problems raised by the 
standard form contract, and in addition to other issues that I 
reference in other parts of my testimony, the following is a partial 
list of particularly troubling features:

  <bullet> Vague Standards--Many requirements of the contract simply 
        have to be performed ``to the satisfaction of the Director'', 
        with no guidance whatsoever. In places where standards 
        presumably exist they are subject to modification by the 
        Director at any time.
  <bullet> No NPS Responsibilities--Even where the NPS is supposed to 
        perform, such as by providing utilities or government 
        improvements, it can always back out, leaving the concessioner 
        with few affordable alternatives.
  <bullet> Extremely Broad Environmental Requirements--The NPS can 
        arguably require environmental remediation to standards in 
        excess of those required by law, possibly at great expense to 
        the concessioner. In addition, the concessioner seems to be 
        responsible for the conduct of third parties, such as visitors, 
        former operators, and NPS personnel conducting visitor services 
        activities. In addition, the provisions concerning approvals 
        for use of certain hazardous materials are too bureaucratic. No 
        guidelines are attached to the contract. This also applies to 
        restoration of sites where buildings are demolished.
  <bullet> Terms Concerning Interpretation That Could Greatly Narrow 
        the Types of Merchandise That Can Be Sold--According to the 
        contract, all merchandise must be ``consistent'' with park 
        themes goals and objectives, and all gift items must have an 
        interpretive component. This gives the NPS a vehicle to divert 
        significant amounts of gift business to cooperating 
        associations and other non-profit groups who may not have such 
        restrictions.
  <bullet> Use of Reserves for Capital Replacements, Without Right to 
        Leasehold Surrender Interest--The reserve provisions clearly 
        violate the 1998 Act by disqualifying certain capital 
        improvement costs from leasehold surrender interest, by giving 
        the NPS discretion as to how funds are spent while still 
        imposing an absolute maintenance requirement on the 
        concessioner in the contract.
  <bullet> Very Broad Indemnification Language With Too Much Control 
        Over the Purchase of Insurance--The indemnity in the contract, 
        not surprisingly, only benefits the NPS, not the concessioner, 
        and arguably covers acts of third parties. The insurance 
        requirements are not fixed, but instead are subject to change 
        at the discretion of the NPS. Insurance standards should be 
        fixed up front so that the concessioner can properly estimate 
        the cost of insurance when bidding on the contract.
  <bullet> Broad Rights to Suspend or Partially Terminate the 
        Contract--Suspension of a contract should only be for limited 
        emergency purposes and termination should be an all-or-nothing 
        proposition, except for services or facilities that are to be 
        permanently discontinued, but the NPS reserves the right to 
        suspend for almost any reason. Also, the concessioner could be 
        forced to continue to provide services even if its contract has 
        terminated or expired.

    Imagine a solicitation process for the renewal of a concession 
contract that you have operated for decades to the satisfaction of the 
NPS. Imagine then receiving a prospectus with a form contract that is 
non-negotiable and completely one-sided, but in which the NPS is asking 
you to invest further in facilities and personnel without any 
protection whatsoever that the contract cannot be terminated or changed 
at the whim of the NPS. Imagine further, contract provisions that do 
not clearly set forth what the NPS wants you to do and that request you 
to protect the NPS against not only your actions, but those of your 
predecessors and even the visiting public. Imagine a contract that 
allows the NPS to constrict the nature of your business or divert your 
business to non-profit organizations that are not required to pay 
taxes, invest in the parks or provide any of the infrastructure that 
causes your costs to be artificially high. Finally, imagine a contract 
that depends on the provision of power and water by the NPS, but that 
still requires you to operate, without any recourse to the government, 
if those supplies are cut off or if the NPS suddenly decides to raise 
the rates to levels that are unaffordable. Would you sign such a 
contract? Well, that is what the NPS is asking us to do. Our only 
alternative is to lose our businesses, some of which have be built over 
generations and support families who have been serving the public all 
their lives.
    We expect to be judged by the quality of our service and be 
displaced if we fall short, but not to be displaced just because an 
unfair and illegal form contract is forced upon us.
              solicitation, selection and award procedure
    Even though the NPHA did not agree with every provision of the 1998 
Act in this area, the 1998 Act was reasonably clear and detailed in its 
requirements. We find it surprising that the NPS developed language 
that is so far afield from Congress' intent.
    For example, the 1998 Act clearly sets forth four primary criteria 
to be given the most weight by the NPS in its review of submitted 
prospectuses, with the fourth criteria (the level of franchise fees) 
being subordinate to the other three. The NPS' regulations, however, 
establish primary criteria not provided for in the statute. In 
particular, they split the first criterion set forth in the statute 
into two and mandates a secondary criteria that is duplicative of one 
of the new split criteria. As a consequence, how a concessioner will 
address the park's environmental program has a weighting approximately 
three times as heavy as Congress dictated, while the criteria that was 
given most emphasis by Congress in its committee report--the experience 
of the operator--takes a back seat.
    Concessioners have no quarrel with being good environmental 
citizens. In fact, many of our members have received awards from the 
NPS for our conservation efforts. Nevertheless, the law requires the 
NPS to focus on each of the two equal mandates that Congress specified 
when it created the NPS in 1916. The first is to protect park resources 
and the second is to provide for their enjoyment by the public. Though 
our businesses must necessarily be conducted in a manner consistent 
with the first mandate, we exist primarily to serve the second one. It 
is our opinion that the NPS has largely forgotten this second mandate 
and it is our hope that the new administration restores its former 
importance, because that is what we believe the public wants and 
expects. In order to properly serve the millions of visitors that come 
each year, it is critical that concessioners have the experience 
necessary to serve and have the financial incentives to be able to 
invest in the facilities necessary to do so. As for the first mandate, 
we stand ready to assist, but we believe that the thousands of NPS 
employees who have been hired just for that purpose and are being paid 
by the taxpayers should pull that laboring oar.

                   ASSIGNMENT OF CONCESSION CONTRACTS

    The provisions of the 1998 Act concerning the transferability of 
contracts are of vital importance to concessioners. Congress recognized 
that the restrictions imposed on transferability by NPS as it had 
interpreted the 1965 Act were not needed to protect the public and were 
being utilized by the NPS to extract better terms from concession 
contracts for the government as the price for allowing legitimate 
corporate transactions to proceed. Thus, the 1998 Act presumes that a 
concessioner may transfer its contract without losing the rights that 
attach to that contract, and that the NPS must approve such transfer 
unless the transfer would fail one of three tests set forth in the Act. 
It also does not require NPS consent for so-called corporate control 
transactions, where the entity holding the contract does not change but 
a transaction takes place at the parent level that has the effect of 
transferring direct or indirect ownership of the concessioner, often 
within the same corporate family.
    When the NPS contracts with a concessioner, that entity holds the 
contract and is responsible for carrying out its terms. The NPS does 
not have recourse to anyone else. If the ownership of the entity 
changes, that does not change the obligations of the entity, nor does 
it change its capability to perform. Though it is possible in some 
cases that a change of ownership may cause some persons to leave the 
employment of the concessioner, this could happen anyway. On the other 
hand, the new shareholders have no interest in defaulting under the 
contract because that is where a substantial portion of the value of 
the enterprise is located. Presumably, they would take all efforts 
necessary to ensure that the contract is faithfully performed. If not, 
the NPS has remedies for default that include termination of the 
contract.
    By trying to give itself power over transactions at the parent 
level, the NPS is creating a significant barrier to free enterprise. 
Most large companies with multiple business lines would be discouraged 
from competing for contracts because of the potential loss of a 
valuable corporate merger, acquisition, sale or reorganization due to 
failure or delay in obtaining NPS approval. In fact, it might be argued 
that public companies would not compete solely for this reason, due to 
potential fiduciary liabilities that directors might fear from the loss 
of such a transaction. Typically, unless other laws, such as the 
antitrust laws, are triggered, a government agency does not have such 
far-reaching rights, and Congress properly decided that they should not 
exist here. So long as the company obligated on the contract remains 
intact and does not transfer the contract to another entity, the NPS 
should not, as a public policy matter have the right to interfere with 
these transactions.

  ENCUMBRANCE OF CONCESSION CONTRACTS AND LEASEHOLD SURRENDER INTEREST

    The 1998 Act clearly states that a concessioner can pledge its 
leasehold surrender interest as collateral for loans. I have discussed 
earlier why the timing of payment for leasehold surrender interest will 
have a critical impact on the availability of financing. However, two 
other positions that the NPS has taken in its regulations will also 
greatly influence whether the rights Congress granted are real or 
imagined.
    The first issue is whether a concessioner, once it has a loan, can 
refinance that loan later. The NPS says no, even though there is no 
basis for this in the law. This position defies common sense. The first 
problem is that many contracts, particularly those most in need of 
financing, are for relatively long periods, certainly longer than the 
typical commercial loan. Thus, the concessioner has no means of 
repayment at the end of the loan, unless the operation would support 
the repayment of the loan in full over the course of the loan from cash 
flow. In such event, the leasehold surrender interest is really not the 
collateral, because the lender is not really looking to it for 
repayment. In such a case, the cost of the loan would often be 
prohibitive, both on a cash flow basis due to higher than normal 
interest and large principal payments and on a return on investment 
basis to the concessioner. Very few significant commercial properties 
are held without financing because of the positive impact that leverage 
has on return on the owner's investment, and such leverage permits the 
owner to diversify its holdings. If an owner is prohibited from 
refinancing, as with other examples described above, the returns from 
its operations will need to be higher because cash must be raised to 
pay down principal in addition to interest. To accomplish this, either 
rates must go up or fees must come down, or both. Chances are that 
there will not be enough free cash flow to provide an adequate return 
in this situation, and thus many of the investments requested will not 
be forthcoming. Another issue concerns the common business practice of 
refinancing loans when rates go down, thus improving the returns of the 
business and making more cash available for reinvestment. Why the NPS 
would think it is in its best interest to prohibit these types of cost-
saving measures is totally incomprehensible. As a business matter, it 
makes no sense for the NPS to refuse to permit refinancings if the 
intent of the 1998 Act is to attract competition for contracts and 
additional private investments in the parks.
    The second financing issue is based on the NPS prohibition in the 
regulations against cross-collateralization of loans; this is, using 
collateral in more than one park to secure a single loan. Again, there 
is nothing in the 1998 Act that would prevent a concessioner from 
obtaining one loan that covers all of its contracts. The benefits of 
doing so are obvious. First, the concessioner can get a larger 
aggregate loan at lower cost if the risk is spread over multiple parks, 
since a bad year at one park can be offset by better years at others. 
Second, the risk of default to the NPS is reduced for the same reason. 
Third, administrative costs for both the NPS and the concessioner are 
reduced because each party needs only address one transaction, instead 
of two or more. We again find it curious and frustrating that the NPS 
has taken the opposite approach without any legislative support.

      LOSS OF COMMERCIAL BUSINESS TO NOT-FOR-PROFIT ORGANIZATIONS

    The NPHA is concerned that through the language set forth in the 
regulations, the NPS has positioned itself to employ Commercial Use 
Authorizations (and, most importantly, the somewhat more ambiguous 
language concerning the use of non-profit organizations to support the 
NPS' interpretive function) in a manner that would lead to direct 
competition with concessioners, particularly for gift items. 
Concessioners have in fact been experiencing this problem in a number 
of parks. This was not intended by the 1998 Act, and could, if used 
aggressively, adversely impact the established businesses of 
concessioners by narrowing the scope of the franchises bargained for in 
their contracts.
    It is not in the public interest for the government to enter into 
contracts with concessioners that induce them to expend significant 
sums on capital improvements and the development of their businesses, 
only to siphon off the profitability of those businesses, after the 
fact, to third parties who do not make such contributions. It should be 
remembered that not-for-profit organizations do not pay either income 
taxes or franchise fees, are not significant local employers, and do 
not for the most part make significant financial contributions to park 
facilities or programs. We think they are being encouraged to grow, 
only because what little money they do raise for the parks is totally 
under the control of park superintendents who do not need to justify 
its use. Cooperating Associations and other not-for-profit 
organizations are important partners of both the NPS and concessioners 
in enhancing the interpretive experience of both visitors and the 
communities that exist in the parks, but should not be permitted to 
usurp the commercial benefits the concessioners have bargained for in 
their contracts. Commercial Use Authorizations are intended to 
accommodate small, short-term commercial forays into the parks, such as 
guided hikes into the backcountry, not for the establishment of 
permanent, competing businesses. By allowing the NPS to divert 
commercial business to not-for-profit organizations from concessioners, 
the attractiveness of concessions contracts will certainly decrease and 
with it the level of investment and service to the public.

             FAILURE TO PROVIDE DIRECTION ON RATE APPROVALS

    The regulations provide no direction on the process to now be used 
for the approval of rates and charges. A central theme of the 1998 Act 
was Congress' desire to streamline the administrative functions of the 
NPS in concessions management, make them less burdensome for 
concessioners and make them more reflective of business reality. In no 
area was this more evident than in the provisions dealing with the 
setting of rates and charges.
    A number of different provisions of the 1998 Act suggest that a 
concessioner's goods and services should be provided at reasonable 
rates. Section 406 of the Act clarifies what is meant by this. It 
specifically states that, while rates continue to be subject to the 
approval of the NPS and should be based on their comparability to 
prices charged under similar conditions, recognizing the unique 
operating constraints placed on concession operations, the ``approval 
process utilized by the Secretary shall be as prompt and unburdensome 
to the concessioner as possible and shall rely on market forces to 
establish reasonableness of rates and charges to the maximum extent 
practicable.'' Thus, a ``reasonable rate'' is established by the 
market, as is normally true in our economy.
    Section 409 of the Act established the National Park Service 
Concessions Management Advisory Board, which has a broad mandate to 
advise the Secretary on concessions management issues. However, the 
initial focus of the Advisory Board indicated by the Act was to deal 
with the rates question and to provide its recommendations within one 
year after its first meeting. As you know, the Advisory Board issued 
its initial report in November, 2000. We were quite disappointed to see 
that the Advisory Board's recommendations did little to advance the 
ball on this important issue. Instead it essentially ratified the past 
NPS ratemaking practices, which were already recognized by Congress as 
flawed when the 1998 Act was passed.
    Though the Advisory Board conducted public meetings that encouraged 
different points of view, it was apparent that it did little work 
outside of those meetings and did not explore any options in depth. 
This may be because the Advisory Board, is unpaid and its efforts are 
for the most part unfunded. Thus it has no paid staff to develop facts 
or conduct research--instead it relies on the Park Service to handle 
its administrative needs. The Advisory Board is overwhelmed by NPS 
participation and influence to the point that participation by others 
is marginalized. In fact, NPS had over 20 participants at the meeting 
that focused on rates last spring. The Advisory Board would profit from 
representation by at least one existing concessioner to ensure that the 
points of view of our industry were represented in the Board's 
deliberations. After all, who knows more about these issues than we do? 
But because the NPS has control over board membership, it can influence 
the ultimate work product through its choice of members. Thus, it is 
our hope that this Committee does not consider that the Advisory 
Board's work is done on the rates issue, nor that the NPS is now 
entitled to continue the same failed practices as before. The Committee 
should consider giving additional direction in this area.

                               CONCLUSION

    We appreciate the interest of the Committee in these matters. All 
parties have worked too long on these issues to allow the 
administrative process to frustrate the decisions made by Congress in 
1998. The NPHA believes that our recommendations are in the best 
interest of the parks, the visitors and the taxpayers. Thank you for 
your time and your hard work on behalf of our national parks and the 
American public.

    Senator Thomas. Thank you.
    Mr. Voorhees.

STATEMENT OF PHILIP H. VOORHEES, SENIOR DIRECTOR, PARK FUNDING 
    AND MANAGEMENT, NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Voorhees. Thank you, Mr. Chairman. My name is Phil 
Voorhees, and I apologize today for my voice. I have a rather 
bad cold. I am the senior director of park funding and 
management at the National Parks Conservation Association, but 
today I am testifying as a member of the National Parks 
Concessions Management Advisory Board, and I want to try to 
limit my testimony to the areas we have covered in the past 18 
months.
    The responsibilities, as we see them, for the advisory 
board as established by the 1998 Act are for contracting with 
the private sector to conduct appropriate elements of 
concessions management, to handle removal and review of 
concessioner rates and changes to the public, or rather, review 
them, to cover the nature and scope of products which qualify 
as Indian, Alaska Native, and Native Hawaiian handicrafts, and 
the issue of allocation of concession fees.
    In the past 18 months we have covered a number of topics, 
and I will try to bore into some of the issues in concessions 
management in the park system. We have come up with a variety 
of recommendations that I believe were sent to the Hill in 
November. First, the Park Service considered the creation of 
something called a nonappropriated fund instrumentality to 
handle concessions revenues. NAFI's, as I think Curt will 
probably attest to, inasmuch as he is quite an expert on them, 
provide a great deal of flexibility in terms of management of 
funds, disbursement of funds, investment of funds, and even the 
application.
    Inasmuch as the Park Service concessions program is facing 
a variety of difficult management issues, I think that the 
flexibility would be very welcome. Quite frankly, if the Park 
Service were to invest itself in looking at the applicability 
of the concept of NAFI's in the parks in targeted areas, I 
think we could see whether or not this is a viable proposal 
both for the concessions program and perhaps for broader use 
across the park system in a way that allows you more 
flexibility and leveraging revenues. It is a methodology that 
is fairly common in the Department of Defense, and is also used 
in the Departments of Transportation, Veterans Affairs, NASA, 
and others.
    The second recommendation is that the Park Service 
establish a chief financial officer position, inasmuch as it is 
clear to us that there needs to be at a very senior level 
accountability structure, or rather, somebody at a very senior 
level at the top of the accountability structure to handle 
concessions and to handle revenue matters in the Park Service.
    A third issue is to elevate the management status of the 
concessions program itself. It is a fairly confusing or at 
least complex arrangement that the concessions program has now 
inside the management structure of the Park Service, and it 
does not allow for as efficient management as I think we could 
find if there was some reorganization.
    The specific recommendation is that there be established an 
Associate Director for Concessions, inasmuch as the Park 
Service concessions are big business, generating nearly $800 
million in total revenue to both concessioners, to all 
concessioners in the past year. There are some fairly complex 
financial relationships and contracts that have to move 
forward. From our perspective, it is critical that the Park 
Service have the appropriate level of acumen and accountability 
that allows them to be good partners both to the taxpayers and, 
frankly, to the concessioners as well. We think that the 
establishment of an Associate Director of Concessions would 
probably provide a better level in that regard.
    Finally, that the Park Service continue streamlining the 
rate approval process. I think that a lot of progress has been 
made recently, but they probably could go a big farther. I 
think it is purposeless to have an overly burdensome rate of 
approval process either from the management perspective of the 
Park Service, accomplishing it, or from the perspective of the 
concessioner. The issue here is trying to make sure the rates 
are fair and reasonable across the board.
    Finally, I want to open the door to Curt and his testimony 
in just few minutes to go through some of the recommendations 
that PricewaterhouseCoopers has come up with and the amount of 
work they have done with the Park Service in moving through an 
entire program review of the concessions program. I think they 
have been doing some extremely diligent and good work.
    There is a lot of work that needs to be done, but honestly 
I think the Park Service is on the right track, and I think 
that everybody on the board is in agreement that a lot of 
progress has been made, and that the concessions program has 
turned a corner, and that with a little bit of patience and 
with a little bit more effort we could all expect to have 
strong relationships across the board and better management 
moving forward.
    Thank you very much. I would be happy to entertain any 
questions, as long as my voice holds out.
    [The prepared statement of Mr. Voorhees follows:]

PREPARED STATEMENT OF PHILIP H. VOORHEES, SENIOR DIRECTOR, PARK FUNDING 
        AND MANAGEMENT, NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Chairman and members of the Subcommittee, my name is Phil 
Voorhees. I am the Senior Director for Park Funding & Management of the 
National Parks Conservation Association (NPCA), America's only private, 
non-profit advocacy organization dedicated solely to protecting, 
preserving, and enhancing the National Park System. I also serve as a 
member of the National Park Service Concessions Management Advisory 
Board, established under Title IV of the National Parks Omnibus Act of 
1998. I am testifying today as a member of that Board, on issues 
relating to the implementation of the 1998 law.
    Title IV of the National Parks Omnibus Act directed the Board to 
provide recommendations to the Secretary of the Interior on a number of 
different matters including:

  <bullet> Contracting with the private sector to conduct appropriate 
        elements of concession management;
  <bullet> Review and approval of concessioner rates and charges to the 
        public;
  <bullet> The nature and scope of products which qualify as Indian, 
        Alaska native and Native Hawaiian handicrafts;
  <bullet> Allocation of concession fees.

    Since its inception nearly 18 months ago, the Board has adhered to 
and pursued the mandates stated above. We submitted a report to the 
Secretary of the Interior in November of 2000 with some specific 
recommendations for improvement of the National Park Service's 
Concessions Program. On behalf of the Board, I would like to briefly 
review some of the more significant recommendations in that report.

          CREATION OF A NON-APPROPRIATED FUND INSTRUMENTALITY

    The first recommendation was to consider the establishment of a 
Non-Appropriated Fund Instrumentality (NAFI) for the deposit and 
management of concession franchise fees received by NPS. In our view, 
this structure would better allow NPS to institute mechanisms and 
controls to account for receipt, investment, and disbursement of funds. 
Our objective in making this recommendation was to allow the NPS 
concessions program to operate in more businesslike environment in 
their management and oversight of concessions fee proceeds, to maximize 
the benefit of concessions proceeds, and to target that benefit towards 
concessions management professionalization programs. Many federal 
agencies have used NAFIs as an effective tool in funds management, 
budgeting, accounting, capital reinvestment and procurement. Examples 
include the Department of Defense, Department of Transportation, 
Veteran's Affairs, NASA and numerous others. If successful with the 
concessions program, the NAFI construct may have broader applications 
within the Service.

              ESTABLISH A CHIEF FINANCIAL OFFICER POSITION

    Another key suggestion was for the Park Service to establish a 
Chief Financial Officer (CFO) position at the Deputy Director level. 
Our intent was to ensure that the agency has a management 
accountability structure for concessions and other fee generating 
programs, as well as major business related matters within the Agency, 
that rises to a very senior level. As a result of the 1998 law and the 
fee demonstration, NPS is now generating close to $200 million per year 
in non-appropriated funds. This number is expected to grow over time. 
These funds demand a new and different management, accounting and 
oversight structure within the agency. The Board feels that now is the 
appropriate time for the creation of such a critical role.

        ELEVATE THE MANAGEMENT STATUS OF THE CONCESSIONS PROGRAM

    In our report to the Secretary, we also recommended that the 
concessions program be elevated within the Park Service. This could be 
accomplished by the creation of an Associate Director for Concessions. 
Again, it is important to point out that park concessions is big 
business. Last year, National Parks Concessions generated close to $800 
million in gross revenues. The large concessions contracts are very 
complex legal and financial relationships, requiring a high degree of 
business acumen. We feel that expertise in this area is severely 
lacking within the agency. The result is an unbalanced relationship 
between the agency and the concessioner, especially as it relates to 
the disposal of large contracts. Through the creation of an Associate 
Director for Concessions, NPS would be making a major commitment to 
increased emphasis on this business relationship and its importance to 
the provision of uniformly high quality visitor services. The Board 
feels that these areas are currently under-emphasized and under-
resourced.

                  STREAMLINE THE RATE APPROVAL PROCESS

    We also recommended that the Park Service Concessions Program 
simplify and streamline the rate approval process. Historically, this 
process has proven to be bureaucratic and cumbersome for all parties 
concerned. The Board feels that NPS has made progress in improving the 
rate approval system, but should go even further in streamlining these 
processes. In addition, we have recommended that the agency develop and 
train a variety of in-house competency specialists to improve 
consistency in the monitoring and rate approval process.

  SUPPORT FOR THE RECOMMENDATIONS MADE IN THE PRICEWATERHOUSECOOPERS 
                             PROGRAM REVIEW

    Finally, The Board would like to note that at our most recent 
meeting, we were briefed by the PricewaterhouseCoopers team regarding 
their program review. I understand that they will be testifying on 
these findings today. The Board was pleased with the results and has 
asked the Park Service to move to implement the key recommendations.
    In conclusion, the Board has made considerable progress with NPS in 
working through a variety of management issues. Some changes need to be 
made to increase the capacity and expertise of the concessions program 
and better align the program within the agency. This year, the Board 
intends to focus in addition on the management of Indian, Native 
Alaskan and Native Hawaiian handicrafts as that management relates to 
our charter.
    I would be more than happy to answer any questions regarding my 
testimony or the work of the Concessions Management Advisory Board to 
date. Again Mr. Chairman, I appreciate the opportunity to testify 
before you today.

    Senator Thomas. Thank you. We will certainly stop when we 
cannot hear you any longer.
    [Laughter.]
    Senator Thomas. Mr. Horn.

 STATEMENT OF WILLIAM P. HORN, ATTORNEY AT LAW, BIRCH, HORTON, 
       BITTNER, AND CHEROT, ON BEHALF OF AMERICA OUTDOORS

    Mr. Horn. Mr. Chairman, thank you. My name is Bill Horn. I 
am appearing on behalf of America Outdoors. America Outdoors is 
an international coalition of outfitter and guides operating 
across public lands, many of whom operate within national park 
units, and in contrast to the references ahead of me here, most 
of these folks fall clearly in the small mom and pop category 
of river floaters, canoe renters, horsebackers and such.
    Let me add, too, that I present the testimony here from two 
perspectives. One, of course, is from the perspective of the 
guides and outfitters, and the other is from the perspective as 
a former Assistant Secretary of the Interior for Fish, 
Wildlife, and Parks, and had to wrestle with the administrative 
side of this program, so I appreciate what the Park Service is 
going through in implementing this new statute.
    Let me just add, too, we really greatly appreciate the 
subcommittee's continuing leadership on this issue and, Mr. 
Chairman, your commitment to recreational use and access to 
public lands. When Congress enacted the 1998 Act, one of its 
primary purposes was to assure management of small concessions 
in a streamlined and simplified manner. The expectation of the 
outfitters and guides was that this would translate into less 
complicated paperwork, including less complex and less 
burdensome forms, studies, reports, and surveys. Unfortunately, 
somewhere along the line that vision seems to have gotten a 
little bit sidetracked, and off-target.
    Now, let me say that our operators really greatly 
appreciate the opportunity and the privilege of providing 
services to the public within park units, and we are not 
looking for any form of adversarial relationship with the 
service, and we are not interested in beating up the agency. 
Nonetheless, we would like to try to iron out some of the 
wrinkles and potholes that have cropped up in implementation of 
the 1998 Act so we can move forward in some unconfused, 
unfrustrated fashion.
    Let me give you just a couple of the specifics that I think 
highlight the source of some of the confusion and frustration 
that our folks are wrestling with. The law and the draft 
regulations promised a, quote, simplified, close quote, 
contract for outfitters and guides, and in the last few months 
we have begun to see some of the new contracts appear. A couple 
of our fellows have received the simplified contract, all 27 
pages of it.
    One of the recipients of this 27-page contract is an 
individual who rents 81 canoes. When you add up his 27-page 
contract, his new 20-page operating plan, his 20-page 
compendium of regulations, and his environmental management 
plan that is not yet complete, he has over one page of legal 
document for each canoe that he rents, and I do not think this 
is exactly what this committee had in mind, and I know it is 
not exactly what the guides and outfitters had in mind when we 
heard the term, simplified contract.
    A second issue, and it really does not arise from the 
statute, is the environmental management plan. Now, this was a 
Clinton administration initiative that has generated enormous 
confusion among the small concessioners, and the apparent 
objective, at least as I heard it explained by the past 
political leadership in the agency, was to ensure that all 
concessioners, large and small, employed, quote, best 
environmental practices, end quote, within the units of the 
park system.
    Unfortunately, this term was never clearly defined. Most of 
our folks do not really know what this means, and what are the 
consequences if, notwithstanding the good faith effort, there 
is some lack of full compliance with this admittedly subjective 
standard.
    Now, the majority of small guides and outfitters find 
themselves being pushed into hiring consultants to prepare 
these environmental management plans. Let me add that in the 
new, simplified, 20-plus page contract, the single section 
establishing the environmental practices program covers three 
pages and goes into, I think, rather extraordinary detail about 
what this plan is supposed to have.
    In addition, once you get your contract, you are required 
to submit to the Park Service your written EMP within 60 days 
afterwards. Most of the fellows do not have the expertise, or 
the manpower, or the ability to put something together that 
quickly. Substantial open-ended costs are foreseen, and 
frankly, we go to the local concessions officers, most of whom 
are as much in the dark about this program as are the guides 
and outfitters, and our people are hearing an enormous amount 
of off-the-record frustration about this program from local 
agency personnel.
    A third issue is the preference right of renewal. Congress 
expressly retained the preference right for outfitters and 
guides, and notwithstanding this clear direction, some 
operators seeking assurance of their preference right 
eligibility are continuing to be informed, quote, our agency 
lawyers are still looking at the issue, close quote.
    Now I, as a practicing attorney, and having worked at the 
subcommittee on that language, I cannot find any ambiguity in 
the statute regarding the retention of the preference right for 
small concessioners and guides and outfitters, and it is just a 
continuing bone of contention and frustration that somehow this 
issue is under continuing legal review. I do not know what 
there is to review, and we would sure like to get that one 
answered.
    Let me just close by reiterating that we want a cooperative 
relationship with the Park Service, and we fully understand 
that any new program will have bugs to be worked out, and we 
are clearly prepared to be patient. As I indicated, I am 
acutely aware of the challenges that the service faces. 
Nonetheless, we are looking for clarity, and we look forward to 
working more closely with the service and this subcommittee on 
administering the concessions program consistent with the 
letter and spirit of the 1998 Act.
    Thank you.
    [The prepared statement of Mr. Horn follows:]

PREPARED STATEMENT OF WILLIAM P. HORN, ATTORNEY AT LAW, BIRCH, HORTON, 
                           BITTNER AND CHEROT

    Mr. Chairman, my name is Bill Horn, Washington Representative for 
America Outdoors. America Outdoors is an international coalition of 
outfitter and guides operating across the nation's public lands. 
Established in 1990, and headquartered in Knoxville, Tennessee, America 
Outdoors has over 550 members serving the general public from 40 states 
and 60 foreign countries. America Outdoors' purposes include the 
conservation and enhancement of quality outdoor experiences on 
America's lands and waters. Many of its members operate within the 
National Park System and are committed to the protection and 
conservation of those lands. America Outdoors greatly appreciates your 
continuing leadership on this issue and your commitment to recreational 
use and access to our public lands.
    When Congress enacted the National Park Omnibus Management Act of 
1998, a primary purpose was to assure management of small concessions 
in a streamlined and simplified manner. Simpler contracts and simpler 
administration would enable these small businesses to focus on 
providing quality recreational services to the public. The expectation 
of outfitters and guides was the use of less complicated paperwork, 
including forms, studies, reports, and surveys.
    Somewhere along the line that vision has gotten sidetracked. For 
many operators, the system has gotten more complex. This complexity is 
generating a combination of bewilderment and frustration.
    America Outdoors members with park concessions value their 
relationship with the National Park Service. The same operators greatly 
appreciate the opportunity and privilege of providing services to the 
public within Park units. We do not want an adversarial relationship 
with the Service and are not interested in beating up the agency. We 
are concerned, however, that we are facing a concessions system which 
is confusing, complex, subjective and which makes good faith compliance 
difficult and costly.
    Let me briefly outline some specifics that are giving rise to 
confusion and frustration. Our hope is that such identification will 
enable us to work cooperatively with the Service and this Subcommittee 
to assure a clear, reasonable program for concessions administration.
    1. Contracts--The law and draft regulations promised a 
``simplified'' contract for outfitters and guides. Some of our 
operators have recently been presented their simplified contract all 27 
pages of it!
    2. Operating Plans--In addition to the contract, most operators 
must submit a detailed operating plan that can be accompanied by a 
lengthy compendium of regulators. One America Outdoors member who 
simply rents 81 canoes has a 20 page operating plan coupled with a 20 
page compendium. This is on top of his lengthy new contract. It adds up 
to almost one page for each canoe!
    3. Environmental Management--This Clinton Administration initiative 
has sown enormous confusion and concern among small concessioners. The 
apparent objective is to assure that concessioners employ ``best 
environmental practices.'' However, no one really knows what this means 
and what are the consequences if notwithstanding a good faith effort, 
there is some lack of full compliance with this subjective standard.
    The majority of small operators find themselves being pushed into 
being consultants to prepare their environmental management plans. And 
in the future they will be required to implement the program, monitor 
it, measure its impact, make corrections to assure compliance, and 
report to the National Park Service. Substantial open ended costs are 
foreseen. Local National Park Service personnel know as little about 
this initiative as we do and are hard pressed to answer our questions. 
Our members are hearing a lot of off-the-record frustration about this 
program from local agency personnel.
    4. Fee Payment--Most small operators used to make their fee 
payments on an annual basis. It simplified accounting, and accommodated 
the cash flow realities of small businesses. Now many are being told to 
pay on a 30-day schedule. That is necessitating additional accounting 
(at a cost), estimated payments, and a payment schedule that cuts into 
cash flow. America Outdoors would like to return to annualized 
payments.
    5. Preference Right of Renewal--Congress expressly retained the 
preference right of renewal for outfitters and guides. Notwithstanding 
this clear direction, some operators seeking assurance of their 
preference right eligibility are being informed ``our agency lawyers 
are still looking at the issue.'' As a practicing attorney, I can't 
find any ambiguity in the statute and wonder why some of our guides and 
outfitters can't get the assurances Congress intended for them.
    6. Transfers--The new law was clearly designed to facilitate 
transfers. It provided for the speedy approval of transfers unless the 
agency determined that an unqualified entity would get the contract or 
the transfer would impair park resources. I am persuaded the 
regulations do not clearly reflect Congressional intent. Moreover, many 
operators are facing delays of months in getting transfers approved. 
One concessioner in Utah has just been informed that it could be 
another six months (on top of six months gone by) before a proposed 
transfer will be approved--maybe.
    I want to reiterate that we want a cooperative relationship with 
the National Park Service. We understand that any new program will have 
bugs to be worked out and are prepared to be patient and continue to 
work with the National Park Service. One fundamental concern is that 
the present regulatory program reflects the anti-public use philosophy 
of some previous Administration leadership. We hope that with new 
leadership at the Department, we will be able to work more closely with 
the National Park Service on establishing a concessions program 
consistent with the letter and spirit of the 1998 Act, that facilitates 
public use and enjoyment of our parks, and conserves park resources. 
Thank you.

    Senator Thomas. Thank you, Mr. Horn. We are pleased that 
you brought Victoria with you today. We are glad to have you 
here.
    Mr. Cornelssen.

STATEMENT OF CURT CORNELSSEN, DIRECTOR, GLOBAL HOSPITALITY AND 
           LEISURE PRACTICE, PRICEWATERHOUSE- COOPERS

    Mr. Cornelssen. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to testify before you 
today. My name is Curt Cornelssen. I am a director with Price- 
waterhouseCoopers in the Global Hospitality and Leisure 
Practice. I have been asked to testify before you today 
regarding a program review that we recently completed on the 
National Park Service concession program. I recognize my time 
is limited. For the next few minutes I would like to provide 
you with a brief synopsis of our approach, findings, and 
recommendations.
    Last September, the National Park Service engaged Price- 
waterhouseCoopers to conduct a high-level review of the 
program. The scope of this analysis focused on organizational 
objectives, the structure and reporting relationships, staffing 
levels and expertise, financial and budget analysis, 
contracting and capital assets oversight, and technology.
    The outcome of this program review was to assist the 
program in developing a business-based action plan to provide 
recommendations for revised organizational structure. PwC's 
analysis spanned a 90-day period, and included interviews with 
over 120 personnel directly and indirectly related to the 
concessions program, including a number of concessioners.
    Within each program area, we assessed the concession 
program's strengths and weaknesses to better understand how 
they affected the organization's overall performance. Following 
this assessment, PwC benchmarked the National Park Service 
concession program against other agencies and corporations with 
similar assets and fiduciary responsibilities. From this 
analysis, we were able to identify which best industry 
practices the program should consider for more effective 
management.
    I would like to provide you with our key findings. 
Obviously, you have my full testimony. I am just going to cover 
a few of the key issues and key areas.
    In terms of mission and objectives, our review of the laws, 
regulations, and management policies indicate that the mission 
of the Park Service program is well aligned with the mission of 
the Park Service. That is not always the case. Furthermore, the 
staff can articulate and are committed to the mission. However, 
what we also found was that the program lacks clearly defined 
objectives and implementation strategies, and that is a problem 
in terms of consistency in application.
    Organizational structure and reporting relationships. The 
reporting structure from the park to the region is clearly 
understood by all the staff. The biggest challenge we found 
facing the program is a lack of what we call appropriate 
fiduciary checkpoints for contract development and oversight, 
and I can get into that in the question and answer session.
    Contract oversight is one of the most important business 
functions within the program. The program has over 600 
contracts, with 49 what we call high value contracts, that is, 
over $3 million a year in gross receipts, and these high value 
contracts represent about 72 percent of the franchise fees and 
about 83 percent of the revenue.
    However, the program is not well-organized to manage these 
key contracts. Rather, they are structured to handle the volume 
versus value of contracts across the regions. As a result, 
contract oversight is overburdened by contracts of lesser 
economic value. Additionally, upon review of staff 
competencies, it appears that the program does not have the 
appropriate level of financial, hospitality/recreation and 
legal expertise and experience available for oversight of the 
key high value contracts.
    We conducted a benchmarking in an effort to evaluate the 
program against industry best practice, and we identified and 
interviewed agencies and corporations that had similar areas of 
asset oversight as well as fiduciary responsibilities, and we 
found that in the area of asset oversight all of these 
organizations rely on professionals with significant financial 
and industry expertise.
    Additionally staffing and resourcing for contract oversight 
is focused on contracts with the largest value and risk. 
Typically, a small cadre of staff will oversee key assets and 
routinely draw on other internal and external resources for 
additional assistance.
    Finally, all of these organizations and corporations 
require extensive reporting from their operating partners.
    I would like to now cover a few of the program 
recommendations. There are four of them. The first one is to 
develop a new visions and objectives implementation strategies, 
pretty basic business planning 101 type stuff. This includes 
establishing a working group within the Park Service to define 
the visions and objectives for the program as well as 
strategies, secondly, to redefine the management processes to 
address fiduciary oversight.
    We are particularly concerned in this area that higher 
fiduciary oversight standards and more efficient business 
processes need to be established for all contracts.
    Thirdly, we recommend a new organizational structure to 
heighten strategic oversight on high value assets. A strategic 
business oversight solution needs to be developed for ongoing 
review and quality control for major concessions contracts, and 
finally, putting this all into a detailed business-based action 
plan. We are in the process of developing that plan right now 
for the Park Service, but it is not the PwC plan, it is the 
Park Service plan, so the National Park Service Working Group 
will then need to be established and review the plan, and to 
begin the implementation process.
    In concluding my comments, I would like to note that the 
study is designed to be the baseline from which the Park 
Service will redesign the program, structure, and operating 
procedures. We are working diligently with the National Park 
Service to develop and implement a business-based action plan 
modeled after commercial best practices.
    I will be more than happy to answer any questions that you 
or the other members have regarding our work. Again, Mr. 
Chairman, thank you very much.
    [The prepared statement of Mr. Cornelssen follows:]

   PREPARED STATEMENT OF CURT CORNELSSEN, DIRECTOR, HOSPITALITY AND 
                LEISURE PRACTICE, PRICEWATERHOUSECOOPERS

    Mr. Chairman, members of the Subcommittee, thank you for the 
opportunity to testify before you today. My name is Curt Cornelssen and 
I am a Director in the Global Hospitality and Leisure Practice of 
PricewaterhouseCoopers LLP. Our firm is well recognized as a global 
leader in providing cutting-edge advice to both private and public 
sector hospitality and recreation organizations.
    I have been asked to testify today regarding a program review that 
we recently completed for the National Park Service Concession Program. 
I recognize that my time is limited. Over the next few minutes, I'd 
like to provide you with a brief synopsis of our approach, findings and 
recommendations.
    In September 2000, the National Park Service engaged 
PricewaterhouseCoopers (PwC) to conduct a high-level program review of 
the Concession Program. The scope of the analysis focused on the 
following six areas:

  <bullet> Organizational Mission and Objectives
  <bullet> Organizational Structure and Reporting Relationships
  <bullet> Staffing Levels and Expertise
  <bullet> Financial and Budget Analysis
  <bullet> Contracting and Capital Asset Oversight
  <bullet> Technology Review and Assessment

    The outcome of this program review was to assist the NPSCP in 
developing a business based action plan and to provide recommendations 
for a revised organizational structure. PwC's analysis spanned a 
ninety-day period and included interviews with over 120 personnel 
directly and indirectly related to the Concession Program, including a 
number of Concessioners.
    Within each program area, we assessed the Concession Program's 
strengths and weaknesses to better understand how they affected the 
organization's overall performance. Following this assessment, PwC 
benchmarked the National Park Service Concession Program against other 
agencies/corporations with similar assets and fiduciary 
responsibilities. From this analysis, we were able to identify which 
best industry practices the Concession Program should consider for more 
effective program management. I'd now like to provide an overview of 
our key findings. In the interest of time, I will limit my comments to 
the most critical areas.
    Mission and Objectives: Our review of the applicable laws, 
regulations and management policies indicates that the mission of 
National Park Service Concession Program is well aligned with the 
mission of the National Park Service. Furthermore, the Concession 
Program staff can articulate and are committed to the Concession 
Program mission. The current challenge for the Concession Program is 
the lack of clearly defined objectives and implementation strategies.
    Organizational Structure and Reporting Relationships: The reporting 
structure from the park to the region is clearly understood by all 
concession staff. The largest challenge facing the Concession Program 
is the lack of appropriate ``fiduciary'' checkpoints for contract 
development and oversight.
    Core Management/Business Processes: The three core management 
processes of the Concession Program are Planning, Contracting and 
Contract Oversight. Each of these management processes was further 
broken down into their business processes. We then proceeded to analyze 
each of the business processes to assess their relevance to the 
concession program and to determine if any of the processes could be 
improved or eliminated. Overall, we believe the Concession Program has 
properly identified their core management and business processes, but 
the application of their processes is problematic. In the areas of 
Planning and Contracting, the staff frequently operates in a 
``reactive'' versus a ``proactive'' mode. Additionally, the Contracting 
process appears to be too complex for lesser economic value contracts 
and may not be rigorous enough for contracts of high economic value. 
Finally, we believe that Contract Oversight needs to be enhanced for 
these high-value contracts.
    Contract Oversight: The Concession Program has oversight of over 
600 contracts, with 49 ``high-value'' contracts (over $3 million in 
gross receipts per year). These high-value contracts represent 
approximately 72 percent of the Concession franchise fee revenue and 83 
percent of gross concession revenue. However, the Concession Program is 
not well organized to manage these key contracts. Rather, they are 
structured to handle the volume versus value of contracts across 
Regions. As a result, Contract Oversight is overburdened by contracts 
of lesser economic value. Additionally, upon review of staff 
competencies, it appears that the Concession Program does not have the 
appropriate level of financial, hospitality/recreation and legal 
expertise and experience available for oversight of the key high-value 
contracts.
    Staffing Levels and Expertise: The total staff associated with the 
Concession Program is approximately 249 individuals. Over 53 percent of 
this staff are collateral duty and 47 percent are full-time. Overall, 
we are of the opinion that the Concession Program has a sufficient 
number of staff to meet the Concession Program mission under normal 
business operations. However, the current staffing levels are not 
suitable for periods of intense change, such as now. It appears that no 
clear NPS model exists for Concession Program business-based staffing 
at the park and the region level.
    Budget/Resources: Our preliminary review of the ``Corporate'' 
(Washington Office and Regions) concession budgets indicated that in FY 
2000, the Concession Program had approximately $6.5 million dollars 
available for program staffing and operations. Sixty percent of this 
budget came from appropriated sources while the remaining 40 percent 
were generated by the 20 percent portion of franchise fees. With the 
expansion of funding to include the 20 percent fees, the ``Corporate'' 
concession function appears to be appropriately resourced on a steady 
state basis. However, the current budget is not sufficient to deal with 
the tidal wave of concession contract rollovers that NPS faces over the 
next 2-3 years.

                         BENCHMARKING ANALYSIS

    In an effort to evaluate the Concession Program against industry 
best practices, PwC identified and interviewed agencies/corporations 
that had similar areas of asset oversight (e.g. hospitality, retail, 
and recreation) as well as fiduciary responsibilities on behalf of an 
owner/landholder (e.g. ensuring service quality and reasonable 
financial return).
    We found that in the area of asset oversight, all of these 
organizations rely on professionals with significant financial and 
industry specific expertise. Additionally, staffing and resourcing for 
contract oversight is focused on contracts with the largest value and 
risk. Typically, a small cadre of staff will oversee key assets and 
routinely draw on other internal and external resources for additional 
assistance. Finally, all of these organizations/corporations require 
extensive reporting from their operating partners.

                        PROGRAM RECOMMENDATIONS

    PwC has developed four key recommendations for the Concession 
Program based upon our high-level program review. The recommendations 
are as follows:
1. Develop New Visions, Objectives and Implementation Strategies
    This will include establishing a working group to define visions 
and objectives for the Concession Program, as well as implementation 
strategies. This process must be inclusive and efficient.
2. Redefine Management Processes to Address Fiduciary Oversight
    Higher fiduciary oversight standards and more efficient business 
processes need to be established for all contracts.
3. Recommend New Organizational Structure to Heighten Strategic 
        Oversight on High-Value Assets
    A strategic business oversight solution needs to be developed for 
ongoing review and quality control for major concession contracts. 
Furthermore, the Concessions Program Washington Office needs to be 
reorganized and simplified along major management processes.
4. Develop a Business Based Action Plan
    PwC will develop a business based action plan outline based on 
study findings. A NPS working group will then need to be established to 
review the plan and begin implementation. The plan will then need to be 
briefed to NPS Leadership, Advisory Board and other appropriate 
stakeholders.
    In concluding my remarks, I would like to note that this study is 
designed to be the baseline from which the Park Service will redesign 
its Concession Program structure and operating procedures. We are 
working diligently with the National Park Service to develop and 
implement a business-based action plan, modeled after commercial best 
practices.
    I would be more than happy to answer any questions that you or the 
members have regarding our work. Again Mr. Chairman, I sincerely thank 
you for this opportunity to testify before you.

    Senator Thomas. Thank you. We will split up our time here. 
There are a lot of questions you could ask, I guess, the Park 
Service in response to some of the things that have been 
mentioned. We might start with a little broader aspect, but 
first of all, when was your study completed?
    Mr. Cornelssen. About a month ago, sir.
    Senator Thomas. So just a month ago, so there has not been 
a great deal of time to implement or consider your suggestions.
    Mr. Cornelssen. That is correct.
    Senator Thomas. And I presume that is true with you, Mr. 
Ring, that have you had time? Have you put some priorities on 
the things that Pricewaterhouse has brought to you?
    Mr. Ring. Mr. Chairman, we have worked with Pricewaterhouse 
all the way through the study but have just received their 
final recommendations here within the last month. We were able 
to have those findings presented to the advisory board and had, 
I thought, a very productive discussion related to the advisory 
board's recommendations and Pricewaterhouse's recommendations, 
but we are also in the process of taking these reports and 
obtaining review and comments back from our field personnel, 
and we expect to be convening a work group to come up with an 
action plan in terms of both the annual report and the 
Pricewaterhouse recommendations in the next several months.
    Senator Thomas. I would think you would respond pretty 
positively to the idea of defining visions and objectives, 
would you not?
    Mr. Ring. Absolutely.
    Senator Thomas. And you have not done that yet?
    Mr. Ring. We have not implemented the specific 
recommendations yet.
    Senator Thomas. And I presume most people would agree with 
the fiduciary and changing the expertise within the staff.
    Mr. Ring. I think, as I commented earlier, we recognize the 
need to strengthen the professional expertise within the staff 
we have, but we also recognize there is a level of expertise, 
particularly related to the larger contracts we deal with, that 
we do not have, and frankly it is probably not cost-effective 
for us to try and hire people to maintain that level of 
expertise, and so we are very much focused on going to outside 
consultants through contracting.
    Senator Thomas. Have you done any of that?
    Mr. Ring. Well, we have used Pricewaterhouse, but in the 
case of the specific contract relationships, no. We are 
negotiating right now to bring some teams in.
    Senator Thomas. We talked about this, you know, during the 
development of the bill and, in fact, had really before we came 
up with the advisory committee had the notion that we would be 
doing more of that, so that is not a brand new idea.
    Mr. Ring. The idea of contracting out is not, and to date 
on the funds that we use for the roughly $6 million that we use 
on the corporate level management of the program, we are 
contracting out for services for about a third of those funds, 
and we anticipate doing a significant amount more.
    Senator Thomas. Let me try something with all of you. There 
is a number of things we could do and so on, but given the 
management program we have today, what would be the most 
important thing, the most important change that you think you 
could do to cause to happen in this whole program of managing 
the concessions?
    Mr. Fassler. I would like to start--there is a number of 
issues, but let us just take one. I know the advisory board was 
set up for the purpose of trying to fix the problems, get a 
better understanding with inside the Park Service as to some of 
the elements it takes to be a concessionaire in many different 
areas.
    I noticed in the three meetings the advisory board had, 
there is a tremendous amount of Park Service personnel at these 
meetings, and I do not think any of the concessionaires--now, 
we are not supposed to be part of the advisory board, but one 
of my recommendations to Phil would be that concessionaires 
should be invited into these meetings for the very purpose of 
getting input and finding solutions, having suggestions made as 
to how you could fix the situation, and in other words have an 
oversight meeting not here but at the advisory board meeting, 
because most of the problems that we have is in communication, 
or the lack of it.
    In this particular case, we believe the regulations were 
written improperly. A lot of that could have been avoided if 
there was input at the advisory board meeting, or even with the 
National Park Service. Where concessionaires have a very good 
open and honest communication with their superintendent, many 
of the problems are not there. It is where you do not have good 
communication, and that generally happens here at the 
Washington Office, because they are so far away from the 
business, and the concessionaires are far way from Washington, 
except for those that are concessionaires in Washington.
    Senator Thomas. I presume if you had some fiduciary people 
and so on, that the policies would be made here to be adhered 
to by each of the parks.
    Mr. Fassler. That is correct.
    Senator Thomas. Mr. Voorhees, what would be the main issue 
that you think?
    Mr. Voorhees. First, if I can respond to the issue of 
concessioners being present at the advisory board meetings, I 
have been present at all the advisory board meetings, and I 
cannot think of a single meeting in which there has not been 
quite a strong representation from concessioners there.
    Now, we have taken great pains to allow everybody to 
express their voice and, in fact, usually sequester, if you 
will, an entire--not sequester, but hold an entire day for 
discussion and comments back and forth, not so much among the 
board, but with those who were present.
    Senator Thomas. Let us see if we can scoot on through. What 
issue do you think----
    Mr. Voorhees. I would say the most important issue at hand 
here is elevating the professional capacity of the concessions 
program managers so that you have a closer point of parity when 
they are going through the contracting process and with all 
aspects of concessions management.
    Senator Thomas. Mr. Horn.
    Mr. Horn. I think it is simply to reiterate that the 
dominant primary goal of the concessions program is to 
facilitate public use and enjoyment through the provision of 
quality services. Part of the problems are that we get mixed 
signals. Sometimes it is, are we making concessioners the 
environmental showcases through this environmental program? Are 
we supposed to be generating a lot of dollars for the Federal 
Treasury? Are we supposed to be assuring additional competition 
or protecting the resources?
    I think what happens is, when you get the objectives 
muddled the program just begins to work at cross-currents with 
itself, and if we went back to that simple, this is to 
facilitate public use and enjoyment through quality services, I 
think once the division of the Park Service got that message 
very clearly, I think the program would run much better.
    Senator Thomas. The definition of vision and objectives, 
then, would be high on your list?
    Mr. Horn. Yes, sir.
    Senator Thomas. Mr. Cornelssen.
    Mr. Cornelssen. I think the way the program is set up today 
is one size fits all for all contracts, and that is a problem. 
If you take the top 30 to 50 contracts, and these are complex 
financial legal instruments that require a lot of expertise, 
they require a different management infrastructure to deal with 
that, and then if you take the remaining contract and say, 
frankly, maybe these could be simplified, and maybe 
streamlined----
    Senator Thomas. If we said that. I understand what you are 
saying, and I am sure that is exactly right. So you are talking 
about the 27 pages perhaps could be simpler, and spend more 
time on the huge ones.
    Mr. Cornelssen. Yes, sir.
    Senator Thomas. Mr. Ring, where would you put your 
priority? I mean, you are, but tell us.
    Mr. Ring. Mr. Chairman, I have not heard a comment yet from 
the other speakers with regards to things that need attention I 
disagree with. It is hard to distinguish which one is the 
single most important. Unless they are all working we do not 
have a program.
    I agree that communications is a key here. We are making 
huge changes, and maybe through all of it we have got a long 
process to go through and a new law to implement and lots of 
people to train and lots of devils in the details to work out 
to get it done, and if I had to give the edge to any of them, I 
would give the edge to communication and making sure we are 
talking to each other as we work our way through it, because 
there will undoubtedly be lots of, and there are lots of 
misunderstandings, good faith attempts to do things that do not 
work out, and we need to be able to have enough trust in each 
other to know we are all headed for the same goal.
    Senator Thomas. Some of us--I might just share there has 
been an awful lot of talk about partnerships and listening and 
talking, but you also have to be willing to accept some of 
those things and cause them to happen.
    The idea that you meet with everybody does not do it. You 
also have to do some of the things that are recommended. I am 
not saying you do not, but I am saying, with all the talk that 
goes on about public land management, let us get together and 
so on, and have cooperating agencies, but then the agency has 
to listen.
    Mr. Ring. Mr. Chairman, I could not agree with you more. 
Talk is something that can happen a lot. Communications is not 
necessarily something that always happens when you are talking, 
but I very much am focused on communication.
    Senator Thomas. Senator Campbell.
    Senator Campbell. Thanks, Mr. Chairman. It will be 
interesting to come back in another year, year-and-a-half, and 
see what part of the Pricewaterhouse action plan has been 
implemented.
    I only have a couple of questions, although I might say to 
Mr. Horn, do not feel too bad about park regs that define 
canoes that are being a page long, as I understood you to say. 
I heard one time the Defense Department has over 100 pages 
dedicated to defining hamburger. That just happens to be 
Government, so do not feel too bad about that.
    You did say something that made me think about the mission 
of the concessionaires, and I know we have to understand they 
are supposed to provide a service and some quality experience 
and a product, but clearly they have been put in a position in 
some places where they also have to be the enforcers, and I am 
not sure that should be their mission.
    Let me ask Mr. Ring a question here. We have 640 
concessionaires, as I understand it. When we implemented this 
situation where incumbent concessionaires would not get a 
preferential right to renew their contracts, do you know off-
hand how many contracts did not get renewed, how many were lost 
or changed, or new concessionaires?
    Mr. Ring. Senator Campbell, I do not know the answer to 
that specifically. I will find out and provide it.
    Senator Campbell. I was just interested, because some of 
those are moms and pops, and some of them are big chains, and I 
am kind of interested in knowing whether the big chains had 
better opportunity, because they can buy cheaper because they 
buy larger amounts of goods than a small independent, and if 
you could get that information I think we would be interested.
    Mr. Ring. I certainly will. I suspect at this stage we have 
a number of contracts that are expired and under extensions, 
and we are still early in the process of getting many of those, 
the bulk of those contracts out for new contract award, and so 
I rather suspect the actual number is low, but I will get that 
information for you.
    Senator Campbell. I appreciate that. Mr. Fassler, you made 
some really interesting comments, and I would like you just to 
elaborate, or just to restate them, because I am not sure I was 
writing fast enough to get it down right. Did I understand you 
to say if I have a big chain like McDonald's, and I have got 
them all over the place, all over the country, and I have one 
in a national park somewhere, that I cannot sell the whole 
chain without some approval from that park, because one of them 
is in the park?
    Mr. Fassler. The conclusion you came to is correct, but it 
is not the way you said it. What we are saying is, if a major 
company like McDonald's happened to own a subsidiary that has a 
concession contract in a national park, based on the way their 
regulations have just recently been written, the Park Service 
will dictate if McDonald's could sell one of their 
subsidiaries, and that is not what the law intended it to be.
    Senator Campbell. Something sounds wrong with that. I think 
that might be what we call the law of unintended consequences.
    Let me also ask you, if I have a business in a park and I 
want to expand that business, what can I use in that business 
to use as collateral for a loan? You alluded to that.
    Mr. Fassler. We understand the law, which would allow us 
cross-collateralization, which means you could put up assets in 
a number of your facilities to gather a loan, a big loan that 
you could be using to finance investments in the park. The law 
allows it. The Park Service regulations wrote it and said you 
cannot do it. That is one of our problems.
    Senator Campbell. That sounds like something that needs to 
be defined or changed, too. And Mr. Voorhees, I do not want to 
tax that bad voice of yours, I apologize, but I was interested, 
you are speaking here on behalf of the Concessions Advisory 
Board?
    Mr. Voorhees. Yes, that is correct.
    Senator Campbell. Did the Concessions Advisory Board advise 
these parks on handicrafts like Native American handicrafts?
    Mr. Voorhees. We are going to be spending this year 
focusing on the handicrafts issues, so we are just getting into 
it.
    Senator Campbell. Then I can tell you, you have got your 
work cut out for you. It is a mess.
    Mr. Voorhees. I am aware of that.
    Senator Campbell. They say now it is about a $1 billion 
industry. Over half is plagiarized, i.e., Chinese beadwork, 
whatever, plastic in place of turquoise, Kuchinas carved in 
Mexico, all that kind of stuff. Whoever has to do the defining 
and the tracking, what is authentic, what is not, that is a 
major job, and I know some concessionaires in the Park Service 
that are trying to comply with the Indian Arts and Crafts Act 
of 1988, which updated the old one, and the Indian Arts and 
Crafts Board guidelines about what is and what is not. They 
kind of say what is and what is not, where the 1988 Act says 
who is and who is not.
    It is just a complicated mess, and since some of those 
crafts they call traditional but they are not, if you go back 
far enough in time. Silverwork is an example. Before 1730 no 
Indians did that in the United States. Weaving was basically--
rug weaving, which is now considered a traditional Navajo craft 
was taught to the Navajos, as you know, and a lot of these 
things were not--pottery was, of course, traditional, but slip 
pottery, the hand painting on slip pottery was not traditional, 
and yet it is hand-painted.
    So the question can be asked, if you paint on that as a 
medium, why doesn't that qualify? If you paint on a canvas 
using a brush you bought down at the five and dime and a canvas 
you bought at the hardware store and acrylic paints, and yet if 
you are Native American you sell that, it qualifies as Native 
American Art, but slip pottery does not, and you painted on 
that.
    So it is a real complicated thing, and I am not asking you 
to try to figure it all out here, because I cannot figure it 
out, and I have been an Indian my whole life, and you are just 
not going to find it easy, particularly with all these 
different definitions of who and what.
    But I would encourage you to do the best you can. It is 
just kind of a mess to try to find what the Park Service should 
be accepting and what they should not, and they above all 
people should be the ones that try and keep it as honest and 
above-board as they can.
    Mr. Voorhees. Well, Senator, the issue for us at the moment 
is to try to find a way which is most constructive for us to 
engage in this issue within the confines of the charter. It is 
going to take a lot of thought to figure out exactly what is 
the most targeted way to participate here.
    Senator Campbell. Well, you may have to work with some of 
the agencies that are already in place, such as the Indian Arts 
and Crafts Board, the Indian Arts and Crafts Association, which 
is a private association of collectors, craftsmen, and museums 
and so on, but I wish you well.
    I have no further questions. I think with or without the 
chairman's permission I will just call a recess for a few 
minutes until he gets back so I can go over and vote myself. 
Thank you. We appreciate you being here.
    [Recess.]
    Senator Thomas. Thank you very much. I am sorry, we get 
interrupted by votes all the time.
    Mr. Ring, how do you react to the simplified contract 
versus the 27 pages?
    Mr. Ring. Mr. Chairman, I know that there is, with the 
guides and outfitters particularly there is a range. There are 
some 300 of the 630, or 330 of the some 630 concessions 
operations that are in that guide and outfitter category, but 
they range in scope and scale dramatically, and while many of 
them are small, we have, I believe it is 21 that have values 
over $500,000 gross a year.
    I believe the rules were, and the contract was put in place 
to be able to do several things. One is to cover a range of 
situations and leave some flexibility when we put the 
prospectuses out to go with the greater or lesser requirements 
based upon the scale of the particular operation we are 
soliciting, certainly to gain enough information to make sure 
that if there are resource or safety resource impact or safety 
implications related to the operation we can assess those, and 
also to create a competitive climate where we can solicit from 
people who are submitting proposals an opportunity for them to 
provide something very straightforward or something well-
developed in terms of their offer so that we can actually judge 
and make distinctions between them when we are doing a 
competitive evaluation, and so I know that is the objective.
    I know that the rules set these in place to provide for the 
wide range, and beyond that, I am interested in talking more 
with Mr. Horn over some of the specific concerns and 
applications, because we are very early on in making use of 
these.
    Senator Thomas. If they are over the $500,000, then they 
are in a different category.
    Mr. Ring. They are with regards to the guides and 
outfitters, but the level of contracting we have, we have got 
to make some determinations within each category in terms of 
the range.
    Senator Thomas. Is simplicity a part of your vision?
    Mr. Ring. Yes, it is, sir.
    Senator Thomas. Would you care to respond?
    Mr. Horn. We look forward to working with the Service. As I 
said, I think Curt probably hit the nail on the head before 
that part of the problem is that we have ended up with a little 
bit of a one-size-fits-all approach, and I think to the degree 
that the agency can in essence stratify the system so that you 
have got appropriate expertise directed at the 30 or 40 of the 
big multimillion operations, and then focus a different level 
of expertise and a greater degree of simplicity at the 300-plus 
smaller guides and outfitters, dominantly the moms and pops, I 
think that is a reasonable bifurcation in the system, that I 
hope we can go in that direction. I think it will solve a lot 
of the problems.
    Senator Thomas. Mr. Voorhees, I have heard from a number of 
the members of the advisory board that they are unpaid and so 
on, and they do not have staff, and this and that, and they 
really are not set up to accomplish as much as they should. Why 
is that? Why don't you have staff?
    Mr. Voorhees. I do not think that I have an answer for that 
question. There is a lot of work ahead of us, and I am not 
going to argue that it would not be helpful.
    Senator Thomas. Is it not potentially possible to do that? 
I believe it is authorized.
    Mr. Voorhees. Honestly, I would have to ask you. I imagine 
that it is. I do not have a response for you on that.
    Senator Thomas. Well, I was just surprised when I heard 
someone say, well, we don't get paid, this is a voluntary 
thing, and we are not going to do very much, or words to that 
effect.
    Mr. Voorhees. You did not hear that from me.
    Senator Thomas. I know, but I mean, this was the 
alternative to having more professional input into the agency, 
so I think the expectation there is that people with this 
expertise that are on this board would work pretty hard to 
cause things to happen.
    Mr. Voorhees. Well, Mr. Chairman, in this regard I can 
speak, I think, probably only for myself about how I feel about 
this, and I take the responsibility very seriously, and am 
willing to apply whatever amount of effort is required. 
Certainly, it would be helpful, I think, if there was 
additional support. That would probably enable us to move 
farther faster.
    Senator Thomas. It is pretty hard for a volunteer group to 
do something without some continuity. Maybe I misunderstood. I 
thought one of the areas you did not address was the concession 
fees, and the process for setting those. Was that right?
    Mr. Voorhees. In the last year, we covered the issue of 
streamlining the rate approval process.
    Senator Thomas. Is that in place?
    Mr. Voorhees. I think it is in process.
    Mr. Fassler. In our testimony, the National Park 
Hospitality Association testimony, we are disappointed that the 
advisory board did not advance any new direction on creating a 
less burdensome position to come up with new rates. They did 
not make any new recommendations. They kept it the way it is at 
this point in time.
    Senator Thomas. The policy of payment within 2 years, is 
that a troublesome thing? I guess the explanation of that is, 
if the Government buys the resource it takes the Congress a 
long time to move, but my guess is that there is very seldom 
that that is the case. Why does it take so long for an exchange 
of property among owners to get the money?
    Mr. Ring. Mr. Chairman, I am not aware of any of those 
transactions that have actually occurred to date.
    Senator Thomas. That is a possibility, though. It is in the 
rules, right?
    Mr. Ring. It is in the rules, and the provision for that is 
in the law as well, that the 2-year payment, because--and I 
think what has driven that is the issue associated with having 
transference associated with the operation of the park to have 
an orderly transference with the association of the operation 
of the park and provision of service for the visitor.
    Senator Thomas. I would have to check. I do not think that 
is spelled out in the law. Does anyone have any better insight 
into that?
    Mr. Fassler. The way I read the law, it says upon 
termination, if you are not the successor, you get your money 
immediately.
    Senator Thomas. That is what the law says, I believe. Time 
to approve proposed transfer of operation. Mr. Horn, is that a 
problem?
    Mr. Horn. It is. That is one of the areas that, when we 
filed our comments on the regulations, it was our understanding 
what Congress wanted was essentially less discretion with the 
agency, and putting the burden on the agency to disapprove. In 
other words, that if a proposed transfer is brought to the 
agency's attention, once they make a determination that the 
transferee is a qualified entity and that there are no apparent 
major financial problems and/or resource complications, that 
the transfer process should move very, very rapidly. That has 
not been the experience so far for a couple of the small 
operators under the new system, and some of these people are 
looking at delays of 6, 8, and 10 months.
    Again, part of that, I guess, we can attribute to the 
changeover that Mr. Ring and others talked about. Again, some 
of the folks understand that we are in this transition period, 
that there is probably a need for some patience, but there is 
just a concern that this sort of strung-out process not just 
become normal, not just become accepted by everybody, not be 
the ordinary course of event by the agency.
    Given the fact that we thought that what you all intended 
was that transfers be facilitated unless something jumped up, 
particularly in the small ones, that said, gee, this is not 
worth going ahead, that transfers should be approved as a more 
matter of course than maybe has been the experience in the 
past.
    Senator Thomas. This bill was passed in 1998, and it is 
soon going to be 3 years. What is your prediction in terms of 
implementation? I suppose you can always think of something 
more, but the general themes that are there that you now have 
before you, when do you think you would say, well, we have 
implemented these into the regulations, or the regulations 
reflect the intent of the legislation?
    Mr. Ring. Mr. Chairman, The regulations were issued this 
past year in 2000, and so there was a significant process of 
getting to those. Certainly we are beginning to implement under 
them and train our people in the use of them, and learn the 
effect of them in practice. They have also been challenged in 
court, and so we are working through those issues as well.
    This is a process where, when you ask--we feel the regs are 
effective, or we would not have put them out and finalized 
them. We are going to be in a process over several years to get 
our personnel trained and familiar with them, comfortable with 
them, and to get our practices settled in, and I would be loath 
to predict right now that it is going to happen in a year, or 
in 2 years.
    Senator Thomas. Of course, the issue is that you may think 
they reflect the law, but a lot of us do not. That is part of 
the reason for having this hearing, and we have heard a great 
deal about it. For instance, defining the environmental aspect 
in a contract, was that a policy in the law?
    Mr. Ring. As I understand it, it was a provision that was 
provided for as a criterion to evaluate.
    Senator Thomas. Sure, it was provided for. The idea, for 
example, that the Park Service Director can change the contract 
during the course of the contract, was that there in the law?
    Mr. Ring. There are many specifics in the regulations that 
are not written into the law. The implementing regulations, by 
their very nature, have to get into more specifics within the 
discretion provided by the law.
    Senator Thomas. They also have to be in keeping with the 
intent.
    Mr. Ring. That is correct, sir.
    Senator Thomas. So I guess my point is, I do not think 
people would agree that yes, we have issued regulations and so 
that is all over. I do not think it is all over. I do not think 
that the regulations, in the view of many of us, are in keeping 
with the intent of the legislation, and we are going to have to 
keep working at this, apparently, and I assume that you are 
willing to consider that.
    Mr. Ring. Sir, we are entirely open.
    Senator Thomas. Who is the person that is on contract that 
generally does this sort of stuff for you, the Park Service?
    Mr. Ring. That generally does?
    Senator Thomas. The development of regulations.
    Mr. Ring. We have our Solicitor's Office and our 
Concessions Program Branch, and we have under contract an 
individual who was a long-time employee of the National Park 
Service, Lars Hanson.
    Senator Thomas. Is he still there, and will he continue to 
be there?
    Mr. Ring. He is still under contract at this point, sir.
    Senator Thomas. He is the gentleman that basically put the 
regulation together, is that right?
    Mr. Ring. He was very instrumental in the development of 
them, yes.
    Senator Thomas. He never shows up here to talk about them.
    Mr. Ring. He is not the witness for the Department, no, 
sir.
    Senator Thomas. But we hear about him a lot, and I think he 
is part of the issue here. Would you define a little more how 
you would set up, Mr. Cornelssen, this fiduciary checkpoint 
idea?
    Mr. Cornelssen. There are a lot of analogies in other 
organizations within the Federal Government. One of the things 
I think we realized when we finished our work, or we were doing 
our work was, we are not going to reorganize the Park Service 
for concessions.
    I mean, if you were to do this the way a company would do 
it, you would say, we are going to stovepipe this whole thing, 
and it is going to have a corporate--one person at the top, 
clear directions, clear decisions, but that would require a 
significant organizational change, so the idea behind the 
fiduciary checkpoints is kind of like a way of--I mean, for 
example, for contract size, if you have contracts in excess of 
$3 million per year in gross revenues, or a possessory interest 
in excess of $5 million, whatever may be the case, that cannot 
be a local decision. That cannot just be a regional decision. 
It requires significant review and approval at a corporate 
level, not to add bureaucracy, but to ensure that it is a 
business-like function, and that it is done effectively.
    Senator Thomas. However, you did recommend, did you not, 
that there be some additional people placed in the Park Service 
to deal with these things, additional or different people?
    Mr. Cornelssen. I think both insourcing and outsourcing of 
the appropriate kinds of business functions that you need for 
this sort of thing.
    Senator Thomas. But did you not suggest a CFO kind of a 
person?
    Mr. Cornelssen. We did not make that recommendation.
    Mr. Voorhees. That was a recommendation of the board.
    Senator Thomas. In other words, you mentioned two people 
that would be basically financial folks.
    Mr. Voorhees. That is essentially correct.
    Senator Thomas. How do you react to that?
    Mr. Ring. Sir, we are evaluating the recommendations of the 
advisory board very carefully in discussion within the agency. 
I think the proposal to establish a new associate is one that 
has been supported, and we will be discussing pursuant to the 
new director.
    Senator Thomas. When do you expect to have a new director?
    Mr. Ring. We hope very soon, sir, but we do not know.
    Senator Thomas. I guess nobody knows at this point. That 
is, I suppose, part of moving forward, however, is to get some 
new people in place, the Secretary and Director and so on.
    Do you think--I guess, Mr. Fassler, your statement would 
indicate that the regulations you think are not consistent with 
the intent of the law.
    Mr. Fassler. That is my position. That is our position, and 
that is basically why there is a lawsuit going on right now. 
With your permission, I would like to ask Dick Ring a question 
that might help answer a lot of questions.
    Senator Thomas. Okay.
    Mr. Fassler. Dick, there are two questions I would ask you. 
The first one is, if we reverse roles, if you were the 
concessionaire and I was you, would you sign that standard form 
contract that your agency had sent out, and if the answer is 
yes, where would you do it?
    Mr. Ring. Mr. Chairman and Joe, I look forward to working 
on the program and trying to make as many improvements as we 
can, but I am not at liberty to get into speculation on matters 
that are in litigation right now. I am really constrained, and 
the Justice Department really is the spokesperson for us in 
those matters.
    Senator Thomas. Mr. Horn, would you sign it?
    Mr. Horn. I just worked on a contract, the reexecution with 
one of my clients, and after some negotiation we finally 
signed, after we wrote a three-page letter in which we outlined 
our understanding of a half-a-dozen or more of the contract 
provisions which we thought were ambiguous, and because we were 
told by the agency that they could not negotiate with us, we 
said, well, great, well, here is what we mean by affixing our 
signature to this provision, so I think the contract in its 
current form does need some appreciable amending, and some of 
its more ambiguous provisions do need to be verified fairly 
significantly before I would advise anybody just to simply sign 
it as is.
    Senator Thomas. We kind of set this up so there could be 
some informal exchange. Why, Mr. Ring, did we get--you talked 
about a bubble in the course of the testimony. Why did we get 
that sort of backlog to the extent we did?
    Mr. Ring. Sir, my understanding is that while the new law 
was being promulgated, that we were extending contracts in 
anticipation of the new statute, so we have a lot of contracts 
that are expired and are operating under extensions, and we 
have limited authority under the new law to grant further 
extensions. We have some authority, but there are time limits 
on those, and so we are looking at a significant workload 
effort as opposed to just a normal turnover effort.
    Senator Thomas. This bubble started long before the law was 
put in place.
    Mr. Ring. Yes, sir. I understand that, and until last fall 
I spent 30 years in parks and the last 19 as a park 
superintendent, and I am well aware of the difficulty in terms 
of the timeliness of dealing with turnover in contracts.
    One of the other issues, though, you mentioned, sir, is the 
issue of resolving the possessory interest rollover, 
particularly on the larger contracts, adds a significant 
workload, particularly with the larger contracts, that has to 
be incorporated into the process of bringing all of the 
existing concessions contracts in under the new law.
    Senator Thomas. If I were going to buy a motel, which I 
have done, where do you suppose I would get the assessment of 
the value?
    Mr. Ring. I assume, sir, you would retain your own 
appraisers in that regard.
    Senator Thomas. From the private sector?
    Mr. Ring. Yes.
    Senator Thomas. Do you do that?
    Mr. Ring. We have appraisers that we use that are both in-
house, as well as contract.
    Senator Thomas. But if you were going to go outside and 
out-source it, why, it should not be such a stumbling block, 
should it? You could hire people to do that.
    Mr. Ring. Yes, sir, we can. I do not believe that is the 
issue with regards to--that is part of the workload, certainly, 
but in most negotiations like that, unless there are absolutely 
precise guidelines with regards to how an appraisal is done and 
how value is established, then you often get different 
appraisals coming in.
    Senator Thomas. Like the Grand Canyon.
    Mr. Ring. Certainly the Grand Canyon.
    Senator Thomas. What was the difference there between your 
appraisal and the professional appraisal?
    Mr. Ring. The difference, as I understand it, was between, 
I believe, the Government view on the possessory interest value 
as $85 million, and the view on the part of the concessioner 
was $195 million.
    Senator Thomas. Quite a difference.
    Mr. Ring. Yes, sir, and when we are operating under 
determining what the value is under the rules set forth in the 
previous law.
    Senator Thomas. It was not the previous law, though. What 
we are trying to do is suggest that you go into the private 
sector and have this done.
    Mr. Ring. Sir, we do bring in folks from the private sector 
to do those appraisals.
    Senator Thomas. You did on that one? That was the private 
sector, the 45?
    Mr. Ring. Yes, I believe we did.
    Senator Thomas. Where did you find that assessor? Anyway, 
that is interesting. The whole point is, we need to be moving 
towards that, and how long do you think it is going to take you 
to transform this into doing more private sector work, which is 
the entire intent of this section of the law?
    Mr. Ring. Well, in the case of those appraisals, we were 
using private sector folks to come in. You can get different 
appraisals, appraisers coming in with different appraised 
values regardless of whether you use in-house or private sector 
folks.
    I think that the bubble issue is a very significant one, 
and that is, there is a significant amount of workload 
associated with doing those appraisals and then reconciling 
them between the concessioner and the United States, and it is 
one that is going to take a significant amount of time and a 
significant amount of resources to accomplish.
    Senator Thomas. What is your view, Mr. Voorhees, of trying 
to speed up this idea of appraisals, if that is the problem?
    Mr. Voorhees. Well, I would say, as quickly as they can 
reasonably be done with the appropriate expertise in hand. I 
mean, with the Park Service especially on this issue, it has 
been I think an issue of application of the resources in order 
to get yourself through the process. It is not so much an issue 
of--it is an issue of applying skills to get you across the 
threshold, if you will.
    Now, in terms of the bubble of the number of standing 
contracts that are on extension that need to be dealt with, 
many of which have substantial possessory interests, I think it 
is more important that the Park Service enable itself to 
execute or review those contracts, negotiate those contracts, 
and value the possessory interest with the level of skill that 
is required to do it. It is more important to do that, than it 
is to do it right now.
    In terms of how quickly does that need to be, I am not sure 
to me there is a clear answer. I would have to look and see 
what is reasonable case-by-case, how long is this likely to 
take.
    The Grand Canyon issue is a substantial issue. The 
difference in the valuations was absolutely tremendous, and I 
think it has sweeping implications. There are a lot of smaller 
issues that are part and parcel to how that happened that I 
think have to be worked through, and they ought to be worked 
through before the Park Service moves ahead.
    Senator Thomas. I am sure that is true. On the other hand, 
there are a relatively smaller number of major contracts, and 
if you are letting yourself get all wrapped up in 600 instead 
of 40, it seems like that is a little out of tune.
    Mr. Ring. Mr. Chairman, we are trying to move ahead on all 
of them.
    Senator Thomas. Well, why? Why don't you move ahead on the 
ones that are most important?
    Mr. Ring. We are attempting to move on the ones that are 
most important, but we have limited authority in terms of how 
far we can extend.
    Senator Thomas. You have been doing that for years. You 
have been extending it in Teton Park for at least 6 or 8 years, 
1 year at a time. You did not have any authority to do that, or 
less than you do now, and my point is, it looks like you have 
to set some priorities.
    Mr. Ring. I agree with that, sir.
    Senator Thomas. And move ahead with the things that have 
the most impact on the overall picture, and put your emphasis 
there instead of, well, we have got a big bubble, and we are 
way back there. I know that is true. We all have bubbles, and 
everybody has to make decisions, and everybody has to set 
priorities and move on those things, and I guess I have the 
feeling that that may not be happening.
    In any event, you say you cannot do it until you get some 
other problems resolved, but you know, we are soon going to be 
3 years into this baby, so we are hopeful we can move forward.
    We have kept you about long enough. Do you have any final 
comments?
    Mr. Horn. We just look forward to working with you, and 
appreciate your continued interest and attention to this issue.
    Mr. Voorhees. I guess I would say that, understanding and 
accepting your frustration, nonetheless, from the perspective 
of sitting on the board, and the conversations we have had, 
there is real progress. There is real progress that perhaps was 
not there before, and we are pretty encouraged that some of the 
frustration, although understandable, should not be felt in the 
future, because I think the process is going to move quite 
quickly from here on.
    Senator Thomas. I hope so, and I hope that happens.
    Mr. Fassler.
    Mr. Fassler. I would say that number 1, the National Park 
Hospitality Association appreciates the fact that we have had 
an oversight meeting on the regulations at this point, and I 
extend our wish to the Park Service that together, if we could 
sit down and go over the differences, the differences between 
the law and the regulations, level-minded, level-headed people 
can fix this, and we offer you our hand in doing that.
    Senator Thomas. Well, let me say that I realize it is not 
easy, and I realize it is difficult to change some things, but 
I do think now for some time we have been focusing on the fact 
that the park has these two purposes. One is to protect the 
resource, and the other is to provide a visit. It is big 
business.
    I have to tell you that I am not persuaded that the 
management structure is there, particularly. I am not sure you 
are able to utilize fully the regional offices. I am not sure 
you have really contracted with some people here at the top 
level that are financially, you know, experienced. I do not 
expect someone who has been in the Park Service doing the whole 
natural resource thing all their lives to be able to step in 
and do this, and neither should anyone else, and I am sure you 
are moving in the right direction.
    In your statement you talk about you are committed to this 
and you are going to do that and you accept this, but we have 
got to get it done here pretty soon, as a matter of fact, and 
so we are here to help you.
    One of the things that we should talk about some more, I 
suppose, and maybe perhaps in our next meeting are things that 
are in the law that are a hindrance. Should we be looking at 
some revising of the things, and sometimes that is the case, 
and certainly we ought to look at that, so any time you have 
those ideas I think we are all committed to strengthening this 
national resource of ours.
    I think we are all knowledgeable that there is going to be 
more visitation than there has been in the past, and that we 
are going to have to do a better job of management. I hope the 
business plans are being developed for the whole parks. The 
ones I have seen deal also with concessions. That is a good 
idea, and we need to do that. They need to really be business 
plans, and I am pleased with the help we are getting on that in 
some places, so in any event, this is the first of several 
oversights we will have, because I think we are very 
interested, number 1, in implementing to the best we can the 
law to result in the better operation.
    We are interested in knowing if the law needs to be 
changed. We could also take a look at that, if that is the 
case, but most of all I think we are interested in working 
together to make the National Park System an even more 
effective and efficient operation, and that is what we would 
like to do.
    So thank all of you very much for being here. There will 
be, I suspect, some additional questions for the record. Thank 
you very much.
    [Whereupon, at 4:05 p.m., the hearing was recessed, to be 
reconvened on March 29, 2001.]


              NATIONAL PARK SERVICE CONCESSIONS MANAGEMENT

                              ----------                              


                        THURSDAY, MARCH 29, 2001

                           U.S. Senate,    
            Subcommittee on National Parks,
             Historic Preservation, and Recreation,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. The committee will come to order. Sorry we 
are late. We had a vote that came at the very same time.
    I welcome you all to the subcommittee's oversight hearing 
on the National Park Service's implementation of the management 
policies and the procedures provided in a number of titles on 
the Parks Omnibus Act. Last week we dealt, as many of you know, 
with the concession title, and this week we would like to look 
at the remaining titles.
    Title I sought to create and maintain a highly professional 
organization and workforce. This was a recommendation that was 
put forth in the Vail Agenda in the 1990's. We wanted to ensure 
that both the employees and the supervisors have the essential 
skills to do their jobs. Specifically, we directed the 
Secretary to develop a comprehensive program for National Park 
Service employees that would address essential training skills.
    Title II directs the Secretary to establish a scientific 
program for the National Park Service to ensure that park 
managers have solid natural resource and scientific 
information. There are a variety of ways, obviously, to meet 
this need. I am anxious to hear what the agency has 
accomplished, and also hear any suggestions that you might have 
that may make it easier to accomplish these goals.
    As you know, there are 384 units, containing natural and 
cultural resources. In making additions to the system, I think 
we have to ensure that the potential candidates are appropriate 
for inclusion. Title III establishes a procedure for studying 
those potential additions, and directs the agency to develop a 
prioritized list of areas for possible inclusion. This is an 
issue, by the way, that I would like to talk about further at a 
later time to see if there is any way to identify where we will 
be in the next 20 years with regard to the park system, and 
which resources should be considered as the highest priority 
for us, and so on.
    Title V authorizes the Secretary to collect fees to recover 
transportation costs, and the sale of Golden Eagle Passports by 
private vendors. We will see how that is going. I certainly 
think there is a success story in the partnership between the 
foundation and the Park Service.
    As you know, the foundation was created in 1967 to 
cultivate support from corporations, foundations, and 
individuals. In the past 5 years, the Park Foundation has 
raised over $78 million. Title VII amended the Park 
Foundation's enabling legislation, to allow them to work with 
local nonprofits and so forth.
    The last title, title VIII, addresses law enforcement, 
cooperative agreements, and the leasing of building structures 
and lands within the park system.
    The Park Service provides law enforcement across 384 park 
units for over 400 million visitors annually, across the entire 
range of landscapes and settings in the United States. There 
have been three ``in the line of duty'' shooting deaths of park 
rangers over the past 10 years. Certainly park rangers, and 
U.S. Park Police who perform law enforcement duties, are at the 
same risk level as any other law enforcement agency, and we are 
proud of the work they do.
    This record will remain open after the hearing so if there 
are questions or other testimony, they will be able to be put 
in the record.
    So, that is why we are here, and we are anxious to get on 
with it. We are going to ask all the witnesses to come to the 
table at the same time, if you will please. Of course, as 
usual, anything you can do to keep your testimony relatively 
short will be appreciated. Your entire statements will be 
included.
    Denis Galvin, Deputy Director, National Park Service. 
Denny, nice to have you here. Mr. Peter Ward, chairman, 
Fraternal Order of Police, U.S. Park Police Labor Committee; 
Mr. Greg Jackson, vice chairman, Fraternal Order of Police; Mr. 
Scot McElveen, board member for special concerns, Association 
of National Park Rangers; and Mr. Jay Vestal, vice president, 
Field Department, National Park Foundation. Nice to have you 
here. The order will proceed as listed, if there is no 
objection. So, Mr. Galvin, if you would like to begin, sir.

 STATEMENT OF DENIS P. GALVIN, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Galvin. Thank you, Senator Thomas. I have a prepared 
statement I will submit for the record. It covers all of the 
titles. I will simply summarize the information provided to 
update the committee.
    Senator Thomas. Thank you.
    Mr. Galvin. The omnibus bill of 1998, Public Law 105-391, 
really was a landmark piece of legislation. We thank you for 
your efforts in organizing it and your leadership in providing 
for its passage.
    In little more than 2 years since its enactment, we have 
made considerable progress and, as you mentioned, a separate 
hearing developed the concessions title. I will briefly 
summarize the progress in the other titles in the act.
    As you mentioned in your opening statement, title I deals 
with the training and development program. Our training program 
focuses both on specific skills and on the broader area of 
management and supervision. Examples of specific skills are 
maintenance skills for preserving historic buildings and law 
enforcement skills. In addition, our training program is 
organized to see that employees get the professional and 
technical competencies required for given career fields, and we 
have developed a group of competencies for each career field.
    We are in the process of developing a measurement system to 
monitor the effectiveness of our training efforts.
    We have also been working to revise and update our 
supervisory training courses, with curriculum focusing on 
skills and knowledge needed to be an effective National Park 
Service manager, but we have also been working with the Office 
of Personnel Management to identify skills that any manager 
needs on a government-wide basis. Obviously, some of our 
managerial skills must be done in the context of our resource 
management responsibility.
    We have begun efforts to expand our management base by 
advertising key vacancies in multiple job series. This allows 
more candidates to compete. New supervisors are required to 
attend 80 hours of supervisory training during their first 
year. All other supervisors are required to attend 40 hours of 
supervisory training per year. We have supplied all supervisors 
with a desk reference on aspects of supervisory responsibility, 
and shortly we will launch our mid-level management development 
program designed to prepare employees to assume management 
responsibilities throughout the National Park Service. That was 
advertised to all sources, and the advertisement closes on 
Friday. So, we expect to be bringing in people as part of the 
mid-level management program. We already have a good intake 
management program.
    Another section of this title, building on the Government 
Performance and Results Act of 1992, required each park to 
develop a 5-year strategic plan and annual performance plans to 
make the information available to the public. All of those 
things have been done. Each park each year does make available 
to the public its annual performance plan and its annual 
performance report. Each park does a press release, letting the 
public know that that plan is available and also outlining its 
major budget categories in accordance with the specifications 
set forward in the bill.
    Title II of the bill sets forth a scheme for natural 
resource management in the national parks. It greatly benefits 
the National Park Service by clarifying and emphasizing that it 
is important to encourage science in parks and that effective 
resource stewardship requires sound, high quality science. The 
National Park Service has developed the Natural Resource 
Challenge, a comprehensive strategy. Funding for the third year 
of the Natural Resource Challenge is included in the 
President's fiscal year 2002 budget. The first 2 years have 
been nearly fully funded by the Congress.
    As a result of the Natural Resource Challenge, we have 
significantly accelerated the acquisition of inventories. We 
have initiated monitoring in the first 5 of 32 monitoring 
networks encompassing the 270 park management units that have 
significant natural resources. Together, these will provide a 
large piece of the information needed for science-based 
decision making.
    Title II also encourages us to reach out to partners and 
the need to ensure that science is welcomed in parks. We have 
set up a system of cooperative ecosystem study units. We are 
beginning to set up a series of learning centers. We have a 
Sabbatical in the Parks program that encourages academics on 
their sabbaticals to do work in parks. And we have simplified 
the research permit and reporting system--in fact, it is up on 
the Internet--to respond to the spirit of Title II of the act.
    Learning Centers focus on providing a place for researchers 
and students from academia, government, and other science 
groups to gather, exchange ideas, and advance the frontiers of 
their scientific knowledge. These provide dormitory and office 
space in existing buildings to make use of parks by outside 
scientists more practical and encouraging.
    The Cooperative Ecological Study Units provide a key means 
by which parks actively reach into the academic and 
governmental research communities to obtain scientific 
information and to encourage the use of parks as places in 
which to conduct research, research that is often funded by 
organizations other than the National Park Service. These units 
are interagency in nature. There will be 10 in place by the end 
of 2001 that incorporate 70 partner organizations, some of 
those historically minority colleges and universities. These 
are selected, incidentally, as a result of requests for 
proposals, so they are competitively evaluated. Universities 
that have been successful in the first go-round include 
Northern Arizona University, University of Montana, University 
of Tennessee, University of Rhode Island, each concentrating on 
one of the 32 monitoring networks set up in the National Park 
System.
    Title III codifies a system for adding new National Park 
System areas. The 106th Congress authorized a total of 23 
studies. These studies consider potential heritage areas and 
broad themes and sites, in addition to looking at new units of 
the National Park System.
    In fiscal year 2001, the appropriation for studies was $1.3 
million. We have funding available to begin all of the 
authorized studies to date. These studies are proceeding, 
applying the criteria that have been in place and clearly 
identified in the omnibus bill. Currently, Mr. Chairman, we 
have 41 studies ongoing. 33 of those ask us to consider 
potential national park units. The historical experience is 
about one-quarter of those will become national park units. I 
know in passing this bill that one of the reasons for 
encapsulating this in law was so that the Congress would have 
better control over what is studied. I believe that the 2-year 
experience has been that that has indeed been the case.
    Title V of the bill authorizes transportation fees to be 
charged and transportation solutions that will preserve 
resources in our care, while providing a high quality 
experience for all of our visitors. Four parks have established 
transportation fees under this authority: Bryce Canyon, Zion, 
Lyndon B. Johnson National Historical Park, and Rocky Mountain 
National Park. Each of these do this in a slightly different 
way, but it is seamless to the visitor.
    Transportation fee proceeds are retained by the parks and 
expended for costs associated with providing transportation 
services. In fiscal year 2001, these proceeds are estimated to 
be $3.2 million.
    We have found that fees alone cannot fully underwrite and 
sustain transportation systems. However, the fees that visitors 
pay for these systems do go a considerable way towards 
offsetting operating costs associated with these systems.
    The second part of this title asked us to complete an 
agreement to apportion the revenue generated by the vendor 
sales of Golden Eagle Passports. We have not completed that 
agreement. Generally the reason we have not is that the Park 
Pass has considerably deflated the number of Golden Eagle 
Passports that we sell. The sales of Golden Eagle Passports in 
national park units have dropped from about $9.9 million to $3 
million, and our estimate is that this year the revenue will 
drop to $1.5 million. In the next title, I will talk about the 
National Park Passport program.
    But one of the things we are doing, Mr. Chairman, with the 
cooperation of the Foundation is engaging a private 
organization to study the entire fee structure as it has been 
implemented under the fee demonstration program and under the 
provisions of this act. We hope to get recommendations out of 
that that will make the fee program more consistent, more 
seamless to the public, and still generate the same amount of 
revenues that the very successful fee program and title VI of 
this bill have encouraged.
    Title VI of the bill authorized the National Park Pass. It 
went on sale for the first time on April 18, 2000 at more than 
224 National Park System areas, 164 sites of 29 cooperating 
associations, on-line, on an 800 number, and with seven on-line 
retail partners, including the American Automobile Association, 
L.L. Bean, REI, Kampgrounds of America, and Rand McNally. Eight 
additional on-line partners have joined these original 
retailers. As of January 31, about a 9-month period, 245,000 
passes have been sold, generating more than $12 million in 
revenue.
    I know, Mr. Chairman, you have one of these of your own, 
but this is the Park Pass package. It includes a map of the 
National Park System and it does incorporate the art, in this 
instance photography, required in the bill.
    The introduction of the pass began with Today Show coverage 
on April 18. Other major media outlets have contributed 
advertising for the pass. We are working with the National Park 
Foundation to expand the media attention for the National Park 
Pass.
    The new pass, the 2001 pass, was unveiled in December. It 
features Acadia National Park. The first National Parks Pass 
``Experience Your America'' photo contest, sponsored by the 
Park Service, the National Park Foundation, and Kodak, was 
announced in December. This initial contest, which ended March 
15, generated more than 4,500 entries. The winning image will 
be on the 2002 passport. That was also encouraged by the 
Omnibus Act.
    This year, we will increase the retail sales offerings of 
the pass. Many of these retail outlets, because of the April 
introduction, did not have time to put the pass into their 
holiday catalogs. This year they will be able to put it into 
their holiday catalogs. Most of these catalog sales companies 
generate 75 percent of their sales through that catalog and in 
the last quarter of the year. So, we anticipate increasing 
sales. We are pretty close to the business plan done by a 
private organization with the Foundation on the sales of the 
National Park Pass.
    I will not testify on title VII. Mr. Vestal will testify 
with respect to the follow-up by the National Park Foundation. 
I will simply say that our relationship with the Foundation 
continues to expand. Revenues from donations to the Foundation 
continue to grow. Many of the projects and initiatives that we 
implement, including some in this act, would not be possible 
without them.
    Finally, title VIII is a series of miscellaneous 
provisions, Mr. Chairman. The first one, to evaluate National 
Park Service law enforcement programs; the second, to establish 
leases for use of buildings and associated property that are 
part of the park system; and the third gives us authority to 
establish agreements for cooperative management of the National 
Park System.
    Section 801 directed the Secretary to conduct a study of 
National Park Service law enforcement programs. A study team of 
national park rangers and U.S. Park Police officers was 
assembled in February 1999. A draft report was submitted to the 
Secretary's office in October 1999. The final report was 
transmitted to the committees on March 8, 2000. This is the 
Park Police portion of the report. A separate report was done 
for the park rangers.
    U.S. Park Police have jurisdiction in three urban centers 
of the National Park System: Washington, D.C., San Francisco, 
and several areas in New York City. Park rangers are 
responsible for performing law enforcement and other services 
in all other areas of the National Park System. A ranger force 
of approximately 1,600 and a Park Police force of 650 manage 
the law enforcement, resource protection, and emergency needs 
of both people and parks.
    Since submission of the study, the U.S. Park Police have 
made some progress in a number of areas. Pay schedule 
simplification, external administrative pension costs, and 
funding for a study of a comprehensive radio system for the 
National Capitol Region have been accomplished.
    As directed in the fiscal year 2001 appropriations act, the 
Park Police are preparing a comprehensive financial plan. The 
National Academy of Public Administration is currently 
reviewing the mission, staffing, and spending patterns of the 
U.S. Park Police. Its report will be completed by July 2001.
    Section 802 of the act authorizes the Park Service to grant 
leases for the use of buildings and associated properties. In 
effect, this expanded the lease authority of the National Park 
Service from simply historic structures to other types of non-
historic property. This new authority makes all qualified NPS 
buildings and associated property subject to lease under 
certain conditions. We have received an estimated $1 million in 
lease receipts in 2001, and we estimate that that amount will 
increase in future years.
    The proposed regulations for our leasing were published on 
December 12, 2000. The public comment period closed on February 
12 of this year. All comments received were supportive of the 
proposed regulations. Revised regulations are being processed 
by the NPS for submission to the Office of Management and 
Budget for final review.
    Finally, the miscellaneous provisions section authorizes 
cooperative management. This is an area that began at Redwoods 
National Park and adjacent State parks in California. Under the 
new authority, the Intermountain Region and the Texas State 
parks have signed a cooperative management agreement that 
serves as an umbrella and guide for local agreements between 
National Park Service units in Texas and Texas State Parks.
    Specific agreements are in draft for Amistad National 
Recreation Area and Seminole Canyon State Park. The agreement 
focuses on seeking ways for both areas to work together to 
protect and manage cultural and natural resources.
    Another local agreement is expected to be completed between 
Lyndon Johnson National Historical Park and Lyndon Johnson 
State Historical Park. An example of the fruits of that 
cooperation include a joint publication of the LBJ Newsletter, 
collection and allocation of fees from bus tours, and a 
revision to the folder produced by Harpers Ferry Center to 
reflect the history, activities, and opportunities for both 
State and national park areas.
    This authority can also be used in natural resource 
management activities, Mr. Chairman. The South Florida Exotic 
Plant Management Team already exists as a partnership with the 
State of Florida. The Lake Mead National Recreation Area exotic 
plant management program includes a partnership with Clark 
County, Nevada.
    We believe the efforts outlined here today are a 
significant start in implementing the provisions of the Omnibus 
Act of 1998, Public Law 105-391. As I said in my opening 
statement, we believe this is a significant addition to the 
landmark legislation of the National Park System and materially 
improves our ability to manage the system in a logical and 
thoughtful manner.
    That concludes my statement, Mr. Chairman. I will be happy 
to answer any questions.
    [The prepared statement of Mr. Galvin follows:]

 PREPARED STATEMENT OF DENIS P. GALVIN, ACTING DIRECTOR, NATIONAL PARK 
                  SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Chairman, thank you for the opportunity to update you on the 
National Park Service's accomplishments relating to P.L. 105-391, the 
National Parks Omnibus Act of 1998. Last week we testified before this 
subcommittee on our implementation of management policies and 
procedures to comply with the provisions of Title IV of the Act, 
National Park Service Concessions Management. At this hearing we will 
update you on the remaining seven titles of the Act.
    The National Park Service (NPS) is working to make progress in each 
of the areas outlined in the Act. In the little more than two years 
since enactment we have initiated programs and studies called for in 
some titles and undertaken actions to address many of the other 
provisions. Let me briefly summarize the progress we have made in 
implementing each title of the Act.

   TITLE I: NATIONAL PARK SERVICE CAREER DEVELOPMENT, TRAINING, AND 
                               MANAGEMENT

    The NPS has an active training and development program. Each of our 
training facilities focuses on developing specific skills, such as 
maintenance skills for preserving historic buildings and law 
enforcement skills. Training opportunities are available to all NPS 
employees in all career fields throughout the organization. The 
training we provide our employees is based on the professional and 
technical competencies required for given career fields.
    We are expanding our employee development efforts by reworking our 
training and development organization into a more flexible unit 
responsive to NPS leadership and mission goals. We will be developing a 
measurement system to monitor the effectiveness of our training 
efforts. We will also focus on using more interdisciplinary teams that 
are capable of responding to the changing needs of the NPS.
    We have also been working to revise and update our supervisory 
training courses with curriculum focusing on the skills and knowledge 
needed to be an effective NPS manager. The courses offered in 
supervision, management, and leadership are developed to provide 
enhancement in competencies (basic skills and abilities) that the 
Office of Personnel Management has identified for employees government-
wide. Some of these courses are NPS specific in order to enhance 
managerial skills in the context of our resource management 
responsibilities. Other courses focus on general management and 
supervision principles and are open to applicants from other federal 
agencies as they seek to improve their fundamental supervisory, 
management, and leadership skills.
    We have begun efforts to expand our management base by advertising 
key vacancies, including superintendent positions, in multiple job 
series, including the general management series. This allows more 
candidates to compete and qualify for available positions and 
emphasizes the management skills necessary to perform the job duties. 
We are coupling that effort with expanded supervisory training. New 
supervisors are required to attend 80 hours of supervisory training 
during their first year. All other supervisors and managers are 
required to attend 40 hours of supervisory training per year. We have 
supplied all supervisors and managers with a desk reference on the 
aspects of supervisor responsibilities. In Spring 2001, we are 
launching our mid-level management development program, designed to 
prepare a cadre of employees ready to assume management 
responsibilities throughout the NPS. We also are beginning a best 
practices program to identify ideas and actions in other organizations, 
inside and outside government, that could be transferable to the NPS.
    Each park is required to develop a five-year strategic plan and 
annual performance plans consistent with the servicewide strategic 
plan. We also require parks to report annual performance based on those 
plans and to track performance information during the year. All of the 
parks developed strategic plans in FY 2001, submitted results showing 
FY 2000 actual performance and are updating FY 2002 annual performance 
plans. The performance information provided by the parks is 
incorporated into the NPS strategic plan, annual performance plans and 
annual performance reports.

    TITLE II: NATIONAL PARK SYSTEM RESOURCE INVENTORY AND MANAGEMENT

    This title greatly benefits the NPS by clarifying and emphasizing 
that it is important to encourage science in parks and that effective 
resource stewardship requires sound, high-quality science. NPS has 
developed the Natural Resource Challenge, a comprehensive strategy that 
actively implements the purposes and vision of Title II through a wide 
range of activities designed to increase the emphasis on science in the 
use, management, and protection of parks. Funding for the third year of 
the Natural Resource Challenge is included in the President's FY 2002 
budget.
    Other activities that have been undertaken include development and 
application of a benefits-sharing policy with respect to research in 
parks that may lead to commercial applications and development of a 
strategy to protect sensitive park resource information in compliance 
with Section 207 of the Act.
    To expand on the Natural Resource Challenge components designed to 
implement this title, we are significantly accelerating the acquisition 
of inventories servicewide and initiating monitoring in the first five 
of 32 monitoring networks encompassing 270 park units. Together, these 
will provide a large piece of the information needed for science-based 
decision-making. Two other key tenets of Title II are also reflected in 
the challenge--the need to reach out to partners and the need to ensure 
that science is welcomed in parks. Learning Centers, Cooperative 
Ecosystem Studies Units (CESUs), the Sabbatical in the Parks Program, 
and the Research Permit and Reporting System together respond to these 
tenets.
    The Learning Centers focus on providing a place for researchers and 
students from academia, government, and other science groups to gather, 
exchange ideas, and advance the frontiers of their scientific 
knowledge. Providing temporary dormitory and office space also makes 
use of parks by outside scientists more practical and encouraging.
    The CESUs provide a key means by which parks actively reach into 
the academic and governmental research communities to obtain scientific 
information and to encourage the use of parks as places in which to 
conduct research--research that is often funded by many organizations 
other than the NPS. The interagency nature of the CESUs also 
facilitates more cooperative approaches to shared research needs.
    The Sabbatical in the Parks Program reaches out to university 
scientists through the Internet, encouraging them to consider using 
parks as research and learning places during their university 
sabbaticals and providing parks with technical assistance during their 
stays.
    The Research Permit and Reporting System now provides an easily 
accessed, Internet-based place for research scientists, resource 
management scientists, interpreters, and others to obtain information 
about park research needs and to learn about past results and current 
research activities being conducted in parks. This system informs 
research scientists about conditions associated with conducting 
research in parks and provides these researchers a paperless 
opportunity to both apply for specific park research and collecting 
permits and also submit their required annual research progress 
reports.

 TITLE III: STUDY REGARDING ADDITION OF NEW NATIONAL PARK SYSTEM AREAS

    The 106th Congress authorized a total of 23 special resource 
studies. Several of these studies consider potential heritage areas or 
broad themes and sites that involve potential national historic 
landmark designations rather than new units of the National Park 
System.
    In FY 1999, the appropriation for Special Studies was $825,000. In 
FY 2000, this amount was increased by $500,000, but this increase was 
identified for a study of the Vicksburg Campaign Trail that was not 
authorized until November 2000. In FY 2001, the appropriation for 
studies was $1,325,000 but committee reports specifically directed that 
certain projects be included within the available funds, and earmarked 
$300,000 to one specific study.
    We have funding available to begin all of the authorized studies to 
date. These studies are proceeding, applying the criteria that have 
been in place for many years and are now clearly identified in P.L. 
105-391. We also will be examining the full life cycle operation and 
maintenance costs that would result from a newly created or expanded 
park unit or an additional NPS funding responsibility. We have not yet 
had adequate experience with the process of identifying candidates for 
study in advance to evaluate what impact it is having on decisions 
about what action to take on the completed studies and future 
directions for the National Park System.

             TITLE V: FEES FOR USE OF NATIONAL PARK SYSTEM

    The NPS continues to find better transportation solutions that will 
preserve the resources in our care while providing a high quality 
experience for all our visitors. We currently have four parks that have 
established transportation fees under the new transportation fee 
authority: Bryce Canyon National Park, Zion National Park, Lyndon B. 
Johnson National Historical Park and Rocky Mountain National Park. 
Three parks are collecting transportation fees with their entrance 
fees. Lyndon B. Johnson National Historical Park is collecting a 
separate transportation fee. Transportation fee proceeds are retained 
by the parks and expended for costs associated with providing 
transportation services. In FY 2001 these proceeds are estimated to be 
$3,200,000. We have discovered that transportation systems are costly 
to operate and maintain. We do believe that the expense is worthwhile 
but have found that user fees alone cannot fully underwrite and sustain 
transportation systems. In many parks, in order to adequately operate 
and maintain transportation systems and shuttles, we must rely on 
multiple funding sources.
    At this time we have not completed an agreement to apportion the 
revenue generated by vendor sales of Golden Eagle Passports. 
Historically, most Golden Eagle Passport sales have occurred in 
National Parks (FY 1999 NPS Golden Eagle Sales: $9,954,794; USFS Golden 
Eagle Sales $603,900). The new National Parks Pass addresses this need 
and for many of our visitors has served as a replacement for the Golden 
Eagle Passport. As part of our efforts to plan and implement the 
National Parks Pass we developed a business plan and determined that it 
would not be prudent or post effective to promote vendor sales of two 
similar, competing passes. It was also anticipated, and sales data has 
since confirmed, that availability of the National Parks Pass would 
lead to a large decrease in sales of Golden Eagle Passports. We will 
continue to determine the roles each of the passes play in our overall 
fee program. Also, we will work with the other land management agencies 
to market the passes in ways that will avoid confusion as much as 
possible, provide the maximum flexibility to visitors, and result in 
the highest level of benefits to the agencies.

                TITLE VI: NATIONAL PARK PASSPORT PROGRAM

    The inaugural National Parks Pass, featuring Yellowstone National 
Park, went on sale on April 18, 2000, at more than 224 National Park 
System gates, at 164 sites of 29 cooperating associations, on-line at 
www.nationalparks.org, through 1-888-GOPARKS, and through seven online 
retail partners including AAA, L L Bean, REI, KOA, and Rand McNally. 
Since the initial release, eight additional online partners have joined 
these original retailers. As of January 31, 2001, 245,000 passes have 
been sold, generating more than $12 million in revenue.
    The design of the pass, particularly the map communicating the 
depth and breadth of our National Park System, immediately garnered 
visitor and employee praise. The introduction of the pass began with 
Today Show coverage on April 18. USA Weekend, Time Magazine, The New 
York Times, and other media partners have contributed advertising for 
the pass. Many National Parks generated stories within their local 
media markets with activities introducing the pass to their communities 
and region.
    Travel and family interest stories about the pass continued 
throughout the year. In the autumn and early winter, these efforts 
focused on promoting the pass as a holiday gift, and resulted in more 
than 100 stories.
    In December, the NPS unveiled the 2001 pass, featuring Acadia 
National Park. As directed by P.L. 105-391, the first National Parks 
Pass ``Experience Your America'' Photo Contest, sponsored by the NPS, 
National Park Foundation, and Kodak, was announced in December. This 
initial contest, which ended March 15, generated more than 4,500 
entries. The winning image for the 2002 pass will be announced in May, 
and the 2003 Photo Contest will be launched at the end of May.
    This year, we will increase the retail sales offerings of the pass. 
Our retail partners' holiday catalogues were set prior to the April 
2000 kick-off of the pass but we look forward to having the pass 
featured this year. The NPS Reservation Service offered the pass for 
sale beginning in March. In May we are planning the coordination of 
pass renewals online, by mail, or by phone. We are examining expanding 
retail and consignment sales for the pass. In order for such sales of 
the pass to the public to be successful we must resolve issues 
concerning validation, inventory, expiration, and personalization of 
the pass. We have begun to investigate these issues.
    In addition, our partner in managing the pass program, the National 
Park Foundation, has secured commitments from its top corporate donors 
to develop an array of advertising and promotional support for the 
National Parks Pass, beginning this spring and continuing for the next 
three years. Through these promotional efforts we will reach a 
significantly larger number of American families this year than last.

              TITLE VII: NATIONAL PARK FOUNDATION SUPPORT

    We defer to the National Park Foundation regarding this title but 
we continue to recognize and deeply appreciate the support that we have 
received from the Foundation in the past and look forward to continued 
support in the future. Many of the projects and initiatives that we 
implement, including some in this act, would not be possible without 
them.

                  TITLE VIII: MISCELLANEOUS PROVISIONS

    This title includes three parts, a requirement to evaluate NPS law 
enforcement programs, to establish leases for use of buildings and 
associated property administered as part of the National Park System, 
and to establish agreements for cooperative management of National Park 
System units that are adjacent to State or local park areas.
    Section 801 directs the Secretary, utilizing a multidisciplinary 
analysis, to conduct a study to fully evaluate the needs, shortfalls, 
and requirements of NPS law enforcement programs. A study team of 
national park rangers and U.S. Park Police officers was assembled in 
February 1999, and a draft report was submitted to the Secretary's 
Office in October 1999. The final report was transmitted to the 
committees specified in the act on March 8, 2000. Included in the study 
are suggestions to address shortfalls; justifications for all 
suggestions, and a statement of adverse impacts should identified needs 
remain unmet.
    The National Park Service Law Enforcement Programs Study was 
presented to Congress in two volumes: one addressing the U.S. Park 
Police program and the other addressing the field protection rangers. 
The U.S. Park Police have jurisdiction in three urban centers of the 
National Park System: Washington, D.C., Golden Gate National Recreation 
Area in San Francisco, and Gateway National Recreation Area in New 
York. Park rangers are responsible for performing law enforcement, 
along with fire fighting, search and rescue, emergency medical care, 
resource management, and other services in all other areas of the 
National Park System. A ranger force of approximately 1,600 and Park 
Police force of 650 manage the law enforcement, resource protection and 
emergency needs of both people and parks.
    Since submission of the study, the U.S. Park Police have made 
progress in a number of areas: pay schedule simplification, external 
administrative pension costs, and funding for a study for a 
comprehensive radio system for the National Capitol Region. As directed 
in the FY 2001 Appropriations Act, the U.S. Park Police are preparing a 
comprehensive financial plan. The National Academy of Public 
Administration is currently reviewing the mission, staffing 
requirements, and spending patterns of the U.S. Park Police. Its report 
will be completed by July 2001.
    Over the last few years, land management agencies have 
institutionalized firefighter and public safety as the paramount 
concern in every fire situation. We now plan to establish the same 
priorities for our law enforcement workforce and the visiting public. 
We will continue to update Congress on actions taken to address these 
issues and progress made towards reaching the goals outlined in the 
reports.
    Section 802 of the act authorizes the NPS to grant leases for the 
use of buildings and associated property located within areas of the 
National Park System and retain the receipts without further 
appropriation for infrastructure needs in park units. This new 
authority supplements prior NPS authority that permitted the leasing of 
only historic property and limited types of non-historic property. The 
new authority makes all qualified NPS buildings and associated property 
subject to lease under certain conditions. We estimate receiving about 
$1,000,000 in lease receipts in 2001 with that amount increasing in 
future years as the leasing program is further implemented. NPS leasing 
activities will be handled by a new Associate Director for Partnerships 
and Business Practices, a position that will be established once the 
new NPS Director is in place.
    On December 12, 2000, the NPS published for public comment proposed 
regulations that would implement the new leasing authority. The public 
comment period closed on February 12, 2001. All comments received were 
supportive of the proposed regulations, A number of technical 
improvements were suggested.
    On March 14, 2001, the NPS Task Force that drafted the proposed 
regulations met to review the public comments and recommend final 
regulations. Revised regulations are presently being processed by NPS 
for submission to the Office of Management and Budget for final review. 
We believe that the new regulations will provide the means for NPS to 
expand its leasing activities and take greater economic advantage of 
extraneous park buildings without impairing park resources.
    The NPS has successfully implemented the cooperative management 
authority under Section 802 in a limited number of park areas. In 
December 2000, the Intermountain Region and the Texas State Parks 
signed a cooperative management agreement that serves as an umbrella 
and guide for local agreements between NPS units in Texas and Texas 
State Parks (TPW). The agreement calls on NPS and TPW staff to work 
together to develop agreements regarding collaborative opportunities 
for cooperative management, training, visitor protection and public 
safety, public information, resource management, and other areas. NPS 
and TPW will cooperate in the operation of sites when feasible by 
sharing resources, including but not limited to, vehicles, equipment 
and staff.
    At this time a draft agreement has been prepared between Amistad 
National Recreation Area and Seminole Canyon State Park. The agreement 
focuses on seeking ways for both areas to work together to protect and 
manage cultural and natural resources. Panther Cave is a well-known and 
valuable cultural resource that includes hundreds of petroglyphs but 
can be accessed by the lake, and has been subject to periodic 
vandalism. Working together, the two areas hope to use remote sensing 
to enhance protection and provide for better law enforcement response 
time in an effort to reduce and ultimately eliminate vandalism, 
especially when accessed by boaters.
    Another local agreement is expected to be completed in April 
between Lyndon Johnson National Historical Park and Lyndon Johnson 
State Historical Park that will ensure the continuation of the spirit 
in which both parks were established, and further the wishes and 
expectations of President Johnson and his family. Areas of cooperation 
will include, but not be limited to, joint publication of the LBJ 
newsletter, collection and allocation of fees from bus tours, and a 
revision to the minifolder produced by Harpers Ferry Center to reflect 
the history, activities and opportunities for both the state and 
national park areas.
    Another place where NPS has used cooperative management authority 
is Redwoods National Park. Redwoods National Park is contiguous to 
three California state parks, Del Norte State Park, Jedediah Smith 
Redwoods State Park, and Prairie Creek Redwoods State Park. Because 
both managing entities work so closely together, there is often a need 
to share resources. Critical services, such as trash pick up and road 
paving, are shared between the state of California and the NPS in a 
manner that is both cost-effective and protective of park resources.
    In natural resource management activities, NPS is engaged in 
several cooperative activities that can utilize this authority. The 
South Florida Exotic Plant Management Team already exists as a 
partnership with the State of Florida, currently focused on NPS lands. 
Over time this partnership could expand to include state and local 
parklands in ways that will benefit all parks. The Lake Mead National 
Recreation Area exotic plant management program includes a partnership 
with Clark County, Nevada. Through this partnership county funds and 
the Lake Mead management team are employed in cooperative eradication 
and restorations activities in a county nature preserve, a county 
wetlands park, a Las Vegas city preserve, and with planning for 
cooperation with a nearby state park.
    Mr. Chairman, we have taken many steps to implement the provisions 
of P.L. 105-391. We are always striving for ways to improve our ability 
to manage the resources entrusted to us. We believe that the efforts we 
have outlined here today will help us improve the overall management of 
the National Park System.
    This completes my statement. I will be pleased to answer any 
questions you or other members of the subcommittee may have.

    Senator Thomas. Thank you very much. Your responsibility is 
more broad than the others, and I appreciate your overview of 
the issues.
    Mr. Ward.

   STATEMENT OF PETER J. WARD, CHAIRMAN, FRATERNAL ORDER OF 
            POLICE, U.S. PARK POLICE LABOR COMMITTEE

    Mr. Ward. Good morning, Mr. Chairman. I am Peter Ward, 
Chairman of the Fraternal Order of Police, U.S. Park Police 
Labor Committee. Our organization represents officers, 
investigators, and detectives of the U.S. Park Police. I have 
been a U.S. Park Police officer for 15 years. Our organization 
is grateful to you for the opportunity to testify today about 
title VIII of the Omnibus Act.
    The leadership provided by you, Mr. Chairman, and the 
members of this committee has laid the foundation upon which a 
more professional law enforcement program can be built. The 
preparation of the report, commonly referred to in the Park 
Service as the Thomas Report, required by the act has forced 
the Park Service to confront some long-ignored problems with 
its law enforcement program. As a result, there is a consensus 
building within the Park Service that the problems with the 
program must be fixed.
    In addition to the Thomas Report, two independent reports 
have been published detailing problems with the law enforcement 
program. One of them is titled ``The National Park Service 
Strategic Counter Terrorism Report,'' prepared by Booz, Allen 
and Hamilton, and ``Policing the National Parks--21st Century 
Requirements'' prepared by the International Association of 
Chiefs of Police.
    Last year our organization and the Fraternal Order of 
Police, U.S. Park Rangers Lodge, issued a joint statement 
regarding the law enforcement program. In this statement, we 
listed the problems and proposed some solutions to the things 
going on in the law enforcement program. We came together 
because we concluded that the problems confronting front-line 
rangers and Park Police officers were virtually identical and 
that something had to be done.
    These reports come from a variety of perspectives, but they 
all in one way or another identify the same problems and 
propose similar remedies. Our organization supports the 
conclusions and recommendations of these reports. I 
respectfully request that our joint statement that the Rangers 
Lodge and the Park Police Labor Committee issued be included in 
the record.
    Senator Thomas. Without objection.
    [The joint statement of the U.S. Park Police Labor 
Committee and the U.S. Park Rangers Lodge follows:]

   PREPARED JOINT STATEMENT OF THE FRATERNAL ORDER OF POLICE (UNITED 
 STATES PARK POLICE LABOR COMMITTEE) AND THE FRATERNAL ORDER OF POLICE 
                   (UNITED STATES PARK RANGERS LODGE)

    On February 5, 2000 the Fraternal Order of Police, United States 
Park Rangers Lodge and the Fraternal Order of Police, United States 
Park Police Labor Committee in the interest of the safety and the 
welfare of our memberships Law Enforcement Rangers and United States 
Park Police Officers of the National Park Service represented by our 
respective organizations, as well as the millions of visitors to our 
National Parks, do hereby make the following joint declarations and 
statements, regarding--``The National Park Service Law Enforcement 
Rangers and the United States Park Police--The Two Components of the 
National Park Service Law Enforcement Program.''

                           EXECUTIVE SUMMARY

    The National Park Service Law Enforcement Program consists of two 
distinct law enforcement resources, which are: (1) The National Park 
Service Law Enforcement Rangers and (2) The United States Park Police. 
The National Park Service benefits from having a law enforcement 
program consisting of two entities whose distinct missions and 
specialties complement each other. The organizational benefit of having 
these two distinct law enforcement resources is the operational 
flexibility to provide law enforcement services in a park system that 
has diverse operational requirements.
    The National Park Service Law Enforcement Program needs to be 
improved in order to provide adequate protection for the 286 million 
yearly visitors, employees and the priceless cultural and natural 
resources under the care of the NPS. Given the low level of operational 
resources available to commissioned law enforcement rangers and United 
States Park Police officers they do an outstanding job. However, the 
lack of law enforcement operational resources is a formidable obstacle 
that prevents frontline officers and rangers from being able to provide 
an adequate level of protection. The National Park Service law 
enforcement program suffers from the following operational resource 
deficiencies:

  <bullet> Staffing shortages
  <bullet> Disjointed command structure
  <bullet> Inadequate communications systems
  <bullet> Inadequate Information Technology
  <bullet> Inadequate security and surveillance systems
  <bullet> Inadequate training
  <bullet> Inadequate rules and regulations
  <bullet> Inadequate facilities
  <bullet> Inadequate vehicles and equipment

    Generally to address these operational resource deficiencies it 
will be necessary to:

  <bullet> Provide the resources required to correct operational 
        resource deficiencies
  <bullet> Modify the command structure of the National Park Service 
        Law Enforcement Program
  <bullet> Require that the two components of National Park Service law 
        enforcement attain and maintain accreditation from the 
        Commission on Accreditation for Law Enforcement Agencies, Inc, 
        no later than September 30, 2001.
  <bullet> Establish a new office entitled, ``National Park Service Law 
        Enforcement Program Compliance Authority''
  <bullet> Modify the National Park Service budget structure
  <bullet> Increase ability to recruit and retain highly qualified 
        personnel for each law enforcement component

    We hope that you take the time to review our detailed 
recommendations that follow.

                        STATEMENT OF PRINCIPLES

    The mission of the National Park Service is to preserve 
``unimpaired the natural and cultural resources and values of the 
national park system for the enjoyment, education, and inspiration of 
this and future generations. The Park Service cooperates with partners 
to extend the benefits of natural and cultural resource conservation 
and outdoor recreation throughout this country and the world.'' 
(Source: IFY 2000, National Park Service, Strategic Plan) To accomplish 
this mission, since its establishment in 1916, the National Park 
Service has employed two distinct law enforcement resources, which are:
    1. The National Park Service Law Enforcement Rangers.
    2. The United States Park Police.
    Although each of these law enforcement entities within the National 
Park Service functions independently, with distinct missions, they have 
similar goals and objectives.
    The law enforcement program of the National Park Service should be 
guided by the following three principles:
    Principle #1: The National Park Service should maintain an 
effective and efficient professional law enforcement program with a 
primary responsibility to protect the visitors to, and resources of, 
the National Park system.
    To achieve this principle the Service should employ only highly 
trained and professional law enforcement officers. These officers 
should have (a) the mission of preventing, investigating, and detecting 
criminal activity; (b) the responsibility, when appropriate, to 
apprehend violators of rules, regulations and laws; and (c) the 
obligation to provide assistance of a non-enforcement nature to our 
visitors and employees. All these actions should be undertaken in an 
efficient and professional manner.
    Principle #2: The Service should entrust law enforcement authority 
only to law enforcement professionals possessing appropriate aptitude 
and moral character.
    To achieve this principle the Service should recruit the best 
possible candidates, train these candidates appropriately, and provide 
them with appropriate written guidelines and policy to effectively 
perform their duties.
    Principle #3: The professional law enforcement program of the 
National Park Service should maintain the highest standards of honesty, 
integrity, and conduct.
    To achieve this principle the Service should establish and maintain 
a continuous evaluation process of its law enforcement programs and 
officers.
    The National Park Service benefits from having a law enforcement 
program consisting of two entities whose distinct missions and 
specialties complement each other. The organizational benefit of this 
system gives the National Park Service the operational flexibility to 
provide law enforcement services in a park system that has diverse 
operational requirements--from wilderness areas to urban areas. Having 
two separate and equal components each with distinct specialties and 
missions is the foundation upon which the future success of the 
National Park Service Law Enforcement Program will be built.
    The National Park Service's dual law enforcement component, with 
their distinct missions reflects the organizational structure of state 
and local law enforcement. State and local law enforcement have 
organized themselves in numerous ways to provide professional law 
enforcement services in the wide variety of geographic and demographic 
areas that make up our country (i.e. sheriffs, county police, municipal 
police, town police, city police, state troopers, highway patrols, 
constables, state bureaus of investigation, Texas Rangers, etc.). There 
is no state that has only one law enforcement agency. States have seen 
the benefit of having different types of agencies organize operations 
based on the needs of the communities they serve. Given the diversity 
of the National Parks the mission of the National Park Service and the 
citizens of the United States would not be well served by a one-size 
fits all approach to law enforcement.
    Nothing in this declaration should in any way be construed as 
support for a melding of the two components of National Park Service 
Law Enforcement constituted by the National Park Service Law 
Enforcement Rangers and the United States Park Police. Additionally, 
nothing in this declaration indicates support for the alteration of the 
current geographic areas of responsibility of either of the two 
components of NPS law enforcement. The current geographic areas of 
responsibility of the two components of National Park Service Law 
Enforcement fulfill the needs of the National Park Service, are 
reasonable and should not be altered.
    New park areas should be assigned to the law enforcement component 
whose organizational structure and mission best suits the needs of the 
National Park Service. Any change to the current areas of 
responsibility or any decision regarding new park areas should be based 
upon an evaluation system jointly developed by the National Park 
Service Law Enforcement Rangers and the United States Park Police. This 
evaluation system should be based on the historical missions of the two 
components of National Park Service Law Enforcement, solicitation of 
public comments and consideration of the following factors: acreage, 
location in relationship to other park resources, geography, 
demography, staffing requirements, criminal incident trends, number of 
large national events, number of ``First Amendment'' events, level of 
political and media activity, dignitary security mission requirements, 
crowd control mission requirements, visitation--(numbers & patterns), 
emergency medical/rescue/fire service structure, traffic control 
requirements, terrorist threat levels, resource types and specialized 
unit services required.

                            COMMON PROBLEMS

    The safety of our respective memberships, visitors and some of our 
Nation's most treasured natural and cultural resources are in peril 
because the National Park Service does not administer its law 
enforcement program professionally. The lack of operational resources 
and inadequate administration has degraded the ability of frontline 
National Park Service Law Enforcement Rangers and United States Park 
Police Officers to perform their vital mission. There are critical 
workplace safety issues. The situation requires immediate attention.
    The following operational readiness issues degrade the National 
Park Service Law Enforcement Program:

Staffing (Recruitment and Retention)
    The National Park Service has insufficient personnel to perform its 
law enforcement mission safely. Law enforcement personnel are routinely 
required to operate with fewer personnel than is safe. National Park 
Service law enforcement operations do not have sufficient personnel to:

  <bullet> Provide backup for patrol operations
  <bullet> Safely police large events
  <bullet> Respond effectively to emergencies
  <bullet> Adequately patrol all park areas

    The National Park Service must develop standards for staffing and 
then hire the personnel needed to perform its law enforcement mission 
safely.

Communication Systems
    Many of the communications systems used by National Park Service 
law enforcement personnel are not adequate for law enforcement use and, 
in general, do not meet federally established mandates. Far too many 
communications systems are not reliable enough or designed for law 
enforcement use. Some law enforcement operations are not conducted 
using a central dispatch operation which, is a dangerous practice. The 
National Park Service must correct these problems to provide an 
adequate level of safety for visitors and employees.

Information Technology
    The National Park Service does not have a modern law enforcement 
information technology system necessary to run a professional law 
enforcement program. The first step should be to develop a servicewide 
standardized incident dispatch and reporting system. This system must 
be designed to generate real time statistics (based on a common 
collection method). This type of data is necessary to administer a 
professional law enforcement program. This system should be designed to 
allow seamless reporting of criminal incidents to the United States 
Justice Departments, National Incident Based Reporting System. The 
National Park Service has identified the lack of integrated and 
accessible databases as a general problem in the FY 2000, National Park 
Service, Strategic Plan (Page 42). Integrated accessible law 
enforcement (visitor safety) databases have the potential of saving 
lives and preventing injuries.

Security Systems
    The National Park has numerous cultural resources that are 
potential targets for terrorists and deranged individuals. However, in 
many instances these cultural resources are not protected by modern 
security and surveillance systems that are routinely used by retailers 
to protect far less valuable property. In addition, the National Park 
Service does not make appropriate use of security barrier systems to 
deny vehicular access to cultural facilities. In order to provide a 
safe level of security in modern society the installation and effective 
use of these security systems is a baseline protective measure. The 
National Park Service must correct this problem expeditiously.

Training
    The National Park Service needs to devote more resources to 
training its law enforcement personnel. National Park Service Law 
Enforcement Rangers need a more formal Basic Training Program that 
includes a formal Field Training Program. Both components need 
additional funds to upgrade the yearly training provided to experienced 
law enforcement personnel. During a recent fiscal year, the United 
States Park Police had a training budget of approximately $300.00 per 
officer. Funding training at this low level is a recipe for disaster 
and an increased tort claim budget.

Professional Standards (Rules and Regulations)
    The National Park Service must establish mission specific 
directives for all of its law enforcement operations. They must 
establish consistent policies for complaint processing for law 
enforcement personnel. The two components should have separate 
complaint processing policies and procedures. Currently, complaints 
lodged against National Park Service Law Enforcement Rangers are not 
handled in a consistent manner. Both components of National Park 
Service Law Enforcement should have mission specific policies and 
procedures that cannot be violated by a local decision/directive. 
Currently, there are many instances where generally accepted law 
enforcement policies and procedures are ignored, do not exist or are 
forbidden by local directives/orders.

Facilities
    National Park Service law enforcement personnel frequently do not 
have facilities designed for law enforcement operations. The result is 
that law enforcement personnel do not, in many cases, have a safe and 
healthful workplace.

Vehicles and Equipment
    National Park Service law enforcement personnel should be required 
to wear and have access to required equipment in order to perform their 
law enforcement mission while on-duty. The equipment and vehicles that 
are used should be maintained properly to ensure safety. There are many 
instances where law enforcement officers do not have necessary 
equipment and are compelled to operate vehicles, which require 
replacement or repair. The National Park Service should ensure that 
this problem is addressed.

                               SOLUTIONS

    We hereby declare the following:
    The National Park Service should establish the position and office 
of Chief, National Park Service Law Enforcement Rangers. That the 
National Park Service Law Enforcement Rangers should have a separate 
ranked chain of command for National Park Service Law Enforcement 
Rangers starting at line Rangers and ending with the Chief of National 
Park Service Law Enforcement Rangers. The Chief of the National Park 
Service Law Enforcement Rangers shall be the equal of the Chief of the 
United States Park Police. The Office and Position of Chief of National 
Park Service Law Enforcement Rangers, should come from the ranks of 
commissioned law enforcement rangers and have the authority to enact 
servicewide mandatory standards for Ranger Law Enforcement that reflect 
current ``best practices'' as well as, applicable laws, rules and 
regulations. The Chief of National Park Service Law Enforcement Rangers 
shall have power and authority over the ranger force similar to that 
which the Chief of the United States Park Police enjoys over the United 
States Park Police. The Chief of National Park Service Law Enforcement 
Rangers shall report directly to the Director of the National Park 
Service.
    That the United States Park Police does have and should maintain a 
separate ranked chain of command for the United States Park Police 
starting at line Officers and ending with the Chief of the United 
States Park Police. The Chief of the United States Park Police shall be 
the equal of the Chief of National Park Service Law Enforcement 
Rangers. The Chief of the United States Park Police shall report 
directly to the Director of the National Park Service. The Office of 
the Chief of the United States Park Police should retain the authority 
for maintaining and establishing mandatory standards for the United 
States Park Police that reflect current ``best practices'' as well as 
applicable laws, rules and regulations.
    The Chief of the United States Park Police and the Chief of the 
National Park Service Law Enforcement Rangers should be responsible for 
ensuring that each program attains accreditation from the Commission on 
Accreditation for Law Enforcement Agencies, Inc, no later than 
September 30, 2001. Thereafter, they should be required to maintain 
that accreditation.
    In each National Park Service Region there shall be a Regional 
Chief of National Park Service Law Enforcement Rangers. In each region 
where the United States Park Police conduct law enforcement operations 
the United States Park Police should have a separate and equal 
position. In regions where there are Regional Chiefs for Rangers and 
Regional Chiefs for United States Park Police each shall be responsible 
for their respective areas. These Regional Chiefs of Law Enforcement 
shall report to and be responsive to the Regional Director. However, 
these positions shall be responsible for insuring that the regional law 
enforcement programs are consistent with the mandatory standards 
established by the Chiefs of their respective service.
    Budget authority for the law enforcement programs shall be retained 
at the regional level. However, in order to be authorized to conduct a 
law enforcement program the regions must maintain established National 
Standards. Furthermore, within each region the National Park Service 
shall establish a separate line item budget for law enforcement under 
the control of the Regional Director and the law enforcement chain of 
command. In areas where there are United States Park Police each 
Regional Chief of Law Enforcement shall have separate and equal control 
over the budgets of their respective programs.
    Under the authority of the Director of the National Park Service a 
National Park Service Law Enforcement Program Compliance Authority 
shall be formed and co-chaired by the Chief of National Park Service 
Law Enforcement Rangers and the Chief of the United States Park Police. 
The committee shall have a staff comprised of equal representation from 
the National Park Service Law Enforcement Rangers and the United States 
Park Police (Numbers determined by workload). This entity will be 
responsible for:

  <bullet> Establishing an inspection regimen and to work in 
        conjunction with Regional Law Enforcement Specialists to 
        periodically inspect every National Park Service Law 
        Enforcement Operation in order to ensure compliance with 
        National Standards.
  <bullet> Establishing policies and procedures for joint law 
        enforcement operations.
  <bullet> Establishing one standard for the National Park Service 
        incident dispatch and reporting system.
  <bullet> Establishing budgeting policies and procedures that ensure 
        safe and healthful working conditions for all law enforcement 
        operations.
  <bullet> Coordinating and ensuring the availability, reliability and 
        safety of law enforcement communications systems.
  <bullet> Ensuring that centralized dispatching systems are used in 
        all law enforcement operations.
  <bullet> Ensuring required training is budgeted for and is, in fact, 
        provided.
  <bullet> Ensuring the dual components maintain their separate 
        organizational focuses and specialties that give the National 
        Park Service the flexible law enforcement response mechanisms 
        required to protect a diverse system of parks.
  <bullet> Developing standards for staffing each components operations 
        in a manner that will ensure safe working conditions.
  <bullet> Developing a standardized method to evaluate and recommend 
        which component will be best suited to conduct law enforcement 
        operations in any new park areas.

    Each region shall have two Regional Law Enforcement Specialists, 
including one United States Park Police Officer and one National Park 
Service Law Enforcement Ranger as representatives from the National 
Park Service Law Enforcement Program Compliance Authority and advisors 
to the Regional Director on law enforcement matters.
    That each component of National Park Service Law Enforcement be 
required to:

  <bullet> Have separate and mission-specific basic training for its 
        officers/rangers to include a mandated Field Training Program.
  <bullet> Have separate and mission specific yearly advanced training 
        for its rangers/officers.
  <bullet> That no law enforcement operations are permitted unless 
        there is a central law enforcement-specific dispatch system.
  <bullet> That no law enforcement operations are permitted without 
        staffing levels that will permit safe law enforcement 
        operations.
  <bullet> Permit only full time permanent or subject to furlough 
        agency trained and qualified professional officers/rangers to 
        perform agency law enforcement operations. Seasonal 
        Commissioned Rangers will be hired as full time permanent 
        positions subject to furlough.
  <bullet> Do not assign law enforcement officers to duties which 
        impact law enforcement program effectiveness or workplace 
        safety.
  <bullet> Maintain safe reliable modern encrypted communications 
        systems with radio identifiers and alarms.
  <bullet> Provide all equipment and uniforms necessary to safely 
        conduct law enforcement operations.
  <bullet> Establish separate supervisory and command level training 
        programs.

    That modern Security/Surveillance Systems and Security Barriers be 
installed and maintained to ensure the maximum level of protection for 
all the priceless cultural resources under the control of the National 
Park Service.
    That the National Park Service work to establish and gain the 
authority to administer a pay band for National Park Service Ranger Law 
Enforcement and a pay band for the United States Park Police. These pay 
bands will mandate periodic adjustment of the pay rate to an average of 
the 3-5 largest uniformed police and/or sheriffs departments in each 
geographic area where National Park Service Law Enforcement Rangers or 
United States Park Police Officers work. These pay bands would 
establish a National Base Pay equaling the rate established for 
Washington, DC. This system would ensure the ability to recruit and 
retain high quality individuals over the long term. Furthermore, it 
would facilitate the transferring of personnel for promotion or other 
mission requirements.
    These program changes are not radical. They reflect standards and 
practices well established in state law enforcement programs. Many 
states have law enforcement standards boards that establish minimum 
standards for law enforcement training and operations. Localities in 
these states can organize their law enforcement operations in a variety 
of ways. However, local jurisdictions cannot just give anyone a badge 
and a gun; and allow them to operate as a law enforcement officer. 
Localities can conduct law enforcement operations based on their local 
priorities but they must operate within the boundaries of established 
mandatory law enforcement standards, practices and procedures. States 
have seen the benefits of having restrictions on what local elected or 
appointed officials can do regarding the law enforcement agencies under 
their political control. States that have established this hierarchy 
have found that it ensures the safety, consistency and effectiveness of 
their law enforcement programs.
    The National Park Service Law Enforcement Program would greatly 
benefit from mirroring this hierarchy by enacting the changes outlined 
in this document. Additionally, the National Park Service must realize 
that more funding for law enforcement operations will be needed to 
correct the dangerous operational readiness conditions that currently 
exist and do what is necessary to provide that funding.
    We hereby respectfully request Congress to convene oversight 
hearings for the National Park Service Law Enforcement Program and pass 
legislation that will compel these common sense solutions to the 
problems degrading the National Park Service Law Enforcement Program.

    Mr. Ward. The six problems identified in the internal 
report, the Thomas Report, and these other reports are a severe 
staffing shortage, unsafe communications systems, poor use of 
information technology, inadequate training, inadequate 
equipment, and an inadequate organizational structure. I 
respectfully submit that these problems require immediate 
action because they are endangering the safety of visitors, 
priceless resources, and employees.
    Some examples of the impacts of these problems on U.S. Park 
Police operational readiness are that we are 170 or more 
officers short of the number needed to safely conduct 
operations. This number is established at 806 by the Park 
Police management and by 820 from the Booz, Allen and Hamilton 
consulting group. We currently have 630 officers as of this 
month, and that is 20 less than we had in 1999.
    Our concerns in this area are based on we have 20 less than 
we had in 1999 and we are now hearing rumors that the region 
and the Park Police managers are going to write a reprogramming 
letter to Congress because they do not feel they have enough 
money to make it until the end of the year, which goes back to 
the financial problems that are facing the Park Police and that 
are being studied by the NAPA people.
    We look forward to the report that NAPA will issue for 
years, every time we would go to Park Police management as the 
Labor Committee of the union for Park Police officers, we would 
say we have problems with radio systems, we have unsafe 
vehicles because not enough are bought, we have problems with 
information technology. Their answer was always the Park 
Service does not give us enough money.
    When we would go to the region, to summarize, their 
response was, well, the Park Police do not get enough money, 
but they do not spend it right either.
    Then when we would go up to the Park Service leadership at 
the very top, their general response was the Park Police do not 
spend their money right.
    I submit that it is clear that not all three of those 
things can be true, which is why our Labor Committee advocated 
that some sort of audit of this type be done so that we could 
get to the facts because I think the facts have been somewhat 
clouded, at least to us, over the years.
    Some of the other problems that the Park Police has is that 
we do not make use of information technology. We hand-compile 
statistics. Many officers in the Washington, D.C. area do not 
have e-mail. In this day and age, the backbone of the reporting 
system is still carbon copies that are hand-transmitted from 
stations down to the records section.
    I do not think the Park Police has a uniform method of 
handling reporting or analyzing law enforcement data. We feel 
that this is a significant obstacle to make reasoned decisions 
about law enforcement operations.
    The most important problem I think the Park Service has is 
one of organizational structure. We think we need to have 
strong, experienced leadership at the top of the Park Service 
that has experience in law enforcement. We believe that this 
person should have the authority to start a law enforcement 
board, similar to the law enforcement standards boards started 
in many States, and they should have the ability to administer 
the program in a way similar to the States.
    This concludes my prepared testimony. I thank the committee 
for the generous support you have shown the U.S. Park Police in 
the past and for the opportunity to testify today. I will be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Ward follows:]

   PREPARED STATEMENT OF PETER J. WARD, CHAIRMAN, FRATERNAL ORDER OF 
                POLICE, U.S. PARK POLICE LABOR COMMITTEE

    Good morning, Mr. Chairman and Members of the Committee. I am Peter 
J. Ward, Chairman of the Fraternal Order of Police, United States Park 
Police Labor Committee, representing the officers, investigators, and 
detectives of the United States Park Police. I have been a United 
States Park Police Officer for 15 years. Prior to that, I served for 
four years in the United States Air Force as a security police officer. 
The membership of our organization is grateful for the opportunity to 
testify today regarding Title VIII of the National Parks Omnibus 
Management Act of 1998 and discuss the National Park Service Law 
Enforcement Program.
    The leadership provided by the Chairman and members of this 
Committee has laid the foundation upon which a more professional 
National Park Service Law Enforcement Program can be built. The 
preparation of the report commonly referred to as ``The Thomas 
Report'', that was required by the Omnibus Management Act forced, the 
Park Service to confront some long-ignored problems with its law 
enforcement program.
    As a result, there is a consensus building inside and outside the 
National Park Service that the problems with the Law Enforcement 
Program must be fixed. In addition to ``The Thomas Report'', two 
independent reports have been published detailing the problems with the 
National Park Service Law Enforcement Program. These are the ``National 
Park Service Strategic Counter Terrorism Report'' prepared by Booz, 
Allen and Hamilton in 1999, that studied the United States Park Police; 
and ``Policing the National Parks--21st Century Requirements'' prepared 
by the International Association of Chiefs of Police in October 2000, 
that studied National Park Service Ranger Law Enforcement.
    On February 5, 2000, our organization and the Fraternal Order of 
Police-United States Park Rangers Lodge issued a joint statement 
regarding the National Park Service Law Enforcement Program. In this 
statement, we listed the problems with the Law Enforcement Program and 
proposed solutions. We produced this statement because we concluded 
that the problems confronting frontline rangers and United States Park 
Police officers were virtually identical.
    These reports come from a variety of perspectives but they all, in 
one way or another, identify the same problems and propose similar 
remedies. Our organization supports the conclusions and recommendations 
of these reports. I respectfully request that our joint statement be 
included in the record.
    There are six problem areas that are identified by every one of 
these reports and they are: (1) a severe staffing shortage, (2) unsafe 
communications systems, (3) poor use of information technology, (4) 
inadequate training, (5) inadequate equipment and (6) an inadequate 
organizational structure. I respectfully submit that these problems 
require immediate action because they are endangering the safety of 
visitors, national resources and employees.
    The first problem I will discuss is staffing shortages. The United 
States Park Police has a severe staffing shortage. As of March 20, 
2001, the United States Park Police has 630 serving officers. This 
total is more than 170 officers short of the estimated 806 to 820 
officers that the United States Park Police needs to safely perform its 
mission. The staffing shortage hampers patrol operations, which will 
increase the incidence of crime in our parks. In addition, the staffing 
shortage decreases the security and safety of priceless cultural 
resources such as: Lafayette Park, The Washington Monument, The Lincoln 
Memorial and The Statue of Liberty.
    Independent experts from the firm of Booz, Allen and Hamilton 
concluded in a 1999 report that, ``Though the personnel of the National 
Park Service do a highly professional job of preserving, protecting, 
and maintaining the parks and memorials to the extent of their ability 
and available resources, they do not have sufficient numbers, nor are 
they adequately equipped and trained to prevent a determined terrorist 
attack.'' Booz, Allen and Hamilton went on to say that, ``According to 
the USPP analysis, the current force strength of 650 officers is 150 
officers below the number needed to adequately meet all of their 
requirements. Our analysis indicates that the Force is 170 officers 
below the number needed.'' As previously stated, the current force 
strength is 630 officers. We believe that additional officers are a 
critical need that needs to be addressed to provide an adequate level 
of safety for park visitors and resources.
    The concern among our membership about staffing is increasing 
because there are rumors circulating that the United States Park Police 
may not have the funds needed to hire a second recruit class mandated 
by the this year's appropriations bill. This concern is also driven by 
the expectation that the retirement rate of officers will significantly 
increase after July 2002.
    The shortage of United States Park Police officers is affecting the 
safety of large events on the National Mall. This was made clear during 
last year's Millennium Celebration. This was the first time, in my 
memory, that the operational plan had to be drastically revised to 
maintain public safety because there weren't enough officers. The 
shortage of officers for crowd control operations is particularly 
troubling when you consider the demeanor of recent protests that have 
occurred in Washington, DC concerning the International Monetary Fund 
and the World Bank. On a day with these kind of protests 170 officers 
would make a critical difference. What is particularly troubling is the 
strong probability that protests like this will occur in response to 
unexpected world events. In this type of situation 170 more officers 
will be critical, as we will not have the luxury of time to make 
arrangements for outside assistance.
    I will now address the issue of unsafe communications systems. In 
general, the communications systems used by the United States Park 
Police are antiquated and unreliable. None are encrypted or narrow-
banded. The radio system in Washington, DC was installed in the 1970's 
and some of equipment is solid-state tube technology; which is becoming 
difficult and expensive to maintain. Far too often officers in the 
Washington, DC and San Francisco, CA areas are not able to clearly 
transmit or receive vital information because of the poor quality of 
the systems. Due to their age and design, United States Park Police 
systems frequently do not interoperate with the systems of other law 
enforcement and emergency service agencies. This makes coordinating 
joint responses to critical incidents difficult. There seems to be 
little doubt that the communications systems used by the United States 
Park Police cause serious safety issues. In a 1999 study concerning the 
United States Park Police by Booz, Allen and Hamilton concluded that, 
``A significant deficiency of the National Park Service is inadequate 
communications capability to call for a response if a terrorist attack 
should occur, coordinate management of such an event, and effectively 
integrate with other Law Enforcement Agencies and responders''.
    We now come to the issue of Information Technology. The National 
Park Service does not have a standardized computerized dispatch and 
reporting system. In fact, the United States Park Police still hand 
compiles some statistics to prepare the force's yearly report to the 
Federal Bureau of Investigation. Most officers in the Washington, DC 
area still do not have e-mail access, and the backbone of the United 
States Park Police reporting system remains multiple copy carbon 
pressure forms that are transmitted by hand from stations to the 
records section.
    Law enforcement operations in many parks classify and report 
incidents using different criteria. There is no uniform method of 
handling, reporting or analyzing data. This is significant obstacle for 
anyone responsible for making reasoned decisions regarding law 
enforcement operations, resources and priorities. We respectfully 
submit that the fact that there are no nationally enforced reporting 
standards supports the premise that the management of the National Park 
Service has not paid sufficient attention to its law enforcement 
function.
    The fourth problem is inadequate training. The United States Park 
Police has outstanding entry-level training, but has not provided 
adequate training for senior officers or supervisors. For example, when 
an officer graduates from United States Park Police Basic Training, 
they very rarely, if ever, receive comparable emergency response or 
pursuit driver training. In order to maintain professional standards it 
will be important to provide more resources for training.
    The fifth problem area regards inadequate equipment. The United 
States Park Police frequently has trouble maintaining a safe vehicle 
fleet. In the Washington, DC area, it is not uncommon for police 
cruisers to have mileage in excess of 100,000 miles, far more than the 
standard 65,000-mile mark when they should be replaced. United States 
Park Police management has stated that to maintain a safe fleet they 
need to purchase approximately 50 cruisers each year. In recent years, 
the force has not purchased anywhere near 50 cruisers. It is vital that 
police cruisers be reliable and safe because they are used for 
emergency responses. In addition, the United States Park Police 
frequently has problems procuring other types of equipment such as 
ammunition and equipment for training, computers and chemical and 
biological protective gear.
    The last and perhaps the most important problem facing the United 
States Park Police and the Rangers is the organizational structure of 
the National Park Service. We believe that addressing the problems with 
organizational structure will be the key to solving the other problems 
plaguing the National Park Service Law Enforcement Program.
    The current organizational structure has given rise to an agency 
culture that has ignored the law enforcement program. This situation 
has needlessly placed visitors, priceless resources and employees in 
jeopardy. Currently, there is no position near the top of the command 
structure of the Park Service that is solely dedicated to law 
enforcement. Without strong, experienced law enforcement leadership, 
positioned at the top echelons of the Park Service, the law enforcement 
program will continue to drift without direction.
    We strongly believe a central authority at the top of the National 
Park Service possessing the power to establish and enforce law 
enforcement program standards is a must. The law enforcement portion of 
the Park Service mission is too important to allow it to continue to be 
neglected. We agree with the recommendation of the National Commission 
on the Advancement of Federal Law Enforcement that, ``Annual budgets 
should provide a line item for each law enforcement agency, and the 
President and Congress should ensure that each such agency is led by an 
experienced public manager, preferably with experience in law 
enforcement.''
    We strongly recommend that the National Park Service should create 
a position for law enforcement that reports to the Director of the 
National Park Service. This new position should have the authority to 
create a ``Law Enforcement Program Standards Board'' modeled after 
police standards boards established in many states. This proposed 
structure would correct the current agency culture that has failed to 
address law enforcement problems.
    These standards boards work well for the states. They address the 
problems of professionally administering numerous separate law 
enforcement operations over large areas. This model should enable the 
National Park Service to resolve longstanding problems and insure safe, 
consistent, and effective operations.
    We suggest that the board consist of equal numbers of managers from 
the ranks of Law Enforcement Rangers and the United States Park Police. 
The board should not have direct command or control of daily law 
enforcement operations, but rather, should exist to create a structure 
where park managers retain some authority over law enforcement, but 
would be prevented from running programs that do not meet professional 
standards.
    In accordance with laws, rules and regulations; taking full 
consideration of the differing missions of the United States Park 
Police and Law Enforcement Rangers; and having authority over all 
positions and operations, this board should have the authority to:
     1. Set minimum selection standards
     2. Set minimum training standards
     3. Set minimum staffing levels & safety procedures
     4. Set minimum standards for the security of park resources
     5. Set minimum standards for law enforcement operations
     6. Control certification of law enforcement officers/rangers and 
programs
     7. Conduct research relating to NPS Law Enforcement
     8. Enforce compliance by conducting unannounced yearly inspections 
of NPS law enforcement operations and have the authority to enforce 
corrective action based on those inspections.
     9. Set budgetary standards, policies and procedures for NPS law 
enforcement
    10. Establish a service wide standardized computer based reporting 
system
    11. Establish dispatching and communications systems minimum 
standards
    12. Establish law enforcement program priorities
    13. Establish policies and procedures for ensuring all NPS law 
enforcement programs attain and maintain accreditation by the 
``Commission on Accreditation for Law Enforcement Agencies, Inc.''
    This concludes my prepared testimony. I would like to thank the 
committee for the generous support they have given to the United States 
Park Police, and for the opportunity to testify before you today. I 
will be happy to answer any questions you may have.

    Senator Thomas. Thank you, Mr. Ward.
    Mr. Jackson, Mr. Ward represents the Park Police. You 
represent the rangers that do Park Police functions.
    Mr. Jackson. Yes, Mr. Chairman, that is correct.
    Senator Thomas. Please.

 STATEMENT OF GREG JACKSON, VICE PRESIDENT, FRATERNAL ORDER OF 
                    POLICE, RANGER LODGE #60

    Mr. Jackson. Thank you. Thank you for the opportunity to 
testify in front of you today. I am Greg Jackson, currently a 
District Ranger at Santa Monica Mountains National Recreation 
Area. I am coming today not as a representative of the Park 
Service, but from our lodge, the National Park Rangers Lodge of 
Fraternal Order of Police, to testify today regarding title 
VIII of the National Parks Omnibus Management Act.
    Specifically, I wish to offer the support of our lodge and 
endorse the Park Service's report to you and your committee. 
The document that the Park Service refers to as the Law 
Enforcement Program Study, or as Mr. Ward said, the Thomas 
Report.
    Over 650 National Park Service law enforcement rangers are 
members of our lodge, making us the largest such organization 
in the country. We were founded 13 years ago in Yosemite 
National Park when we rangers were becoming increasingly 
concerned about issues affecting our safety. At that time we 
were concerned because there were only 10 of us working a night 
shift in Yosemite Valley, which was down from 20 several years 
before, down to 12 the year before that. Last night I called to 
check and there was one ranger working the night shift in 
Yosemite Valley.
    The problems regarding staffing are not unique to Yosemite. 
They are all too common in Yosemite National Park. While Park 
Service budgets have increased, the commitment to front-line 
resources and visitor protection has not.
    For the millions of people visiting these parks, National 
Park Service rangers have made them among the safest places in 
the country, but they are not so safe for the rangers. As 
reported in USA Today, National Park Service rangers are more 
likely to be assaulted than any other Federal law enforcement 
officer.
    In the history of the Park Service, park rangers have been 
involved in more than 100 separate incidents involving gunfire 
with suspects. Thirty rangers have died performing law 
enforcement. Seven rangers have been shot and killed. Eight 
other rangers have been shot and survived. The murders of the 
rangers in Hawaii, Florida, and North Carolina in the last 10 
years are tragic symbols of the problems facing law enforcement 
in the National Park Service.
    The cutbacks in the number of rangers also affect our 
ability to do our job the best of protecting park resources. We 
are too often forced to respond to the urgent, while neglecting 
or sacrificing the time-intensive activities of anti-poaching 
patrol, monitoring archaeological sites and preventing 
vandalism, and educating the public that make up our core 
mission of resource protection.
    A recent study by the International Association of Chiefs 
of Police endorsed the Thomas Report staffing recommendations 
as the bare minimum to achieve a safe and effective level of 
staffing in our parks. We agree. The recommendations the Park 
Service has made to you are minimum. While they do not fully 
provide for an effective level for backup to assure the safety 
of the workforce, they are certainly better than what we have 
now.
    Today, over 30 management positions are assigned to 
permanently oversee wildland fire in the Park Service. There 
are only two positions assigned to manage the law enforcement 
program. This is a formula for disaster and for a program out 
of control.
    The IACP report called for the Park Service to hard wire 
law enforcement into its upper management so it is not 
abandoned. Our lodge recommends several ways to do this.
    First, we recommend that the National Park Service law 
enforcement program be accredited through CALEA, the Commission 
on Accreditation for Law Enforcement Agencies.
    Second, we agree with the IACP recommendations for the 
creation of an associate director to oversee law enforcement in 
the NPS. We agree with this approach and with the 
recommendations by our colleagues in the U.S. Park Police to 
create a permanent committee on law enforcement standards to 
assure that the law enforcement function is being performed 
safely and effectively.
    Third, we recommend the creation of an internal affairs 
department within the ranger services to ensure integrity of 
the law enforcement program.
    Fourth, we recommend that this subcommittee oversee 
implementation of the IACP's recommendations to improve the NPS 
law enforcement program. It would be a tragedy if the Park 
Service were given additional personnel and funding which could 
then be wasted by the same poor management practices that the 
IACP identified.
    We urge you to continue to seek the opinions of field 
rangers as the subcommittee moves forward to improve the law 
enforcement program.
    Our lodge has prepared a joint statement with our brethren 
in the U.S. Park Police that offers solutions to many of these 
common problems. I urge the subcommittee to take this statement 
in hand, along with the Thomas Report and the IACP report, as 
you move forward to improving the National Park Service law 
enforcement program.
    I thank you for your time this morning, for having me in 
front of you, and would be happy to answer any questions you 
have.
    [The prepared statement of Mr. Jackson follows:]
Prepared Statement of Greg Jackson, Vice President, Fraternal Order of 
                        Police, Ranger Lodge #60
    Mr. Chairman, members of the subcommittee, I'd like to thank you 
for the opportunity to testify in front of you today. I am Greg 
Jackson, currently a District Ranger at Santa Monica Mountains National 
Recreation Area, with prior service at Lake Mead, Yosemite, Olympic and 
Bryce Canyon National Parks.
    I am coming to you today not as a representative of the National 
Park Service, but as a member of the National Park Rangers Lodge of the 
Fraternal Order of Police, to testify regarding Title VIII of the 
National Parks Omnibus Management Act of 1998.
    Specifically, I wish to offer the support of our Lodge and endorse 
the Park Service's report to Congress in response to this section--a 
document that the Park Service refers to as the Law Enforcement Program 
Study, or the Thomas Report.
    Over 650 National Park Service law enforcement rangers are members 
of our Lodge, making us the largest such organization in the country. 
We were founded 13 years ago in Yosemite National Park, when rangers 
were becoming increasingly concerned about issues affecting their 
safety.
    At that time, eight rangers patrolled Yosemite Valley on a typical 
night shift, and we were concerned that the number had dropped from 
twenty, to twelve, to ten the year before.
    Last night, there was one ranger working in Yosemite Valley. This 
same staffing crisis exists in all too many parks. While Park Service 
budgets have increased, the commitment to frontline visitor and 
resource protection has not.
    Much the same as the Capitol Police are responsible for protecting 
these hallowed halls of Congress, the law enforcement Rangers of the 
National Park Service are responsible for protecting millions of 
visitors from around the world, in nearly 400 parks across our nation. 
For the millions of people visiting these parks, the National Park 
Service Rangers have made them among the safest places in the country.
    But it's not so safe for the rangers.
    As reported in USA Today, National Park Service Rangers are more 
likely to be assaulted than officers of any other federal law 
enforcement agency; often ten times more likely. This includes the DEA, 
ATF, Boarder Patrol, FBI, and the U.S. Marshals Service.
    In the history of the park service, park rangers have been involved 
in more than a hundred separate incidents involving gunfire with 
suspects. Thirty rangers have died performing law enforcement duties. 
In addition to seven rangers who have been shot and killed by suspects, 
at least eight other rangers have been shot and survived.
    The murders of law enforcement rangers in Hawaii, Florida and North 
Carolina in the last 10 years are tragic symbols of the problems facing 
law enforcement in the National Park Service.
    In 1990, when Ranger Robert McGhee was murdered in Florida, he was 
the only ranger on patrol. He had no backup. His body was found by park 
visitors. Every law enforcement agency in the country knows that you 
never send people to work without backup. But there he was.
    Nine years later, staffing levels had been cut even more, when 
Ranger Steve Makuakane-Jarrell contacted a man with a dog off leash who 
would turn out to be his murderer. He too, was the only ranger working. 
No backup, no communications. His body, too, was found hours later by 
park visitors.
    As rangers, we tell park visitors that for safety, its best not to 
hike alone. Yet each summer day, dozens of NPS rangers hike alone, 
patrolling our nation's wilderness in remote areas with inadequate 
communications. The cost? In 1996, Ranger Randy Morgenson, patrolling 
alone in an area of poor radio communications, in a remote and rugged 
area of Kings Canyon National Park disappeared. He is still missing, 
and presumed dead.
    In spite of these deaths, and of everything we know about safety, I 
can tell you that today, tonight, there will be rangers working alone, 
without backup, in our national parks.
    The cutbacks in the number of rangers also affect our ability to do 
our best job of protecting park resources. We are too often forced to 
respond to the urgent--the emergency law enforcement, search and 
rescue, and firefighting needs of the moment as a matter of priority--
while sacrificing the time-intensive activities such as anti-poaching 
patrol, monitoring archaeological sites to prevent vandalism, and 
educating the public, that make up our core mission of resource 
protection.
    For example, from 1991 to 1997 poachers removed over 15,000 
cactuses from federal land including Mojave National Preserve. In the 
same time period, others stole hundreds of sponges from Biscayne 
National park, looted Native American graves in Channel Islands, 
desecrated graves in National Battlefields, and killed hundreds of 
black bear just for their gall bladders in parks across America.
    Staking out and monitoring remote resources take time. And because 
rangers must deal with issues of public safety first, there is often 
little time for stakeouts and surveillance. This has led to a slow but 
steady depredation of our nation's treasures, and a growing number of 
rangers who are paying the ultimate price in the defense of these 
treasures.
    Our Lodge fully endorses the recommendations of the NPS in the 
Thomas Report. We are not the only organization to endorse these 
recommendations.
    A recent study by the International Association of Chiefs of Police 
(IACP) endorsed these recommendations as the bare minimum to achieve a 
safe and effective level of staffing in our parks. We agree. The 
recommendations the park service has made to you are a minimum. They 
don't fully provide for an effective level for backup to assure the 
safety of the workforce, but they are better than what we have now.
    Backup at night often comes in the form of rangers being awakened 
at home to respond to a call. But as the IACP noted, park housing is 
not properly assigned or made available to assure a timely response to 
assure the safety of rangers and the public. More rangers are a start, 
but other changes are needed to achieve the critical goal of safety.
    Our Lodge is also concerned that even if these staffing levels are 
increased, the park service will repeat the costly mistakes of the 
past. If Congress provides for 615 new ranger positions, they should 
also assure that the park service doesn't take 615 other positions out 
of law enforcement through attrition.
    The IACP identified a lack of support for law enforcement within 
the park service in its first report on the agency in 1970. Thirty 
years later, the IACP identified many of the same problems.
    Today, over 30 management positions are assigned to permanently 
oversee wildland fire in the park service. There are only two positions 
in Washington assigned to manage the law enforcement program in parks 
across the country. This is a formula for disaster, and for a program 
out of control.
    The IACP has called on the park service to ``hard wire'' law 
enforcement into its upper management, so it is not abandoned. Our 
Lodge recommends several ways to do this.
    First, we recommend that the National Park Service law enforcement 
program be accredited through CALEA, the Commission on Accreditation 
for Law Enforcement Agencies. They are the national benchmark, which 
law enforcement agencies use to show the public that they meet accepted 
practices in law enforcement. Agencies from the U.S. Marshals Service 
to even the National Institute of Standards and Technology have used 
CALEA as a standard for maintaining a quality law enforcement program. 
We believe that frequent external review is essential to create and 
maintain a quality law enforcement program.
    Second, we agree with the IACP's recommendation for the creation of 
an associate director to oversee law enforcement in the NPS. We agree 
with this approach, or with recommendations by our colleagues in the 
U.S. Park Police to create a permanent committee on law enforcement 
standards to assure that the law enforcement function is being 
performed safely and effectively. The IACP states that decentralization 
has severely damaged the law enforcement function in the park service. 
We agree.
    They further state that, ``NPS law enforcement can justly be 
described as a profusion of conditions and practices in search of a 
system.''
    There needs to be more than two people in Washington managing a law 
enforcement program that reaches across the country. They need to have 
a voice at the very top of the service, to make sure that ranger 
safety, and the safety of the public and of park resources is heard. 
And they need authority to see that their policies are being carried 
out.
    Third, we recommend the creation of an internal affairs department 
within the Ranger services to ensure integrity of the law enforcement 
program, and to prevent situations like that of Ranger Freddie Aledo, 
at San Juan National Historic site. Aledo called for backup while being 
sniped at by a suspect with an AK-47. Aledo's supervisor, and closest 
backup, failed to come to his aid because the supervisor was in a 
meeting. No action was taken against this supervisor. This is 
unacceptable for any agency, and combined with other such incidents, 
demonstrates a clear need for an internal affairs program that reports 
to the Director.
    Fourth, we recommend that this subcommittee oversee implementation 
of the IACP's recommendations to improve the NPS law enforcement 
program. It would be a tragedy if the park service were given 
additional personnel and funding for law enforcement, that would be 
wasted by the same poor management practices that the IACP identified.
    The IACP identifies major discrepancies between the observations of 
NPS management and the observations of field rangers concerning the 
quality of the law enforcement program. On virtually every issue, the 
IACP agrees with field rangers as to how these problems should be 
fixed.
    We urge you to continue to seek the opinions of field rangers as 
the subcommittee moves forward to improve the law enforcement program 
in the National Park Service. Our Lodge has prepared a joint statement 
with our brethren in the U.S. Park Police that offers solutions to many 
of our common problems. I urge the subcommittee to take this statement 
in hand with the IACP report and the Thomas Report as a blueprint for 
improving the National Park Service Law Enforcement Program.
    This concludes my prepared testimony. I would be more than happy to 
answer any questions that you or the members have. I sincerely thank 
you for this opportunity to testify before you.

    Senator Thomas. Thank you very much.
    Mr. McElveen.

STATEMENT OF SCOT McELVEEN, BOARD MEMBER FOR SPECIAL CONCERNS, 
              ASSOCIATION OF NATIONAL PARK RANGERS

    Mr. McElveen. My name is Scot McElveen, and I am here as a 
board member for the Association of National Park Rangers on my 
own time and travel expenses. My testimony here is as an 
association member and not as an employee of the National Park 
Service.
    The Association of National Park Rangers was formed in 1977 
and is a professional, nonprofit organization comprised of 
approximately 1,100 individuals who are entrusted with and 
committed to the care, study, and explanation and/or protection 
of those natural, cultural, and recreational resources included 
in the National Park System, and persons who support these 
efforts. Among our members are NPS rangers and other employees 
from all regions, grade levels, and specialties. ANPR is 
neither a union nor a bargaining unit, but rather is an 
association created to advance the park ranger profession and 
to support and perpetuate the National Park Service and the 
National Park System.
    Thank you for inviting ANPR to share our thoughts with you 
on the National Park Service's implementation of management 
policies and procedures to comply with provisions of title VIII 
of the National Parks Omnibus Management Act of 1998.
    We would also like to thank you, Mr. Chairman, in 
particular, for developing and sponsoring the act itself, and 
in particular for the inventorying, monitoring, and research 
mandate in title II and the law enforcement program study 
requirement in title VIII. These provisions demonstrate the 
committee's care for National Park Service employees and for 
National Park System resources.
    While most of our comments pertain to title VIII, with your 
permission, Mr. Chairman, we would like to just touch on a few 
of the other titles because they tie together so well.
    We believe that for preservation of park resources and park 
values of any type to be successful a triangle of resource 
education functions, resource management functions, and 
resource protection functions must occur. All three of these 
functions must be proportionately represented to adequately 
preserve park resources and values in an unimpaired state for 
the enjoyment of present and future generations, the NPS 
mission. No one function can prevent derogation of park 
resources and values from all the external and internal threats 
they face.
    This triangle must be applied when implementing National 
Park Service career development, training, and management. Some 
training has been developed to implement the act's intent. 
However, many parks cannot afford the associated travel costs 
or allow the operational staff to be away from the park long 
enough to attend the training. And that is a problem.
    Web-based training is one answer, and the Park Service is 
doing some of that. But this training instruction method is not 
adequate for all subjects.
    Missing from the NPS training program is an intake training 
program specifically for the ranger workforce. As the NPS seeks 
to hire a diverse group of the best and brightest rangers in 
the future, a well developed ranger intake training program is 
a must.
    The lack of a field training program is another shortfall 
of the current NPS training system.
    In addition to the Law Enforcement Program Study, written 
pursuant to the Omnibus Act of 1998, the National Park Service 
also commissioned an independent study of the agency's law 
enforcement program by the International Association of Chiefs 
of Police. This study came to the same basic conclusions that 
the Law Enforcement Program Study did, notably that the 
function is understaffed to meet the responsibilities given to 
the NPS by Congress in this area.
    In the 20 years between 1978 and 1998, the National Park 
Service grew by 84 units, 28 percent. It expanded from 31.3 
million acres to 83.4 million acres, an expansion of 166 
percent. They experienced a rise in visitation from 283 million 
visits to 435 million visits, a rise of 53 percent in total 
visitation. During the same period, the number of permanent 
protection rangers increased from 1,168 to 1,483, only a 27 
percent increase.
    This shortfall of commissioned rangers and the associated 
shortfalls of higher quality radio systems and dispatch 
services, adequate training in law enforcement, and resource 
knowledge, adequate quantity and qualities of vehicles, 
vessels, aircraft, computers, surveillance and other specialty 
equipment, reporting systems, law enforcement databases, 
offices and storage areas, fitness facilities and equipment, 
administrative and managerial support, and planned intake and 
field training programs have put park employees, resources, and 
visitors at risk.
    The Law Enforcement Program Study estimates that 
approximately $162 million for a one-time cost and $73 million 
for reoccurring costs would correct these deficiencies. Without 
new appropriations from Congress or congressional direction to 
the National Park Service to redirect portions of current 
appropriations, it is doubtful that these deficiencies will 
receive much attention.
    So, what happens if these shortfalls are not addressed?
    Protection rangers are resource protectors, as well as 
protectors of human life, health, and property. They utilize 
law enforcement, resource education, and other tools to achieve 
resource stewardship and visitor enjoyment outcomes. Without an 
adequate number of protection rangers to prevent resource 
derogation from criminal activity, there may not be enough 
intact resources left in parks to provide enjoyment for 
visitors. Response-based law enforcement will never be adequate 
to preserve resources because resources cannot call for help 
when they are being damaged, disturbed, or removed.
    With inadequate numbers of protection rangers, their core 
responsibility, which is preventative resource protection at 
both highly visited and remote park locations, is continually 
being trumped by response-oriented emergency services and 
people and property related law enforcement. As we previously 
mentioned, the resource stewardship triangle cannot stand 
without all three legs, resource education, resource 
management, and resource protection.
    Law enforcement is not the only duty performed by 
protection rangers. Often there are so many other collateral 
duties heaped on protection rangers that they do not really 
have any discretionary time to perform the preventative 
resource and visitor protection function. NPS managers need to 
value protection rangers' discretionary time and defend it 
zealously. One step in that regard would be to add a strategic 
goal with a measurable outcome to quantify what preventative 
resource protection is worth to the National Park Service.
    One area that the law enforcement study did not cover is 
that of NPS employee housing, especially as it relates to 
protection duties and protection rangers. It is ANPR's opinion 
that a modest amount of quality housing that is affordable to 
rangers at the GS-9 level is an essential requirement of the 
NPS law enforcement program, for the safety of rangers for 
backup, and is a reasonable level of deterrent protection for 
park resources and park visitors.
    The Association of National Park Rangers represents a 
portion of the rank and file, on-the-ground employees of the 
National Park Service, and our perceptions describe conditions 
where the rubber meets the road. Our perceptions are not 
filtered through management or political layers, and we provide 
them in an attempt to help the National Park Service meet its 
obligations to the American people and to Congress.
    Funding for the shortfalls we have described does not 
necessarily have to come from new appropriations. It could be 
from current appropriations redirected, but that would most 
likely mean some other important function of the National Park 
Service would suffer.
    The reality, however, is just as the National Park 
Service's seventh Director George Hartzog described when he 
said, ``Policy without funding is just conversation.'' The same 
can be said for title VIII of the Omnibus Act of 1998. It has 
been nice conversation so far. ANPR is hoping for some action, 
and we pledge to help in any way we can.
    Thank you for the opportunity, Mr. Chairman. That is the 
end of my prepared statement. We would be happy to answer any 
questions you might have.
    [The prepared statement of Mr. McElveen follows:]

PREPARED STATEMENT OF SCOT MCELVEEN, BOARD MEMBER FOR SPECIAL CONCERNS, 
                  ASSOCIATION OF NATIONAL PARK RANGERS

    Mr. Chairman and members of the subcommittee, thank you for 
inviting the Association of National Park Rangers (ANPR) to share our 
thoughts with you on the National Park Service's (NPS) implementation 
of management policies and procedures to comply with the provisions of 
Titles I, II, III, V, VI, VII, and VIII of the National Parks Omnibus 
Management Act of 1998. We would also like to thank you for developing 
and sponsoring the Act itself, and in particular the inventorying, 
monitoring, and research mandate in Title II and the Law Enforcement 
Program Study requirement in Title VIII. These provisions demonstrate 
the Committee's care for NPS employees and National Park System 
resources.
    ANPR, formed in 1977, is a professional, non-profit organization 
comprised of approximately 1,100 individuals who are entrusted with and 
committed to the care, study, explanation, and/or protection of those 
natural, cultural, and recreational resources included in the National 
Park System, and persons who support these efforts. Among our members 
are NPS rangers and other employees from all regions, grade levels, and 
specialties. ANPR is neither a union nor a bargaining unit, but rather 
is an association created to advance the park ranger profession and to 
support and perpetuate the NPS and the National Park System.
    I am here as a Board Member of ANPR on my own time and travel 
expenses, and my testimony here is as an ANPR member and not as an NPS 
employee.
    ANPR provides testimony with regards to the following titles:
Title I--National Park Service Career Development, Training, and 
        Management
Sec. 101  Protection, Interpretation, and Research in the National Park 
System

    We believe that for resource preservation of any type to be 
successful a triangle of resource education functions, resource 
management functions, and resource protection functions must occur. 
Resource education uses interpretive tools to prevent resource 
derogation by working to form a sense of stewardship in park visitors 
and park neighbors. Those that are aware of the threats they themselves 
pose to resources, that value a park's resources, and develop a 
stewardship ethic are less likely to cause harm to resources either 
intentionally or unintentionally. Resource management uses scientific 
methods to prevent resource derogation by researching and monitoring 
all park resources, and in some cases applying corrective techniques to 
resources damaged internally by park users and/or externally by 
societal decisions or environmental factors. We have to know what 
resources we have in parks, what condition those resources are in, and 
for resources showing impairment(s), what the cause(s) of those 
impairment(s) are. Resource protection uses law enforcement tools to 
prevent resource derogation by monitoring resource conditions, then 
focusing field time in locations where resource derogation by park 
users is occurring, and then contacting or apprehending those 
committing illegal acts that cause resource derogation. The goal of 
course is preventative law enforcement, making the contact before the 
resource derogation occurs. However, given the vast acreage of many 
parks, apprehension after the fact is the more likely scenario, 
especially for those that intentionally and knowingly utilize illegal 
activities to remove park resources for profit or personal prestige. 
This threat of apprehension and the possibility of criminal penalties 
deters what would otherwise be wholesale removal and/or damage to park 
resources.
    So, in the vast majority of parks all three of these functions must 
be proportionately represented to adequately preserve parks resources 
in an unimpaired state for the enjoyment of present and future 
generations, the NPS mission. No one function can prevent derogation of 
park resources from all the external and internal threats noted above.
    The ability of the NPS to apply state-of-the-art management, 
protection, interpretation of and research on the resources of the 
National Park System has not kept up with the demands placed upon the 
System. Many parks are barely able to field a daily law enforcement 
presence to ensure the protection of visitors and resources. 
Significant portions of park education and interpretive programs are 
conducted by volunteer and other unpaid staff in the absence of 
adequate permanent and seasonal uniformed personnel. The establishment 
of Cooperative Ecosystem Study Units has enhanced coordination with the 
Biological Resources Division of the U.S. Geological Survey and 
improved opportunities to direct investigations into park natural 
resource issues, however funding to conduct park-based research has 
been slow to materialize.

Sec. 102  National Park Service Employee Training

    The NPS has made progress on developing mission-related web based 
training for entry level employees and those in the early stages of 
their career. There does not seem to be a well developed strategy for 
identifying needs, developing programs and delivering them to employees 
over time. Even where training has been developed, many parks cannot 
afford the associated travel costs or allow operational staff to be 
away from the park.
    Missing from the NPS training program is an intake program 
specifically for the ranger work force. As the NPS seeks to hire a 
diverse group of the best and brightest rangers in the future, a well 
developed intake program is a must.

Sec. 103  Management Development and Training

    The NPS has released its, ``Supervisory Development and Training 
Guideline'', meeting the general direction imparted by the Act. It is 
too early to say with assurance that the issuance of the document will 
have any significant impact on the development and delivery of training 
to prepare employees for future managerial positions, including that of 
Superintendent.

Sec. 104  Park Budgets and Accountability

    A) Strategic plans are prepared in accordance with the Servicewide 
Performance Management system. They are viewed by some managers as a 
paperwork exercise and, in the judgment of many, add little to the 
public's or the bureau's understanding of the unit's annual program. 
One particular problem with the Servicewide goals is that there is no 
goal where protection rangers' work in resource law enforcement is 
measured. The only goal where protection rangers' work is measured is 
in increasing visitor safety by reducing visitor accidents. This is a 
disservice to the occupation. Protection rangers are primarily resource 
protectors, as well as protectors of life, health, and property.
    B) Unit budgets are released to the public through press releases 
as soon as they are made available at the park level. Regrettably, the 
timing of these releases has not met the January 1 requirements of the 
Act due to delays in the approval and allocation process followed by 
the Congress, the Department, and the NPS.
    Funding allocations should also include maintenance, 
interpretation, and law enforcement as part of resource preservation, 
and not just in visitor services. All park employees should spend a 
substantial part of their work time contributing to resource 
preservation, either directly or indirectly. Currently funds retained 
from fees collected cannot be allocated into all the categories listed 
in the Act, especially for personnel in these categories. It would be 
very beneficial to the NPS and the American public if they could.
Title II--National Park System Resource Inventory and Management
    Thank you Senator Thomas for your leadership in pushing the NPS 
towards truly integrating scientific study into park management. The 
NPS is moving in that direction. While there's a still a long way to 
go, the success of the Natural Resource Challenge in its first 2 fiscal 
years can be linked to the passage of the 1998 act. ANPR urges 
continued support for the remaining 3 years of the Natural Resource 
Challenge.

Sec. 202  Research Mandate

    There has been some increased attentiveness to documenting 
management decisions through a complete Administrative Record. The 
acquisition of data, as either basic research or monitoring during and 
after a project, are expenses that have not previously been calculated 
in estimating the true cost of a project or decision. There has not 
been an infusion of funding to adequately ensure that either the 
research needs or monitoring responsibilities are met in all instances.

Sec. 203  Cooperative Agreements

    The NPS is making progress in establishing this network of CESU's, 
although funding to implement it lags. At the field level it is 
difficult to assess the accomplishments of the program at this early 
stage, but managers are generally optimistic.

Sec. 204  Inventory and Monitoring Program

    The I&M program has been a keystone of the Service's Natural 
Resource Challenge initiative and nearly all parks with a natural 
resource base are seeing benefits from the program. This is working 
well in its initial stages and should continue to expand and garner 
important basic information for park planning and decision-making 
purposes.

Sec. 205  Availability for Scientific Study

    The NPS has just implemented new web-based research permit 
procedures which streamline the process and make it much more 
consistent across the NPS and more friendly to the scientific 
community. The scientific community appears to be aware and supportive 
of these efforts. Parks are properly sites for scientific research and 
study.

Sec. 206  Integration of Study Results Into Management Decisions

    This is the weak link. We are not aware of the NPS providing any 
real useful guidance on how to ``assure the full and proper utilization 
of the results of scientific study for park management decisions,'' nor 
how managers are to be held accountable for the trend in resource 
condition, etc. It's being done in places but not because of this law. 
Accountability is lacking because the NPS doesn't know how to do it! 
The NPS may not be assuring that the administrative record is 
reflecting how studies are being used. The law is not the problem, but 
we believe the NPS needs to develop the means to make this work. These 
actions were left to Regional Directors to implement, but we believe 
they need to be tackled at the national level.

Sec. 207  Confidentiality of Information

    This was a wonderful addition to the NPS resource preservation 
tools and it is being utilized in a number of places around the 
National Park System.

Title III--Study Regarding Addition of New National Park System Areas
    ANPR's membership believes there are many fine opportunities for 
high value lands which may include some of the national monuments 
established during the previous Administration and assigned to land 
management agencies other than the NPS, to now be included in a listing 
of future additions to the System. Similarly, as the significance of 
events and people who shape our times become better understood, there 
will certainly be opportunities for the study and addition of cultural 
areas to the System. One such potential study, the Cold War Heritage 
Trail, is but a single example of how our nation's recent past has 
helped define its immediate future.
Title IV--National Park Service Concessions Management
    Even though the Subcommittee held its oversight hearing on Title IV 
previously, ANPR offers these comments. We are pleased to see that 
Congress recognizes and supports the need to provide a range of 
services for the proper use and appreciation of national park units. 
The recently promulgated concession policy and regulations will, of 
necessity, require a period of adjustment. It is critical that park 
managers and collateral duty concession managers be afforded the 
training and knowledge to adequately provide monitoring and oversight 
of this complex and vitally important partnership. The rules have 
changed and the field has not yet acquired the necessary skill to carry 
out the responsibilities inherent in the Act.

Title V--Fees for Use of the National Park System
    ANPR not only encourages the NPS to collect fees for transportation 
systems used in parks, but we also encourage the NPS to expand the use 
of transportation systems to all park units that have identified or 
potential visitor use in excess of carrying capacities. By law in Title 
16 United States Code, the NPS is required to establish carrying 
capacities for all units of the System. We would like to see the NPS 
accomplish this and to use transportation systems where they alleviate 
resource derogation and improve visitors' experiences.
    The collection, retention and distribution of fees collected within 
the System have been used to address significant resource management, 
education and operational needs. ANPR has a great deal of confidence in 
the program and would encourage making the Fee Demonstration Program a 
permanent authority. The public is largely supportive of the program 
when they can see the end result of their fee payments. Parks are 
supportive of the program when they see the direct application of fee 
revenues applied to a backlog of needs that cross all program areas.

Title VI--National Park Passport Program
    It is difficult to gauge the success of the Passport program from 
the field perspective. The public has accepted the Passport, it seems, 
although the relationship of the Passport to the Golden Eagle Pass 
program is not well understood by the public and to a lesser degree, to 
the employees of park units. With the greater emphasis on the Park 
Passport, there is a greater expectation that it would cover all 
expenses within a park. Visitors have recorded numerous complaints 
because, having purchased one in lieu of paying an entrance fee, they 
learn it does not cover fees such as parking or cave tours in another 
park. There is also a concern raised by a few managers that the 
increasing use of the internet to purchase the Passport will reduce the 
amount of revenue accruing to a park that sold a high volume of Golden 
Eagle Passes or more recently, Park Passports.
Title VII--National Park Foundation Support
    ANPR would like to see local fundraising support developed for such 
programs in parks as emergency medical services, search and rescue, and 
structural fire. It is desirable to gain local community involvement in 
parks' operations whenever that is possible. What better way to gain 
local support than to have local involvement in such important 
operations? This involvement will also reflect positively on local 
communities through the visitors' eyes, and a positive image of local 
communities by visitors may translate into improved economies in local 
communities. We can give you some examples of how this might work upon 
request.

Title VIII--Miscellaneous Provisions
    Again, ANPR would like to thank the Subcommittee for its 
requirement for the NPS to form a Task Force and prepare a report on 
the shortfalls, needs, and requirements of the NPS' law enforcement 
program. The Task Force was convened. The Law Enforcement Program Study 
was completed and made available to employees, but the devil is in the 
details, the implementation of the study's recommendations.
    It is difficult for the NPS to come before Congress with its hand 
out for more money when it has generally been the ``favorite child'' in 
the Department of the Interior and received significantly greater 
increases than the other bureaus. However, that seems to be a necessity 
given that the NPS has not been able to prioritize spending in the 
context of its mission. If the NPS puts more of its operational funding 
into one specialty, which other specialty does it cut? If more 
interpretive rangers are needed does the NPS do less maintenance? If 
the NPS needs more protection rangers do they do without resource 
managers? All work specialties add to achieving the NPS mission, 
including protection rangers who perform law enforcement as their 
primary duty.
    In the 20 years between 1978 and 1998, the National Park System:

  <bullet> grew by 84 new units--28% growth.
  <bullet> expanded in acreage from 31.3 million acres to 83.4 million 
        acres--expansion of 166%.
  <bullet> experienced a rise in visitation from 283 million visits to 
        435.6 million visits--a 53% rise in total visitation.

    During the same period the number of permanent protection rangers 
increased from 1,168 to 1,483, only a 27% increase.
    ANPR recommends that the NPS find some way to gain additional 
funding or reprioritize current funding so that it can adequately hire, 
train, and equip the number of protection rangers identified in the Law 
Enforcement Program Study. In discussing the need for additional 
protection rangers, we would like to emphasize:

  <bullet> Protection rangers are resource protectors, as well as 
        protectors of human life, health, and property. They utilize 
        law enforcement, resource education, and other tools to achieve 
        resource stewardship and visitor enjoyment outcomes. Without an 
        adequate number of protection rangers to prevent resource 
        derogation from criminal activity, there may not be enough 
        intact resources left in parks to provide enjoyment for 
        visitors. Response-based law enforcement will never be adequate 
        to preserve resources because resources cannot call for help 
        when they are being damaged, disturbed, or removed.
  <bullet> With inadequate numbers of protection rangers, their core 
        responsibility (preventative resource protection at both highly 
        visited and remote park locations) is continually being trumped 
        by response oriented emergency services and people/property 
        related law enforcement. As we previously mentioned, the 
        resource stewardship triangle cannot stand without all three 
        legs resource education, resource management, and resource 
        protection.
  <bullet> Law enforcement is not the only duty performed by protection 
        rangers. Often so many other collateral duties are heaped on 
        protection rangers that they have no discretionary time to 
        perform preventative resource and visitor protection. NPS 
        managers need to value protection rangers' discretionary time 
        and defend it zealously. One step in that regard would be to 
        add a strategic goal with a measurable outcome to quantify what 
        preventative resource protection is worth to the NPS.
  <bullet> Protection ranger safety is being compromised at current 
        staffing levels. Two ranger homicides in the last three years 
        have emphasized the need for back-up that responds quickly.
  <bullet> Recently the NPS commissioned an independent study of the 
        NPS Law Enforcement Program by the International Association of 
        Chiefs of Police (IACP). This study came to the same basic 
        conclusions that the Law Enforcement Program Study did, notably 
        that the function is understaffed to meet the responsibilities 
        given to the NPS by Congress.

    With any increase in staffing comes increased support needs. If 
more protection rangers can be funded they will need higher quality 
radio systems and dispatch services, adequate training in law 
enforcement and resource knowledge, adequate quality and quantities of 
vehicles, vessels, aircraft, computers, surveillance and other 
specialty equipment, reporting systems, law enforcement databases, 
offices and storage areas, fitness facilities and equipment, 
administrative and managerial support, and planned intake and field 
training programs. All this costs money.
    One area that the Law Enforcement Program Study did not cover is 
that of NPS employee housing, especially as it relates to protection 
duties and protection rangers. It is easy to understand why having 
employees on-site would reduce response time to life/safety 
emergencies. If the NPS could staff parks with personnel to provide 
critical services 24 hours per day, then NPS housing would be 
unnecessary. Because this obviously is not feasible, the only effective 
option is to provide quality, affordable park housing for these 
personnel in appropriate locations that would allow them to effectively 
respond, in a timely manner, to threats against resources and visitors.
    While life/safety emergencies can be accurately quantified in 
parks, resource preservation emergencies are very seldom detected, and 
are therefore hard to quantify. There is not much science applicable to 
support this assertion, and what has been done is isolated to the 
resource preservation emergency of wildlife poaching. One study in 
remote portions of Idaho revealed that for every wildlife poaching case 
investigated, 40 wildlife-poaching cases go undetected. This study also 
found that in only one of every 200 known cases of wildlife poaching is 
enough evidence located to prosecute and convict the violator. Similar 
studies conducted by the California Department of Fish and Game 
revealed that only 2% of all poaching cases were even detected by their 
wardens. One can only imagine how these numbers roll up when 
considering all NPS resource preservation emergencies for plants, 
animals, and minerals, and cultural, archeological, and paleontological 
resources. Our point here is that if resource preservation in 
perpetuity is truly the overarching priority of the NPS, then a 
``reasonable level of deterrent protection'' would logically have to 
translate into support for NPS housing placed in strategic locations 
throughout parks. Consistently defining why protection ranger housing 
is necessary is critical to assuring that the NPS Housing Program is on 
target to achieve our mission, and is logical, trackable, and 
defendable to Congress.
    It is ANPR's opinion that a modest amount of quality housing that 
is affordable to rangers at the GS-9 level is an essential requirement 
of the NPS Law Enforcement Program for safety to rangers (back-up) and 
protection for resources and visitors.
    Since the NPS reorganization in 1994, the national Ranger 
Activities Office (WASO-RAD) has been grossly underfunded and 
understaffed. The result of this has been piecemeal leadership 
resulting in a hodgepodge of approaches at varying NPS units around the 
country. The NPS Law Enforcement Program needs strong leadership at the 
national level to ensure that protection rangers meet legal and policy 
standards. In one glaring example of an adverse impact due to lack of 
funding and/or staffing, competencies for protection rangers have been 
completed in draft but are of little use because we can't find the 
money to field test them and have them validated by the Office of 
Personnel Management. Protection ranger competencies would be a major 
improvement in accountability to ensure that park law enforcement 
programs were meeting the NPS' and individual parks' mission.
In Conclusion
    Since its inception in 1977 ANPR has used the professional 
expertise of its members to formulate positions which support the NPS 
and the National Park System. On occasion Congress has requested that 
ANPR provide them with testimony concerning legislation, especially 
legislation that impacts employees of the NPS and their ability to 
perform as stewards of the resources encompassed within the National 
Park System for the enjoyment of the American people. Our assumption is 
that Congress requests our testimony because we are the rank-and-file, 
on-the-ground employees of the NPS, and our perceptions represent the 
reality of where the rubber meets the road. As a non-partisan, 
professional organization we are free to state our opinion of 
legislation or management actions without political interference or the 
fear of individual career repercussions. We like to think of ourselves 
as a partner and critical friend of the NPS.
    The 4th Director of the NPS, Newton Drury, in the most difficult of 
times surrounding World War II defended non-consumption of NPS 
resources to support the war effort by saying, ``If we are going to 
succeed in preserving the greatness of the national parks, they must be 
held inviolate. They represent the last stand of primitive America. If 
we are going to whittle away at them we should recognize, at the very 
beginning, that all such whittlings are cumulative and that the end 
result will be mediocrity. Greatness will be gone.''
    The National Parks Omnibus Management Act of 1998 and the 
recommendations of the NPS Law Enforcement Program Study are plans that 
can help prevent those daily ``whittlings'' that become cumulative. But 
the plans can only be effective if they are implemented. We offer our 
assistance to fulfill the National Parks Omnibus Management Act of 1998 
and/or the recommendations of the NPS Law Enforcement Program Study.

    Senator Thomas. Thank you very much.
    Mr. Vestal.

 STATEMENT OF JAY VESTAL, VICE-PRESIDENT OF FIELD DEVELOPMENT, 
                    NATIONAL PARK FOUNDATION

    Mr. Vestal. Senator Thomas, thank you for the invitation to 
address the subcommittee today. My name again is Jay Vestal. I 
am the vice-president for field development for the National 
Park Foundation, which is the congressionally chartered 
nonprofit partner of the National Park Service.
    I am pleased to speak with you about the efforts of the 
Foundation to implement the provisions of title VII of the 
National Parks Omnibus Management Act. This language amended 
the National Park Foundation's congressional charter and 
directed the Foundation to develop programs to build 
philanthropic support at the local park level.
    Before talking about our specific efforts, I would like to 
provide a brief overview on the Foundation.
    The National Park Foundation honors, enriches, and expands 
the legacy of private philanthropy that helped to create and 
continues to sustain America's national parks. Last year, NPF 
raised nearly $32 million in contributions to support the 
national parks. Our grants fund outreach, education, visitor 
services, and help enhance the national park experience and 
strengthen the connection between the American public and their 
national parks.
    The Foundation is governed by a board of distinguished 
national civic and business leaders, appointed by the Secretary 
of the Interior. The Secretary of the Interior chairs our 
board, and the Director of the National Park Service also sits 
on that board. David Rockefeller, Jr. currently serves as NPF's 
vice chairman and is the citizen leader of our board. The 
Foundation recently lost one of its most productive board 
members in Don Rumsfeld when he became Secretary of Defense. I 
have included a complete list of our current board with my 
testimony.
    NPF could not have accomplished all that I describe without 
the support and guidance of the National Park Service, which we 
greatly appreciate. We also appreciate the encouragement from 
you, Senator Thomas, and other members of Congress for the work 
that we do.
    The American public loves the national parks and, when 
given the opportunity, has demonstrated a willingness to help. 
It is important to remember, however, that philanthropy for 
national parks should never replace Federal appropriations. 
Philanthropy will never solve the National Park Service's 
backlog of infrastructure and maintenance needs which donors 
see as a responsibility of the Federal Government.
    Philanthropy, however, has always been a part of our 
National Park System. There are a number of successful park-
based nonprofit organizations building on this proud 
philanthropic tradition every day, which I describe in my 
written testimony.
    We have learned a lot from working with local park support 
groups. Although some parks are fortunate to have successful 
fund-raising partners, most parks enter the world of 
philanthropy from scratch. Support for these fledgling 
organizations is a focus of the National Park Foundation.
    In 1998, Congress directed the National Park Foundation to 
design a program to foster fund-raising at the individual 
national park level. NPF has developed several models of park-
specific fund-raising that make the most of local community 
enthusiasm and expertise, as well as NPF's own institutional 
experience.
    At Grand Teton, for example, we helped to launch an 
independent nonprofit, the Grand Teton National Park 
Foundation, who by the way had founding board members that 
included Dick and Lynn Cheney. NPF invested significant staff 
time and financial resources to help get this group started.
    With the Glacier Fund, we took a different tack where the 
volunteer leadership has decided to operate as a committee of 
the National Park Foundation.
    And the new African American Experience Fund started out as 
a program owned and operated by NPF. It focuses on multiple 
parks that are linked thematically and follows an 
organizational structure similar to the Glacier Fund.
    These examples show how NPF is carrying out this new 
congressional mandate in an entrepreneurial, creative way that 
provides solutions which fit the circumstances of each 
particular park. My written testimony describes in greater 
detail these and several other models that we have developed.
    Title VII also establishes minimum requirements for NPF's 
efforts to support philanthropy at the local level. The 
Foundation has developed an organizational design following the 
best practices in the nonprofit community. The core elements 
include: one, recruiting a strong board; two, developing a 
clear mission; three, securing start-up funding to underwrite 
the first year's operations; and four, hiring a professional 
executive director charged with the launch of the fund-raising 
effort.
    NPF has also developed a standard set of bylaws that any 
group can use to become a committee of the National Park 
Foundation. In addition, we have developed investment policies 
and fund accounting procedures to ensure the wise stewardship 
of donations.
    The Foundation has designed a 2-day training curriculum for 
new fund-raising organizations. There are some other tools that 
we plan to develop to assist with local park fund-raising, 
which are described in my testimony.
    Senator Thomas, the National Park Foundation was very 
pleased when you expanded our legislative authority in 1998. We 
look forward to keeping you, your staff, and members of this 
subcommittee updated on our progress with local park fund-
raising efforts in the coming months. Thank you very much.
    [The prepared statement of Mr. Vestal follows:]

PREPARED STATEMENT OF JAY VESTAL, VICE-PRESIDENT OF FIELD DEVELOPMENT, 
                        NATIONAL PARK FOUNDATION

    Senator Thomas, thank you for your invitation to address this 
subcommittee. My name is Jay Vestal, and I am the Vice-President of 
Field Development for the National Park Foundation. I am charged with 
working with individual National Parks and their support groups to help 
them gain access to philanthropic support. I have had a nearly 30-year 
career in fund raising for non-profit organizations. For a majority of 
those years, I was associated with health care philanthropy. As Vice 
President of an organized fund raising effort for children's hospitals 
called the Children's Miracle Network, I was able to help infuse 
children's health care with an additional $600 million in private gifts 
over the span of a decade.
    More recently, I have served as a fund raising consultant to a 
broad range of well-known and successful non-profits including the 
American Cancer Society, Easter Seals, Junior Achievement and the 
American Diabetes Association.
    Today, I would like to speak with you and your subcommittee about 
the efforts of the National Park Foundation (NPF) to implement the 
provisions of Title VII of the National Parks Omnibus Management Act 
(P.L. 105-391) which was signed into law in November, 1998.
    This language amended the National Park Foundation's Congressional 
charter (P.L. 90-209) and directed the Foundation to develop programs 
and procedures to build philanthropic support at the local Park level. 
We are pleased to report today that with the leadership of the NPF 
Board and the support of this subcommittee, other members of Congress 
and the National Park Service, the Foundation has been able to increase 
the level of philanthropic support for National Parks over the last 
five years. Before talking about our specific efforts to build local 
Park fund-raising efforts, I would like to share some of these 
successes with the subcommittee.

               BACKGROUND ON THE NATIONAL PARK FOUNDATION

    The National Park Foundation honors, enriches and expands the 
legacy of private philanthropy that helped create, and continues to 
sustain, America's National Parks. In 2000, NPF raised nearly $32 
million in contributions and generated an additional $7 million from 
other sources. For every dollar that we spent, 94.5 cents supported 
National Parks through grants and other direct support and only 5.5 
cents covered our administrative and fund-raising costs. Total assets 
rose to $75 million.
    Over the past five years NPF has enjoyed substantial growth: a 
five-year total of $78 million in contributions, $106 million in total 
revenue and $66 million in total grants and program support to National 
Parks across the country. During the past five years, our net assets 
have increased by over $30.7 million. Some of these assets funded 
permanent endowments established to provide an ongoing revenue stream 
for a particular program or project for the benefit of National Parks. 
Other assets are still held by NPF, pending disbursements to Parks.
    Our grants fund outreach, education and visitor services to help 
enhance the National Park experience and strengthen the connection 
between the American public and the National Parks.
    The Foundation is governed by a Board of distinguished national 
civic and business leaders, appointed by the Secretary of the Interior, 
who are committed to supporting America's National Parks. By 
Congressional charter, the Secretary of the Interior is the 
Foundation's Chairman of the Board, and the Director of the National 
Park Service serves as its Secretary. David Rockefeller, Jr., currently 
serves as NPF's Vice Chairman and is the citizen leader of the Board. 
The Foundation lost one of its most productive Board members, Don 
Rumsfeld, when he became the Secretary of Defense earlier this year.
    The Foundation works closely with the leadership of the National 
Park Service here in Washington, in the regional offices and at the 
individual Parks. NPF could not have accomplished all that I describe 
in my testimony without the strong support, guidance and assistance of 
the National Park Service. Our work, and the work of the other local 
non-profit support organizations, is guided by Director's Order #21 on 
Donations and Fundraising.
    Philanthropy has always been a part of the National Park System. 
Many National Parks owe their existence to philanthropists who 
generously donated wondrous landscapes to the American people. Numerous 
benefactors, including the first National Park Service Director, 
Stephen T. Mather, have contributed their professional skills, personal 
talents and energies, as well as private collections, real estate, and 
financial support. I have attached a brief overview on the tradition of 
philanthropic support to National Parks to my testimony to demonstrate 
some of the ways private donations have made a difference in National 
Parks.
    There are a number of successful non-profits building on this proud 
philanthropic tradition every day. For example, Acadia National Park 
and the nonprofit Friends of Acadia have gone back to the roots of the 
Park and asked private citizens who care passionately about the Park 
and its environs to help rebuild the historic carriage road and trail 
systems. For the 38 miles of carriage roads, $4 million of private 
contributions were matched with more than $6 million of line item 
construction funding from the National Park Service. More recently, 
Friends of Acadia completed a $9 million campaign to rehabilitate 130 
miles of Park trails. In a superior example of partnership, the Park 
pledged $4 million, primarily from the fee demonstration program, which 
was matched by private donations solicited by the Friends. In both 
campaigns, endowments were established so that the benefits of the 
fund-raising efforts will continue.
    Another successful effort is underway in San Francisco, where the 
Golden Gate National Parks have done a great job positioning the 
numerous National Parks in the Bay area as deserving of philanthropic 
support from the local community. Last year, the Golden Gate National 
Parks Association, their support organization, raised over $11 million.
    There are similar success stories with groups such as the Grand 
Canyon National Park Foundation, the Yosemite Fund, Rocky Mountain 
Nature Association, Friends of Virgin Islands National Park, and the 
Yellowstone Park Foundation. The National Park Foundation works closely 
with these and numerous other local non-profit support organizations to 
increase the level of philanthropic support for National Parks.
    We have learned a lot from working with these local Park-support 
groups. Although some Parks are fortunate to have mature, 
sophisticated, successful fund-raising partners, most National Parks 
enter the world of philanthropy at the ground level. They must compete 
for the attention of donors amid the appeals of 700,000 other legally 
recognized non-profit organizations, many of which have been fund 
raising for years. Park support organizations must start with the same 
basic fund-raising principles that have created the most successful and 
sustainable philanthropic institutions.
    In addition, getting a fund-raising organization off the ground 
takes time. Several of the successful local Park support organizations 
started in the last seven years have shared their budgets for their 
first several years with us. In the initial years, each group was 
basically breaking even. But during these years, they were building 
their board leadership, their donor base, and general awareness in the 
local community--important steps which laid the groundwork for later 
successes. For example, the Friends of the Great Smoky Mountains 
National Park raised $140,000 in 1994, its first year of operation. In 
2000, the Friends raised nearly $1.8 million.
    Finally, the American public loves the National Parks, and when 
given the opportunity, has demonstrated a willingness to help. 
Philanthropy for National Parks, however, should never replace federal 
appropriations. It will never solve the National Park Service's backlog 
of infrastructure and maintenance needs, which donors see as the 
responsibility of the federal government. Private philanthropy is 
intended to provide additional financial support for the Parks and 
should supplement, not supplant, federal appropriations.
        comments on title vii--national park foundation support
    In 1998, Congress directed the National Park Foundation to design a 
program to foster fund-raising at the individual National Park unit 
level, in addition to its broader efforts. Over the past several years, 
NPF has developed several different models of Park-specific fund 
raising that make the most of local community enthusiasm and expertise 
as well as NPF's own institutional experience. Individual Parks or 
groups of Parks that seek NPF's assistance may choose the option of 
establishing a local fund-raising organization structured as a 
committee of the NPF Board. Under the committee structure, NPF assists 
the formation of each new fund, helping identify and recruit 
influential leadership as fund trustees. NPF seeks the leadership 
contributions that are essential to sustaining a start-up organization. 
With the volunteer leadership in place and operational funding secure, 
NPF can recruit a fund-raising professional to focus specifically on 
guiding the growth of the fund.
    Through these efforts, which the NPF Board directs, the Foundation 
has taken a strategic approach, assessing the various opportunities and 
focusing initially on a select few to ensure that we are able to 
succeed with each of the efforts we launch in partnership with the 
National Park Service. We continue to refine existing models and test 
new ones. Since each National Park is a little different, there is not 
one plan that can be applied across the entire System.
    I would now like to highlight several of our efforts:

Grand Teton National Park
    The National Park Foundation was already working to build local 
philanthropic support for National Parks before the passage of the 
National Parks Omnibus Management Act. In 1997, NPF helped create the 
Grand Teton National Park Foundation, which raises funds in support of 
the visitor services and resources protection programs of the Park.
    Working with the Park leadership, NPF recruited board members from 
both the local Jackson area and around the nation, including Lynne and 
Dick Cheney. The board is currently chaired by Jerry Halpin. Start up 
funds for the fledgling foundation came from gifts of $150,000 from a 
local couple and $100,000 from the Grand Teton Natural History 
Association.
    The Grand Teton National Park Foundation came together quickly from 
concept to a productive, progressive volunteer board and paid staff 
with over $2 million in resources in three short years. According to 
Linda Olson, Executive Director of the Grand Teton National Park 
Foundation, keys to success included: board members who have the 
knowledge and resources to get the job done; Grand Teton's popularity 
locally, regionally, and nationally, which allows the board to seek 
donations from park lovers nationwide; an executive director who knows 
the Park and the NPS; and advice and leadership from the National Park 
Foundation.

The Glacier Fund
    Over the last century, the railroads played a major role in 
popularizing America's National Parks, so it seems fitting that the 
first chairman of The Glacier Fund is Louis Hill, grandson and namesake 
of the president of the Great Northern Railroad. In the early 1900s, it 
was the first Louis Hill who conceived of a grand system of Swiss-style 
hotels that would rival anything in Europe and attract Easterners to 
``See America first!''
    The current Louis Hill and 15 other Trustees chosen from throughout 
the nation will guide fund-raising efforts to support the natural and 
cultural wonders at Glacier National Park in Montana.
    Between several fund-raising initiatives and gifts from the 
Trustees, operating costs for the Glacier Fund have been covered so 
that new contributions raised can be directed toward Park projects. 
It's important to note that 100% of the Trustees are contributors.
    So far, the Glacier Fund has disbursed more than $15,000 for 
renovation of the Sperry Chalet, $5,000 toward the salary of a bear-
management expert, $15,000 for wildlife research projects, $2,500 for 
an ecology project involving students from the Blackfeet Indian 
reservation, and is putting $5,000 into renovating an historic 
homestead in partnership with an Iowa hiking group. The Glacier Fund 
has $90,000 in its operating account and almost $200,000 in total 
assets invested with the National Park Foundation.

USS Arizona Memorial Fund
    It was a day that would ``live in infamy.'' Japan's 1941 attack on 
Pearl Harbor reverberated around the world, and the site--centered upon 
the doomed battleship USS Arizona--even today evokes powerful emotions 
in all who visit it.
    Still, no one imagined when the museum and visitor center opened in 
1980 that it would attract 1.5 million visitors a year. Long lines and 
waiting are standard, and the museum, because of its modest size, can 
exhibit only a fraction of the artifacts germane to the Park. The 
National Park Foundation, in consultation with NPS staff at the Park, 
has established the USS Arizona Memorial Fund to spearhead a $10 
million capital campaign to expand the visitor and staff facilities in 
a new Memorial Museum to enhance the Pearl Harbor experience.
    NPF has identified donor prospects and important connections within 
Hawaii's corporate community as we lay the ground work to begin 
securing leadership gifts for the campaign. The Arizona Memorial Museum 
Association provided a lead gift of $2 million to the USS Arizona 
Memorial Fund, and it is providing the operating capital for the 
campaign's early phases.

Outside Las Vegas Foundation
    Seven million acres of spectacular natural landscapes--ranging from 
the lush forested Alpine environment to dry desert landscape--surround 
Las Vegas. These public lands are managed by four federal agencies--the 
National Park Service, U.S. Forest Service, U.S. Fish and Wildlife 
Service and the Bureau of Land Management--which have come together to 
empower a non-profit organization to raise private support to assist in 
the protection of these special places.
    In 2000, these four agencies, working with the National Park 
Foundation, created the Outside Las Vegas Foundation, whose mission is 
to preserve the federal public lands surrounding Las Vegas, enrich the 
experience of its visitors, enhance the quality of life for local 
residents, and promote community stewardship of these valuable 
resources.
    The National Park Foundation helped secure a $300,000 grant to fund 
the first three years of operation. In addition, nearly $350,000 has 
been donated or pledged for initial programs and activities.
    The Outside Las Vegas Foundation has recruited prominent members of 
the Las Vegas community to serve as Trustees. A few months ago, the 
Foundation hired Alan O'Neill as its first Executive Director. Alan had 
previously been the Superintendent of Lake Mead National Recreation 
Area.

African American Experience Fund
    Seventeen National Park sites are dedicated predominantly to 
African American themes--from slavery to civil rights--and many other 
Parks address elements of the African American experience. Yet, African 
Americans account for a small fraction of National Park visitors. That 
is a situation the National Park Service is working hard to reverse, 
and the National Park Foundation has created a new fund in support of 
that effort. To date, the African American Experience Fund (AAEF) has 
secured $175,000 to operate for its first year and fund start-up 
activities. The Fund was officially launched last month during Black 
History Month at an event featuring Rep. John Lewis as the keynote 
speaker. The Fund seeks to create a new tradition of philanthropy for 
National Parks that illustrate significant moments in the African 
American Experience.
    Meanwhile, National Park Foundation Board member Barry Lawson 
Williams is spearheading the effort to recruit Trustees for the Fund, 
which is currently chaired by former National Park Service Director 
Robert Stanton. NPF-AAEF personnel are meeting with National Park 
Service officials of African American sites to map out goals and 
strategies to further raise awareness of these important places.

Future Plans
    Building off of the AAEF model of linking National Parks 
thematically, this year the National Park Foundation wants to try the 
model of linking National Parks geographically. The Washington National 
Parks Fund, serving Mount Rainier, North Cascades, and Olympic National 
Parks, was one of the first such multi-Park fund-raising organizations. 
Some of the seed money to launch the Fund came from the National Park 
Foundation.
    NPF is close to starting a new collaborative effort among the Parks 
of the Nation's Capital--including Rock Creek Park, the C&O Canal and 
the monuments on the Mall--so that the people who live and work in DC, 
as well as the millions who visit, know that these places that do so 
much for the quality of life in this area are, in fact, National Parks 
and worthy of their support.

Tools for Park-Specific Fund-Raising Efforts
    Title VII also established minimum requirements for NPF's efforts 
to promote philanthropic support at the local level.
    As described earlier in my testimony, the Foundation has developed 
an organizational design following the best practices in the non-profit 
community. The core elements include recruiting a strong board, 
developing a clear mission, securing start-up funding to underwrite the 
first several years of operation and hiring a paid executive director 
charged with the successful launch of the fund-raising effort.
    As described earlier in my testimony, NPF has developed a standard 
set of bylaws that any group can use to become a committee of the 
National Park Foundation. In addition, we have developed investment 
policies and fund accounting procedures to ensure the wise stewardship 
of contributions.
    The Foundation has designed a standard two-day training curriculum 
for beginning fund raising organizations associated with National Parks 
and other public lands. The first training session was offered earlier 
this month at the Association for Partners of Public Lands Annual 
Convention. We are currently working on the development of a Trustees 
manual for use by the Trustees of each local Park fund.
    Finally, the National Park Foundation is working closely with the 
National Park Service and other Park-specific fund-raising 
organizations to develop two publications. The first is a reference 
guide to National Park Service Directors's Order #21 on donations and 
fund raising. This document will interpret and explain in a user-
friendly style, the rules, regulations and policies governing fund 
raising for National Parks for National Park Service staff and their 
non-profit partners.
    The second is a handbook for private-sector support. This resource 
guide will provide Park Service staff and their non-profit partners 
with fundamental information on how to start, build and grow a local 
non-profit group to support the projects of a National Park.
    The handbook will also feature case studies and success strategies 
for public-private partnerships. We hope to have this handbook finished 
by the end of the year.
    Senator Thomas, the National Park Foundation was pleased when you 
expanded our legislative authority in 1998, and we look forward to 
keeping you, your staff and members of this subcommittee updated on our 
progress with our local fund-raising efforts in the coming months.

    Senator Thomas. Well, thanks to all of you. I appreciate 
your efforts. Certainly, all of us are interested in making 
things happen that will be beneficial for our parks. Also, in 
addition to the implementation of the laws in this case, we 
also need feedback in terms of the laws themselves. Sometimes 
they need to be altered as well, in order to be as effective as 
they can be.
    Mr. Galvin, you talked about training, which I think is one 
of the issues that always arises. Most people start managing 
resources, or doing whatever they do, and are more oriented 
perhaps towards bears and geysers. Then they become a park 
superintendent, which is a pretty good sized business operation 
in many cases. Does your training move in the direction of 
enabling people to be able to be business managers as well?
    Mr. Galvin. Incrementally it has I think. A couple of 
things.
    One is I know in the concessions hearing, we testified that 
we are working with universities--Northern Arizona University 
in this instance--to train our people more complementarily with 
the housekeeping industry and with the recreation industry.
    With respect to management and supervision training, we do 
now require 80 hours of management and supervision training 
when any supervisor enters on duty. So from the time they 
become a foreman or a supervisory park ranger, they get 80 
hours in the first year and are required to get 40 hours every 
year after that.
    With respect specifically to business practices, I think 
you are aware of the business plan initiative, which has been 
supported by the National Parks Conservation Association, which 
puts business majors in the parks to analyze their operations. 
We have done about 30 parks thus far. I think some of the 
superintendents in those parks, having had the advantage of a 
couple of M.B.A.'s in the parks for 3 or 4 months, have 
followed up by hiring people with an M.B.A. background--Santa 
Monica comes to mind--so that they can continue that analytical 
effort and look to people with business backgrounds to make 
recommendations.
    I remember one of the business students said, you know, you 
really need to think of a park as having a whole suite of 
investors. It is not just visitors that you are looking at. It 
is local communities. It is other things. That was kind of an 
eye-opening thing to hear for a park manager I think.
    So, we definitely need more business skills. I think we are 
moving in that direction.
    Senator Thomas. I hope so.
    Do your plans include drafting business plans?
    Mr. Galvin. Yes. I think this summer we will do probably 
another 10 or 15 parks.
    The business plan effort is a fairly extensive effort, and 
I think it requires resources that most parks really do not 
have. We have intentionally tried to do it in a variety of 
parks, small, medium, and large parks. We have developed a 
template of activities, as a result of that. We have integrated 
the approach with the Government Performance and Results Act 
and the strategic plan. In each instance, we found significant 
shortfalls in park operations as a result of those plans.
    What we are going to try to do this summer is to build a 
template in which parks could do business plans without the 
kind of expertise that they have gotten through the support of 
the Foundation and the business students. This is all being 
basically supported by private foundations.
    The foundations are not anxious to keep funding year after 
year more business plans for parks, but they are interested in 
two things. One is developing a system that could be replicated 
in other parks, and two is encouraging people with business 
backgrounds to enter the National Park Service. We have been 
talking about things like student loan pay-downs and other 
things that would encourage that.
    Senator Thomas. The Foundation is not drafting business 
plans, are you?
    Mr. Vestal. No, sir.
    Senator Thomas. It is NPCA.
    Mr. Galvin. I am sorry. It is NPCA. That is right. NPCA 
through Foundation funding. I am sorry.
    Senator Thomas. Well, I hope we can move in that direction. 
Of course, there is outsourcing. We can also bring people in on 
contracts, and so on.
    Mr. Galvin. Yes.
    Senator Thomas. One of the problems these gentlemen talked 
about, the allocation of funds, has a great deal to do with 
plans and business management. All those things, obviously, 
tend to go together.
    Mr. Ward, you state, I think in your testimony, that there 
is a rumor that there is inadequate funding to hire a second 
recruiting class. Do you think there is any substance to that 
rumor?
    Mr. Ward. We have a fairly open sharing of information 
between our Labor Committee and the management. They state that 
there is a conflict between the regional budget people and the 
Park Police budget people regarding when they are going to run 
out of money before the end of this fiscal year. The Park 
Police believe, if nothing is done, it will happen sometime in 
the June-July period. The regional people have evidently not 
stated a position, but they also are now preparing to write a 
reprogramming request and the recruit class. So, I would say 
that probably indicates that they have decided that they are 
going to run out of money unless something is done.
    One of the fears that was expressed to me by management was 
that even if they canceled the class and got it reprogrammed, 
that there still would not be enough money in the budget plan 
between now and the end of the year.
    This seems to go to the region prepared the budget plan for 
the Park Police this year. The Park Police have told the region 
they saw problems with it and probably would run out of money. 
But the region and evidently the higher-ups in the budget in 
the Park Service said it would be fine and it was perfectly 
adequate.
    Like I said, that is why we were appreciative of a 
requirement for a NAPA audit because this ties into the 
problems that have been ongoing for quite some number of years.
    Senator Thomas. Obviously, particularly for the police, law 
enforcement is not a unique issue. Do you work with others in 
law enforcement to get the latest information, the latest 
techniques and so on? You are not just independent from all 
other law enforcement agencies, are you?
    Mr. Ward. The Park Police in Washington, D.C. work with the 
Metropolitan Police, the FBI on the Counter-terrorism Task 
Force that they have.
    Senator Thomas. I am talking about planning and management, 
not just carrying out policing tasks.
    Mr. Ward. Well, I for years, as the head of our 
organization and our union, have advocated that the budget 
should be something that everybody in the organization should 
be able to look at, see, feel, and touch. And then rumors and 
the facts can be known. The way the budget has been run within 
the Park Service, the Park Police, is that no one ever sees 
anything that is written down. Different people say different 
things.
    For instance, I was at a meeting last year.
    I have no budgetary experience, but I looked around and I 
looked at Montgomery County police, San Francisco police, New 
York City police, and I looked for all the money that is listed 
in their budgets. I am not sure I found it all, but I found 
what I could find on the Internet. I added up all the budgets. 
Then I divided it by the number of sworn officer positions that 
they say they have or they say they need. Like New York City 
says we have 39,000 and we should have 42,000, and Montgomery 
County, Maryland says, we need 1,100 and we have 1,000.
    What I found was that the Park Police, if they removed the 
retirement payments for the D.C. retirement system out of the 
Park Police budget--because no other police budget has that 
sort of thing in it--and divide the total by the number of 
sworn officer positions, the Park Police has about $72,000 per 
officer. MPD in D.C. has about $82,000 and $90,000, and then 
the suburbs get into $100,000 and $200,000.
    The Park Police managers are saying, well, we do not get 
enough money. Maybe there is some truth to that, but it could 
be more complicated than that.
    So, I went to a meeting where former Assistant Secretary 
Berry, the Comptroller of the Park Service was there, and I 
sort of laid this out. I said, does anybody wish to dispute 
this information and say that the Park Police is a very well-
funded police organization. I looked right at the Comptroller 
when I said this. And nobody said anything. Maybe it is because 
they did not want to argue with me.
    But subsequent to that, we have gone out and I have heard 
that the argument has been made that the Park Police is a very 
well-funded police agency.
    Senator Thomas. Were you able to make a comparison of 
expenditure per officer compared to these others?
    Mr. Ward. Yes.
    Senator Thomas. What were they?
    Mr. Ward. For D.C. city police, it was about $82,000. The 
Capitol Police was about $92,000. The New York City police was 
a little bit ahead of MPD, but with 40,000 some odd officers, 
there is probably some economy of scale in there.
    Senator Thomas. So, at least the Park Police is in the ball 
park.
    Mr. Ward. Well, we are at $72,000. We are $10,000 behind 
MPD.
    Senator Thomas. Oh, I thought you said $92,000.
    Mr. Ward. We are the lowest of the ones I looked at in the 
geographic areas we work. We are $10,000 behind MPD, which is 
the next higher one, and it ranges upwards of $100,000 and 
something.
    Senator Thomas. It might be a reasonable thing to look at.
    Mr. Ward. Subsequent to that meeting, to sum up the point, 
I have heard that the Park Service has said through the 
Comptroller's office that the Park Police is a very well-funded 
agency and has made arguments for that. All I had to say is, 
well, those arguments may be true, but I have not heard them. 
But it is not an open atmosphere that leads to the solving of 
problems when contrary arguments are made and not disputed in a 
meeting you would think was being held to solve the problem.
    Senator Thomas. Thank you.
    Mr. Jackson, do you think it would be appropriate to have 
people in top management positions of the Park Service with a 
background and knowledge of law enforcement?
    Mr. Jackson. I think it is important. The Park Service does 
have a training program. That training program is improving, 
but it is possible to become a chief ranger of a national park 
with no advanced training whatsoever in administering law 
enforcement or to become a superintendent without more than a 
1-week class in administering law enforcement programs. There 
are no requirements beyond basic Federal Law Enforcement Center 
training classes, plus generally 40 hours a year, and that is 
it. But there is no concise development program for that within 
the ranger ranks.
    Senator Thomas. Well, it is unique in some ways. You also 
have fire fighters and building inspectors and other kinds of 
people who have specific tasks that are difficult, I suppose, 
who could work on that.
    Is there anyone in the management team who specifically 
deals with law enforcement, Denis?
    Mr. Galvin. Generally, central offices in the Park Service 
are organized the same way that parks are, and there is a 
division of operations that includes a variety of functions, 
which include law enforcement. In a park, the principal law 
enforcement spokesman would be the chief ranger. In the 
Washington office, it is the head of ranger activities who 
reports to the Associate Director for Operations. Now, the 
Associate Director for Operations might or might not have a law 
enforcement background. Usually they have a ranger background.
    Senator Thomas. Scot, you mentioned that as well, did you 
not, about the idea of an associate director for law 
enforcement?
    Mr. McElveen. I did in my written testimony, anyway. We 
would support that effort. As Greg said, the Washington office 
certainly could be beefed up some so that the law enforcement 
function part of that office gets more--``attention'' is not 
the word I am looking for--exposure so that the entire realm of 
National Park Service employees understand that law enforcement 
is an important function to meeting the mission of the National 
Park Service. It is not something that we just do because we 
have to.
    Senator Thomas. For instance, in Yellowstone the U.S. 
Marshal has people there, do they not? Are they there all the 
time, or are they just on the premises when there is a felony 
they have to deal with?
    Mr. Galvin. It would be unusual for a marshal to be in 
residence. Frequently in big parks, we have magistrate systems 
there.
    Senator Thomas. You do, but there has to be somebody to 
work with the magistrate.
    Mr. Galvin. Normally that is done by the rangers or by the 
Park Police in the areas where they have responsibilities. I am 
not aware of any place where there are permanently assigned 
U.S. marshals.
    Senator Thomas. No. I guess I did not expect that, but you 
can call on other enforcement agencies, can you not, when you 
have felonies?
    Mr. Galvin. Yes. And frequently we have written cooperative 
agreements with other agencies.
    Senator Thomas. I understand what you are saying.
    Mr. Vestal, I agree with you entirely that, as we have 
other sources for funding, the thing we have to be very careful 
about is that they are not used to supplant and take the place 
of appropriations, which can easily happen. On the other hand, 
there is a limit. Almost every agency that comes up here will 
say we need more money, and they probably do. Also, we have to 
find better ways to use the money. So, that has something to do 
with it, I am sure.
    You mentioned, I think again in your written testimony, 
about visitor complaints on the various fees and suggested that 
there be one entry fee and that be the only charge. Is that 
your point of view?
    Mr. McElveen. In some cases. Visitors get confused when 
they pay an entrance fee and either they do not hear the full 
explanation of that or they do not get it, one of the two. When 
they get to an activity that also requires a use fee, they are 
confused as to why did I pay the entrance fee and now that I 
want to go on this walk or I want to go on this canoe trip, I 
also have to pay another fee. They do not get that in many 
cases.
    Perhaps there is a way, in parks that are going to have 
those types of use fees, to incorporate the two together, 
although I am not sure how that would work because not every 
person that enters a national park unit that has an entrance 
fee goes on to do one of the special uses that the special use 
fees are charged for.
    Mr. Galvin. Mr. Chairman, that is one of the areas that we 
are going to be working with the Foundation and a private firm 
to study. The principal focus of that study will not be revenue 
enhancement, but rather it will be trying to rationalize the 
fee system so that when people pay for one thing at Bryce, they 
pay the same amount for the same thing at Zion, and to look at 
things like the difference between entrance fees and user fees, 
and see if there is a way that you can simplify the system 
without affecting the amount of revenue that is brought in.
    Senator Thomas. It is not an easy issue, of course.
    Do you favor extending the fee demonstration program?
    Mr. Vestal. Oh, yes, sir.
    Senator Thomas. Do you think that has been well received 
among visitors?
    Mr. Vestal. From our perspective, yes.
    Senator Thomas. Do you think the distribution of funding is 
properly done?
    Mr. Vestal. Well, I will have to defer to Mr. Galvin on 
that one.
    Senator Thomas. I thought you might have a prejudice on 
that some way or another.
    [Laughter.]
    Senator Thomas. What do you think will be the impact of the 
Golden Eagle Pass? Does that have any impact on the kinds of 
things you are doing?
    Mr. Vestal. One of the interesting things about the new 
National Park Pass is the ability to begin to engage in a 
dialogue with people who purchase the pass not just for the 
financial benefit but for the opportunity for them to 
demonstrate their stewardship of national parks. That program 
is now just beginning because the pass has just been in place 
for a year. But it is already beginning to show benefit in 
terms of people expressing their interest and support for 
parks. We are very pleased with it.
    Senator Thomas. Good.
    Could you briefly describe how that $12 million has been 
invested?
    Mr. Galvin. Eighty percent of it stays right in the park 
where it is collected, and virtually all of it goes into the 
infrastructure. We do not use any of it for operations or to 
pay permanent salaries. So, most of it is going to rehabilitate 
structures in the park. I was just reading a newsletter from 
Rocky Mountain this morning where they are rehabilitating 
campgrounds, providing new picnic tables, rehabilitating the 
rest room at their administration building.
    A couple of parks, Grand Canyon being the notable one, have 
made proposals to use a fair amount of their money to implement 
a transportation system, and that is still under review. But 
most of it goes to rehabilitate infrastructure.
    Senator Thomas. I have heard that that does need to be 
reviewed.
    Mr. Galvin. In fact, it is being reviewed at the direction 
of the Congress, Mr. Chairman.
    Senator Thomas. That is very nice.
    Again, I know it is always difficult. We have been dealing 
in the last several weeks with all kinds of people coming in, 
many of them concerning research. But your research on 
science--what could you say has been the accomplishment of 
that?
    Mr. Galvin. Well, first, I think that we feel that the 
National Park Service is not a research organization in the 
sense that we should do the research ourselves. One of the 
things that the Cooperative Ecological Study Units opens to us 
is the ability to use universities to do our research along 
with the Sabbatical in the Parks program, and the Learning 
Centers. And BRD is still an important contributor to the 
knowledge gained in individual parks. What we do with that 
information is use it as research managers.
    Now, in many instances, that means we need people with 
scientific background in parks so that they can manage the 
science done in the parks, and they may be Ph.D.'s, but we do 
not see--a person like Dave Graber at Sequoia who is a Ph.D. 
but manages science in Channel Islands and Sequoia and other 
places and makes sense out of the research so that he can 
translate it to managers for sound management decisions.
    The codification that is in this omnibus bill has been 
extremely useful, both in terms of setting up major areas of 
science and research, but also in encouraging outside 
researchers to do research in parks. One of the things that is 
mentioned in my testimony that I did not highlight is the 
research permit system is now up on the Internet. So, a 
researcher who is interested in doing research in a particular 
park or in a unit of the National Park System can look at a 
particular park. Say, somebody is interested in doing research 
on Channel Island. See what the research needs are of the park, 
apply, do the permit application on the Internet and get a 
response on the Internet. So, we are trying to make the system 
easier for researchers to get into.
    I was just in a Learning Center 2 weeks ago in Point Reyes. 
We are rehabilitating buildings in parks, in this instance a 
ranch, to provide working space for researchers, dormitory 
space, office space, computer terminals, laboratory space. That 
alone encourages researchers to do work in parks and is a very 
cost beneficial way to do it.
    Senator Thomas. I guess I am not quite clear. It seemed to 
me that what I had heard from the Park Service is that the 
research and science--and I understand that all the visitors 
and all the infrastructure, and so on, has taken away from 
that--was basically oriented at managing those resources----
    Mr. Galvin. That is right.
    Senator Thomas [continuing]. Not just at random research.
    Mr. Galvin. No. They work off a list of park needs. On this 
Internet system, there was a list of research needs in the 
parks that researchers work off of.
    Senator Thomas. Needs for what?
    Mr. Galvin. Needs for management.
    Senator Thomas. How to manage the resource.
    Mr. Galvin. Exactly, right.
    I was with one of the BRD biologists last week, and they 
are doing extensive surveys on the animals in the parks. 
Interestingly enough, amphibians in Point Reyes are in great 
shape. Now, generally throughout California, amphibians are in 
decline. In fact, the BRD researcher who is resident in Point 
Reyes is an expert on amphibians in California. So, one of the 
unique opportunities that Point Reyes offers is to figure out 
why are these populations in good shape in Point Reyes and not 
in such good shape on the western face of the Sierras and maybe 
to be able to solve a much bigger problem, but using the 
information that they found in the park.
    Senator Thomas. Mr. Ward, just thinking out loud, in 
Washington, for example, where the parks' resources are strung 
out all over the place, why would it not make more sense to 
contract with the D.C. police to do some of this work, as 
opposed to having the Park Service do it all?
    Mr. Ward. That goes back to the National Commission for the 
Advancement of Federal Law Enforcement. Sort of one of the 
things they were tasked with was why is there Capitol Police 
and FBI? I think that is reflective of the way the United 
States of America is. Most States have State police, they have 
city police or county sheriffs and different sort of things 
like that. I think the Federal Government sort of reflects that 
State sort of thing.
    Why is there a Park Police? Because I think the President 
who lives in the White House and the Federal Government and the 
executive branch have an interest in the law enforcement that 
occurs on the National Mall and in and around the White House.
    Senator Thomas. That is why all the Secret Service guys are 
standing around there.
    Mr. Ward. Well, their mission is to protect the President.
    Senator Thomas. I understand, and I am not promoting this 
idea.
    When you talk about Yellowstone Park, are they the only 
police agency with jurisdiction in the park?
    Mr. Ward. Right.
    Senator Thomas. When you talk about the parkway over here, 
that is right in the middle of a county in Virginia, and you 
begin to wonder why do we have to do it that way. I do not know 
the answer. I am not suggesting it be changed, but it does 
raise a question.
    Mr. Ward. From our perspective and from what I thought the 
Government's perspective was, it would be a good thing to have 
the people that control the areas around the White House that 
handle the demonstrations to be somewhat removed from directly 
being associated with the President.
    Senator Thomas. I know, but when you have a ball park 
across the river over here that you are responsible for, that 
is a little different matter.
    Mr. Ward. Well, yes, it is. But in order to have a force of 
the size to be able to handle the large demonstrations on the 
Mall, there has to be a mission ongoing. The way it has 
developed is that the Park Police have responsibility for the 
Park Service stuff that is around D.C., and our core mission of 
handling the demonstrations and the large public events on the 
National Mall are part of that.
    Senator Thomas. I understand. Maybe the Mall is a different 
matter from some of the others. I think it might be interesting 
to think about it sometime. Times do change and sometimes you 
have to change the way you do things. I do not know that that 
is appropriate, but I see the Washington, D.C. role quite 
differently than the other roles played in the other parks, or 
maybe even in New York at the Statue of Liberty. I do not know. 
Just a thought.
    Mr. Ward. Well, I would suggest in the parks where the Park 
Police are at it is an exclusive or concurrent jurisdiction in 
urban areas which have a mission that requires a more urban 
type organized police force, which is what the Park Police 
provide for the Park Service. And I think it is important issue 
for the executive branch and the President to have control of 
the department.
    We believe that NAPA will be addressing this issue in the 
audit that is going on.
    Senator Thomas. Good.
    Scot, you talked about the various functions in the parks 
and so on. Do you feel comfortable with the allocation of 
dollars? Sure, everybody wants more dollars and I understand 
that.
    But one of the other issues is the management plan and how 
you allocate the dollars that are available. Do you have a 
feeling about this?
    Mr. McElveen. I think the other disciplines other than 
protection would again make the same arguments to you that in 
resource management we do not have enough employees, and from 
the 1998 Act, the natural resource challenge sprang from that 
and some new funding has come into that. But there are a number 
of visitor centers around the National Park Service that are 
primarily operated by volunteers that, while assisting the 
Government and we are happy have them, do not necessarily have 
the resource based knowledge to answer visitors' questions 
fully and completely so that they get the connection between 
the resource and themselves.
    So, I would be hard-pressed to say that we need somebody 
else's money, we need other people's money allocated in the 
protection division. I just reiterate our statement that all 
three of those things have to occur for park resources to be 
preserved and people to be able to enjoy them.
    I think the feeling that we get in the protection ranks in 
the field sometimes is that, again, you are good when we need 
you, but other than that, the work that you do can be 
redirected to something else until a response is needed. And 
that is not good enough.
    Senator Thomas. I suspect that is characteristic of 
emergency services everywhere, is it not?
    Mr. McElveen. I suspect so. In people and property related 
emergency services, that is okay in many cases because people 
can complain when something is happening to them, but resources 
cannot do that.
    Senator Thomas. Denis, I have heard, as we talk about the 
administration's budget and the Park Service budget, early on 
there was going to be, over a period of time, $5 million for 
infrastructure, and so on. Is that going to be new money, or is 
that going to be reallocation, for instance, of demonstration 
fees?
    Mr. Galvin. Some of both, I am afraid. I am not at liberty 
to divulge the details. There is a very strong emphasis on 
infrastructure. There is some redirection of existing funds to 
infrastructure, including fees, and there is some new money to 
tackle the infrastructure problem. But it is not all new money.
    Senator Thomas. It goes back to our comment a moment ago. 
We have been working on the fee demonstration project, but then 
if you are going to add something of substance to the 
infrastructure, and you take it away from something else, you 
have not accomplished a hell of a lot really.
    Mr. Galvin. I would agree with that statement, Mr. 
Chairman.
    Senator Thomas. We do not have an Assistant Secretary yet 
to deal with that.
    Mr. Galvin. Nor a Director.
    Senator Thomas. Nor a Director.
    Mr. Galvin. Not a Deputy Secretary yet either in terms of 
Senate confirmation.
    Senator Thomas. We have got one pretty close apparently.
    Well, these are tough issues and I know that.
    I do want to tell you all, that I think there has been 
substantial movement to implement the law that went in a couple 
years ago, and I am pleased about that. Just in my own opinion, 
we do need to strengthen the management. I think we need 
business plans in each of these parks, that are of any size at 
all.
    I frankly think we need, as you suggested, somebody in top 
management that deals more specifically with the uniqueness, 
for instance, of the policing aspect of it.
    My own prejudice, which not everybody agrees with, is that 
I think there ought to be more oversight at the regional level, 
in terms of management. I agree that parks ought to have some 
autonomy because each of them is different, but I think they 
also have to have some accountability. Some of that comes from, 
I think, regional oversight and so on.
    I know it is not easy, and I will not take much more of 
your time.
    Denis, one other thing. On this leasing deal, it is my 
understanding under the proposed rules, they combine historic 
leasing with other leasing authorities, and this is creating 
some real issues.
    Mr. Galvin. We do not think so. I mentioned in my testimony 
that we got all supportive comments. We did not get a lot of 
comments. People seem to be pretty satisfied. The reason we 
rolled the historic leasing in with the regular leasing was 
because of the title that encouraged us to simplify historic 
leasing which, God knows, has not been terribly simple. So, we 
think by having both things combined in the regs, that we will 
actually make life simpler for prospective lessees.
    Senator Thomas. I guess the reason that it seems difficult 
to combine the two is that you do not have competition for 
historic leasing. You do not have fair market values for 
historic leasing. They are not profit-producing items that you 
can come back to a business aspect. To roll the two together 
seems to make it mighty difficult.
    Mr. Galvin. They might be profit-making in some instances, 
bed and breakfasts and other things. However, I believe the 
historic leasing regulations do require fair market value 
adjusted.
    Senator Thomas. Yes, but there are some things that are 
historic that do not have any profitability motive at all.
    Mr. Galvin. Well, they are turned into private residences 
or something like that. Yes, that is right. I do not think that 
the combination of the historic leasing and regular leasing 
programs is going to complicate life. I hope it is going to 
simplify things.
    Senator Thomas. I hope so.
    Mr. Galvin. It needs to be simplified. The legislation was 
right on in that respect.
    Senator Thomas. Some of the rules we went through last week 
in my opinion do not simplify and, indeed, make some of them 
more difficult. I agree with you that simplification and 
fairness ought to be our goal.
    Very quickly, as we all depart, other than just more money, 
what would each of you say was the one thing that you would 
like to see happen that would make your job more effective?
    Mr. Vestal. Well, sir, we have been very pleased with our 
new authority that you have granted us. I would only emphasize 
that it takes time to build up the local grassroots fund-
raising that we are working on. I would just suggest you give 
us some time to do the work that you have given us the 
challenge to meet, and I think we will meet it for you.
    Senator Thomas. Very good.
    Scot.
    Mr. McElveen. The law required a law enforcement study. 
That study was done. There are very good recommendations in it, 
and we would just like to see some implementation strategies. 
If more new money is not the answer, then what is the answer? 
Let us see how we are going to get these recommendations done, 
or are they, in fact, not correct recommendations? I think they 
are, but let us implement them.
    Senator Thomas. Very good.
    Greg?
    Mr. Jackson. I would agree with Scot. Implementing the 
proposals from the IACP study is important, and probably 
amongst that is getting someone up at the top with experience 
in managing a law enforcement program to see that, if there is 
no money or no new positions, at least what we have is being 
used most effectively.
    Senator Thomas. Very good.
    Pete?
    Mr. Ward. I would concur with that and just say staffing 
pretty much throughout the whole Park Service of the law 
enforcement portion.
    Senator Thomas. Is it fair to say from you three guys, 
basically, that the study has produced some recommendations 
that would be useful, if implemented?
    Mr. Ward. Yes. Our joint statement, if you read it, is like 
a short version of the two reports.
    Senator Thomas. That is good. Sometimes studies do not 
produce anything very useful. I am glad to hear they did.
    Denis?
    Mr. Galvin. Mr. Chairman, first, I would like to thank all 
the members of this subcommittee, both present and past, for 
passing this legislation. As I said at the beginning, I think 
it is an important addition to our ability to manage the 
National Park System.
    I think especially I would like to single out its impetus 
towards a better natural resource management program and better 
information for managing parks. I believe in the long run that 
is going to be the most significant contribution, and I believe 
over the past 3 years, as a result of this act codifying our 
role in resource management, we have made significant strides 
in finding out what is really going on at parks. I think that 
is going to be of great benefit to managing parks, but I also 
think it is going to be of great benefit in understanding what 
goes on on the land generally, to all our benefits.
    Senator Thomas. Good. I think--and you would agree I 
believe--that the main purpose of a park is to preserve the 
resource and then let the owners enjoy it.
    Mr. Galvin. Absolutely.
    Senator Thomas. Unfortunately, often ruts in the road, or 
the bathrooms not being up-to-date and so on, get more 
attention than some of the things you are talking about. So, we 
have to be careful that we have a balance between protecting 
those resources and making the visit useful.
    We are hopeful that we can do more on the visitors' side, 
Jay, with the kinds of things you are doing and that with the 
kinds of contributions you are collecting, we can implement 
some of these programs.
    So, in any event, I feel good about it. I hope we can 
continue to make progress and we appreciate all of you being 
here and appreciate your input. Thank you so much.
    We will adjourn.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                     Washington, DC, April 5, 2001.
Hon. Gale Norton,
Secretary, U.S. Department of the Interior, c/o The Office of 
        Congressional Relations, Washington, DC.

Re: Additional questions regarding the Subcommittee Oversight Hearing 
on the National Park Service's implementation of management policies 
and procedures in conformance with the provisions of Title IV of the 
National Parks Omnibus Management Act of 1888--Thursday, March 22, 
2001.

    Dear Secretary Norton: In order to complete the record on the above 
referenced hearing the following questions are submitted for your 
response:
    It is my intention to close out this phase of the hearing record 
within thirty days of the date of this letter of request. I also 
realize that some questions will be subject to review by the Department 
of Justice, given the state of litigation on these same concession 
issues. Should additional time be required for your response, please 
feel free to contact Jim O'Toole of the Subcommittee staff to arrange 
for a reasonable alternate deadline.
    Thank you in advance to your attention to this request, and I look 
forward to your response.
            Sincerely,
                                   Craig Thomas, Chairman,
                                           Subcommittee on National 
                                               Parks,
                                           Historic Preservation, and 
                                               Recreation.

    [Responses to the following questions from the Department 
of the Interior were not received at the time this hearing went 
to press.]

    Question 1. Describe what specific progress the National Park 
Service has achieved in the implementation of management policies and 
procedures in conformance with the provisions of Title IV of the 
National Parks Omnibus Management Act of 1998?
    Question 2. Are there issues or problems that the Congress did not 
anticipate in1998 which require supplemental legislation in order for 
the National Park Service to effectively and efficiently carry-out the 
intent of this legislation?
    Question 3. Today under the new standard contracts park 
concessionaires, or their parent companies, will not be able to 
refinance their various commercial loans without approval of the 
National Park Service. For many businesses such provisions are 
considered to be an unreasonable encumbrance on a contract;
    a) what is the rational behind this policy;
    b) why is the policy necessary;
    c) would you provide examples of similar practices which are 
incorporated into standard contracts commonly issued in private sector 
business transactions, and
    d) considering your response to question ``3(b)'' describe any 
acceptable reasonable or viable alternative provision which might be 
incorporated into the standard contract language.
    Question 4. The standard language for contracts appears to indicate 
that if the National Park Service Director changes a policy or 
promulgates a new rule changing the terms and conditions of a signed 
contract, the concessionaire has no recourse but to absorb the cost of 
change, and/or accept new contract conditions. A business entity 
responding to an opened-ended contract, the provisions of which could 
change at any time, is not offered any opportunity to adjust management 
options, fees, and/or practices to absorb the cost of conducting 
business activities;
    a) why did the National Park Service ignore standard private-sector 
business practices which would provide provisions for contract 
renegotiation or recalculation should the terms and conditions of a 
specific contract change prior to the contract termination date;
    b) how will the open-ended contract provision affect competition, 
and
    c) is the National Park Service going to implement changes in their 
rules and procedures to rectify this oversight?
    Question 5. The National Park Service written testimony states that 
many of the recommendations from the annual report issued by the 
Concessions Advisory Committee, as well as those recommendations issued 
by Price-Waterhouse-Cooper will be incorporated into the concessions 
management program:
    a) what specific recommendations are you considering? How and when 
will you incorporate the recommendations into the concessions 
management program; and
    b) how long will it take to implement the recommendations and what 
effect will that have on the contracts that will be issued prior to the 
implementation of such recommendations?
    Question 6. Does the National Park Service require more time to 
formulate, solicit and award the backlog of contracts (if so, how much 
time will the National Park Service require)?
    Question 7. Contracts now provide the National Park Service the 
opportunity to take two years to purchase the value of a concessioners 
possessor interest or lease-hold surrender value if the current 
operator is unsuccessful in his or her bid process--or if the current 
operator decides to refrain from participating in another contract:
    a) how often do you believe that a current concession operator's 
interests will not be purchased by another successful bidder; and
    b) given the time it will take to 1) study, analyze and evaluate 
the financial condition of a current concession operation, and 2) issue 
a proper, well-defined prospectus--is it feasible that sufficient time 
will be available to predict that Congress may be required to off-set a 
purchase of a concession operation through the appropriations process;
    c) are there other alternatives to the two-year hiatus for payment 
of interest that may be incurred, and
    d) given the fact that individuals or companies in the private 
business sector do not normally enter into concession type contracts 
which would unduly delay a return on their investment, do you believe 
that the ``two-year wait provision'' will have a dampening affect on 
the number of prospective bidders that will be willing to participate 
in contract negotiations with the National Park Service given a choice, 
a business could for seeably invest his or her money in a program that 
would yield a higher return than that received at the interest rate 
offered by the National Park Service?
    Question 8. Congress directed the National Park Service to 
streamline the contracting process for the smaller operator. On one 
hand, you have reduced the literal size of the proposal; on the other 
hand, you have doubled the workload and manpower necessary to fully 
respond to a prospectus by the inclusion of your additional 
requirements:
    a) what is the National Park Service going to do to ease the 
excessive paperwork, accounting, and time that the smaller operator now 
finds himself or herself under the new bidding procedures, and
    b) what is the National Park Service going to do to ensure that the 
individual units of the System can respond to concession operator 
inquiries concerning the meaning and scope of information required by 
the issued prospectus?
    Question 9. What is the National Park Service prepared to do to 
ensure that they have access to the expertise necessary to issue a well 
prepared prospectus and contract; efficiently and effectively analyze 
current concession operations, and effectively negotiate and arbitrate 
concession issues?
    a) What does the National Park Service plan to do in the interim, 
and
    b) will the ``apparent lack of expertise'' delay contracts and 
negotiations with concession operators whose contracts have, or are 
about to expire?
    Question 10. In the legislation Congress provided the Secretary 
with the authority to add criteria to be considered in the selection of 
the ``best offer''. Are responses under ``environmental practices'' 
given more weight, the same weight, or less weight in the selection 
process?
    Question 11. The National Park Service has issued (under the new 
rules and regulations) its own unique criteria for what can be 
considered a ``capital expenditure or capital improvement''. In doing 
so, the National Park Service has ignored the definitions of capital 
expenditures / capital improvements provided by ``GAAP'' (General 
Accepted Accounting Principals). GAAP is used by the majority of all 
other federal agencies:
    a) why did the National Park Service ignore the definitions, rules 
and procedures as defined by GAAP;
    b) what is unique to National Park Service concessions operations 
which would justify using their own definitions, rules and procedures?
    c) The National Park Service also chose to ignore the rules, 
regulations and procedures as set forth by FAR (Federal Acquisition 
Regulations) which cover federal contracting and are used by the 
majority of the rest of the federal government agencies. Why did the 
National Park Service ignore what has appeared to be acceptable to the 
rest of the government?
    Question 12. Mr. Horn, stated in his written testimony that some 
operators seeking assurance of the preference right eligibility are 
being informed ``our agency lawyers are still looking at the issue:
    a) the legislation is clear that specific that certain operators 
are entitled to the `renewal preference'--what specifically remains 
unclear or uncertain, and
    b) what are you doing about new contracts while this issue is being 
reviewed, in light of the legal theory that ``. . . even if it is the 
law, if it is not specifically written in the contract you are not 
entitled to the preference . . .''?
    Question 13. It is apparent that it will take some time for the 
National Park Service to formulate, solicit and award some of the 
larger contracts:
    a) have you thought about providing extensions of two or three 
years so that at least the government can receive some enhanced 
services or facility maintenance during this interim period; and
    b) what benefits does the government receive under a series of one 
year extensions as opposed to a multiple year extension?
    Question 14. In your opinion does the Advisory Board require 
assistance i.e. office space, staff, etc., and has such assistance been 
offered?
    Question 15. A great deal of time and energy was spent on the 
``right to transfer ownership of a concession operation'' and the 
National Park Service's limited roll and function in the authorization 
process.
    a) Please survey a random number of concession operators and 
identify any problems that may appear to deviate from the intent of 
Congress and provide the Subcommittee with any remedies that you be 
able to issue in this regard.
    Question 16. The new National Park Service rules and regulations 
policy precludes the agency from consulting with the existing 
concessionaire even during the initial or early stages of prospectus 
development. Why would the National Park Service preclude itself from 
obtaining information which could render specifics details about an 
operation that could ultimately lead to a more thorough and 
comprehensive prospectus?
    Question 17. The form contract requires the concessioner to use 
``best management practices''. This essentially means that the 
concessioner must employ cutting edge technology to address 
environmental issues or any other operating issues. There is no concern 
shown for the economic impact of requiring such practices, even if they 
were defined; and, as the definition of ``best management practices'' 
changes over time, there is no way for the concessionaire to assess the 
financial risk with future National Park Service mandates under this 
rubric. Is there any way to further define ``best management 
practices'' while achieving the desired results desired by the National 
Park Service, without such a potential financial impact to the 
prospective concession operator?
    Question 18. The standard contract states that the concessionaire 
shall operate and maintain the property ``in a manner considered 
satisfactory by the Director''.
    a) What is considered ``in a manner considered satisfactory by the 
Director'', and
    b) what can be done in the rules and regulations and/or prospectus 
to clarify the terms and conditions of this terminology?
    Question 19. You have placed strict time limitations on the 
concession operation to request an adjustment of his or her fees as a 
result of ``extraordinary unforeseen circumstances''. The legislation 
provides this opportunity, but the legislation does not require time 
specific actions. What happens if the actual financial impact of 
``extraordinary unforeseen circumstances'' is not fully realized for a 
period of 6 to 9 months after the ``extraordinary'' circumstance. In 
other words a concession may not immediately understand the total 
financial effect of a particular event. Can this time limit be 
extended, if not, why not?
    Question 20. The NPS has required a very broad indemnity from the 
concessioner. The policy, arguably, could be interpreted to include 
actions of park visitors or even National Park Service personnel. The 
language is obviously very vague as issued through the rules and 
regulations. Can you find a way to specifically define the extent of 
indemnity that would clearly fall under the obligation of the 
concession operator?

    Senator Graham has also submitted the following questions 
for the record:

    Question 1. What is the current status of contract actions in the 
Service?
    Question 2. Number of concessions contracts?
    a) Number operating under extensions?
    b) Contracts currently in the bidding process? and
    c) What is the anticipated time requirement to prepare contract 
documents, receive bids and negotiate final contract terms?
    Question 3. What is your time period for completing contracts 
currently operating under extension or expiring prior to the end of 
December 2002?
    a) Large contracts in excess of $3 million gross revenue?
    b) Contracts under $3 million?
    Question 4. What steps are you taking to determine the possessory 
interest or leasehold surrender interest prior to advertising contract 
opportunities?
    Question 5. How and at what stage of the contract process will 
disputes over the possessory interest with concessioners be resolved?
    Question 6. Has the National Park Service established procedures to 
track leasehold surrender interest over the contract term to not repeat 
this process under new contracts?


</pre></body></html>
